   An Assessment of the 1996
Department of Justice Task Force
  Review of the FBI Laboratory




             U.S. Department of Justice
             Office of the Inspector General
             July 2014
                             EXECUTIVE SUMMARY1
      This is the third review by the Office of the Inspector General (OIG)
since 1997 related to alleged irregularities by the Federal Bureau of
Investigation (FBI) Laboratory (Lab).2 The first two OIG reports focused on
alleged FBI Lab deficiencies, the conduct of individuals brought to our
attention by a whistleblower, and remedial actions the FBI took in response
to our recommendations. This report addresses how the Criminal Division
Task Force (Task Force), created by the Department in 1996 and whose
mission was redefined in 1997, managed the identification, review, and
follow-up of cases involving the use of scientifically unsupportable analysis
and overstated testimony by FBI Lab examiners in criminal prosecutions.
We analyzed the Task Force’s review of cases involving 13 FBI examiners the
Task Force determined had been criticized in the 1997 OIG report. We
included in our review a close examination of cases handled by 1 of the
13 examiners, Michael Malone, the Lab’s Hairs and Fibers Unit examiner
whose conduct was particularly problematic.

      Although the Task Force made a diligent effort to manage a complex
review of thousands of cases, we found the following serious deficiencies in
the Department’s and the FBI’s design, implementation, and overall
management of the case review process.

       First, despite some effort by the Task Force to segregate for priority
treatment cases involving defendants on death row, the Department and the
FBI did not take sufficient steps to ensure that the capital cases were the
Task Force’s top priority. We found that it took the FBI almost 5 years to
identify the 64 defendants on death row whose cases involved analyses or
testimony by 1 or more of the 13 examiners. The Department did not notify
state authorities that convictions of capital defendants could be affected by
involvement of any of the 13 criticized examiners. Therefore, state
authorities had no basis to consider delaying scheduled executions.


       1  Department of Justice Inspector General Michael E. Horowitz recused himself
from this review because he occupied senior management positions within the Criminal
Division from 1999 through 2002. We did not interview Mr. Horowitz or review his conduct
because of the inherent conflict for this office to evaluate the role of the Inspector General.
Although auditing standards are not applicable to this review, which is not an audit, they
provided useful guidance on this issue. See Generally Accepted Government Auditing
Standards (December 2011).
       2  U.S. Department of Justice Office of the Inspector General, The FBI Laboratory:
An Investigation into Laboratory Practices and Alleged Misconduct in Explosives-Related and
Other Cases (April 1997) and The FBI Laboratory One Year Later: A Follow-Up to the
Inspector General’s April 1997 Report on FBI Laboratory Practices and Alleged Misconduct in
Explosives-Related and Other Cases (June 1998).




                                               i
       As a result, one defendant (Benjamin H. Boyle) was executed 4 days
after the 1997 OIG report was published but before his case was identified
and reviewed by the Task Force. The prosecutor deemed the Lab analysis
and testimony in that case material to the defendant’s conviction. An
independent scientist who later reviewed the case found the FBI Lab
analysis to be scientifically unsupportable and the testimony overstated and
incorrect. Two other capital defendants were executed (Michael Lockhart in
1997 and Gerald E. Stano in 1998) 2 months and 7 months, respectively,
before their cases were identified for Task Force review as cases involving
1 or more of the 13 examiners. Although we found no indication in the Task
Force files that the Lab analyses or examiners’ testimony were deemed
material to the defendants’ convictions in these cases and, according to the
FBI, the OIG-criticized examiner found no positive associations linking
Lockhart or Stano to the crimes for which they were convicted and executed,
the Task Force did not learn this critical information before the executions
so that appropriate steps could have been taken had the analyses or
testimony been material to the convictions and unreliable.

       Another capital defendant (Joseph Young) died in prison of natural
causes in 1996 before the 1997 OIG report was published. However, the
Task Force did not refer his case to the FBI for review by an independent
scientist even though the prosecutor had deemed the FBI Lab analysis and
testimony to be material to the conviction. It is not known whether the
outcome of this defendant’s trial or his sentence would have been different
without the examiner’s testimony, which in other cases was deemed
scientifically inaccurate, exaggerated, and unreliable. In all, the Task Force
referred only 8 of the 64 death penalty cases involving the criticized
examiners for review by an independent scientist. We found evidence that
the independent scientists’ reports were forwarded to capital defendants in
only two cases. The Department should have handled all death penalty
cases with greater priority and urgency.

      Second, we concluded that the Department should have directed the
Task Force to review all cases involving Michael Malone, the FBI Lab
examiner whose misconduct was identified in the OIG’s 1997 report and
who was known by the Task Force as early as 1999 to be consistently
problematic. Malone’s faulty analysis and scientifically unsupportable
testimony contributed to the conviction of an innocent defendant (Gates),
who was exonerated 27 years later, and the reversal of at least five other
defendants’ convictions because of Malone’s unreliable analysis and
testimony. Malone retired from the FBI in 1999, but we learned, and the
FBI confirmed, in May 2014 that Malone had been performing background
investigations as an active contract employee of the FBI since 2002. After
we brought Malone’s contract employment to the attention of the FBI and
the Department, the FBI reported that, effective June 17, 2014, Malone’s
association with the FBI was terminated.


                                       ii
       Third, while we recognize that resource management is an appropriate
consideration in the Department’s decision-making, we found that
categories of cases were inappropriately eliminated from the Task Force’s
scope, including most cases that pre-dated 1985, to reduce its work to a
more manageable level. The decision not to review these categories of cases
devalued the liberty of and collateral consequences potentially suffered by
the defendants in these cases whose convictions may have been supported
by unreliable FBI Lab analysis or testimony. In our view, the Department
fell short of the Task Force’s articulated mission to ensure that defendants’
rights were not jeopardized by the conduct of any of the 13 examiners when
it excluded categories of cases from the Task Force’s review.

       Fourth, we concluded that the Department failed to ensure that
prosecutors made appropriate and timely disclosures to affected defendants,
particularly in cases where the prosecutor determined that Lab analysis or
testimony was material to the conviction and the report of the independent
scientists established that such evidence was unreliable. Some federal and
state prosecutors failed to disclose the independent scientists’ reports or did
so months or years after they received them from the Task Force. As a
result, some defendants learned very late – or perhaps never – that their
convictions may have been tainted. The Department should have required
federal prosecutors, and strongly encouraged state prosecutors, to disclose
the independent scientists’ reports to defendants when the reports
concluded that material Lab evidence was unreliable.

       Fifth, we found that the Department failed to staff the Task Force with
sufficient personnel to implement a case review of the magnitude it
undertook. We also concluded that the FBI did not consistently maintain
the project as a sufficiently high priority, as reflected by the irregular
staffing it committed and its manner of hiring and managing independent
scientists to review the work of the Lab examiners. In our view, 8 years was
much too long for the Task Force and the FBI to complete the case reviews.
The delays had significant consequences for individual defendants’ cases.

       Lastly, we found that the Department failed to require prosecutors to
notify the Task Force of their disclosure determinations to enable the Task
Force to track disclosures of independent reports to affected defendants.
We found evidence that the prosecutors disclosed the reports in only 13 of
the 402 case files we reviewed. As a result of the Department’s failure to
incorporate a tracking component in the case review process, the Task Force
was unable to determine whether effective notification to defendants or their
counsel had been achieved. In addition, the Task Force’s communications
to prosecutors did not emphasize the importance of acting swiftly to disclose
the reports, particularly in death penalty cases.




                                      iii
      In this report, we make five recommendations to the Department and
the FBI regarding additional review of and notification to defendants whose
convictions may have been tainted by unreliable scientific analyses and
testimony. We also note that almost all of the problems we identified with
the Department’s and the FBI’s design and management of the FBI Lab case
review occurred long ago and most of the employees responsible for the
review have left the Department or the FBI. During the course of this
review, we provided the Department and the FBI with information about
certain defendants – including all capital cases and all cases reviewed by
independent scientists – so that the Department could take immediate
action to ensure these defendants received appropriate notice of the
possibility that their convictions were supported by unreliable evidence.
The Department and the FBI have worked cooperatively with us to expedite
potentially remedial action.




                                    iv
                                  TABLE OF CONTENTS
CHAPTER ONE: INTRODUCTION................................................................ 1 

I.      Background ...................................................................................... 1 
        A.      OIG Investigation of Whitehurst Allegations, 1994–1997 .......... 2 
        B.      Criminal Division Task Force ................................................... 4 
        C.      Defendants Whose Convictions Were Tainted by Unreliable Lab
                Analysis or Testimony .............................................................. 5 

II.     This Review ....................................................................................... 6 

CHAPTER TWO: TASK FORCE CASE REVIEW PROCESS............................ 9 

I.      Overview ........................................................................................... 9 

II.     Key Participants in the Case Review Process ................................... 11 

III.    Case Review Process in Detail ......................................................... 14 
        A.      Review Scope and Case Identification Process ........................ 14 
        B.      Materiality Determinations by Prosecutors ............................. 20 
        C.      Referrals for Review by Independent Scientists ...................... 23 
        D.      Review by Independent Scientists .......................................... 24 

CHAPTER THREE: INDEPENDENT SCIENTISTS’ REVIEWS
    AND REPORTS................................................................................ 30 

I.      Timeliness of Independent Scientists’ Reviews ................................. 30 
        A.      Difficulties in Retaining Experts............................................. 31 
        B.      Too Little Time Allotted for the Scientists to Conduct Reviews 33 
        C.      Delays Caused by Batching ................................................... 36 

II.     Transmissions of Scientists’ Reports ............................................... 39 
        A.      Transmissions from FBI to Task Force Not Timely .................. 39 
        B.      Transmissions from Task Force to Prosecutors Provided Limited
                Information and Little Guidance ............................................ 40 
        C.      Prosecutors’ Disclosures to Defense Counsel Not Tracked ...... 42 

CHAPTER FOUR: FORENSIC ANALYSIS AND TESTIMONY BY MICHAEL
    MALONE ......................................................................................... 45 

I.      Background .................................................................................... 45 
II.     Findings of Independent Scientists Regarding Malone’s Forensic
        Evidence Analysis and Testimony .................................................... 47 

III.    FBI and Department Response to Independent Scientists’ Findings
        Regarding Malone’s Analyses and Testimony ................................... 53 

CHAPTER FIVE: DEATH PENALTY CASES ................................................ 56 

I.      Failure to Provide Immediate and Broad Notice ............................... 57 

II.     Failure to Design and Implement Case Review Procedures to Ensure
        Expedited Handling of Capital Cases ............................................... 58 
        A.      The FBI Failed to Immediately Identify Death Penalty Cases... 59 
        B.      The Task Force Did Not Request or Receive Materiality
                Determinations from State Prosecutors for All Capital Cases .. 60 
        C.      The Task Force Did Not Refer All Capital Cases to the FBI for
                Independent Review ............................................................... 62 
        D.      The FBI Caused Delays in Death Penalty Case Reviews .......... 63 
        E.      Task Force Transmittal Letters to Prosecutors Enclosing
                Scientists’ Reports Did Not Highlight Capital Cases ............... 63 
        F.      The Task Force Did Not Track Prosecutors’ Disclosures to
                Defendants ............................................................................ 64 

III.    Case Studies Demonstrating Inconsistent Treatment....................... 65 

CHAPTER SIX: OIG ANALYSIS AND CONCLUSIONS ................................. 68 

I.      Death Penalty Cases Not Handled with Sufficient Urgency
        and Priority ..................................................................................... 69 

II.     Inadequate Task Force Review Scope for Non-Death Penalty Cases.. 72 

III.    Categories of Cases Inappropriately Eliminated from the Task Force’s
        Review Scope .................................................................................. 73 

IV.     Insufficient Task Force Resources ................................................... 74 

V.      FBI Caused Significant Delays to Independent Scientists’ Reviews ... 76 

VI.     Limited, “Paper” Review by Independent Scientists .......................... 77 

VII.    Inadequate Efforts to Ensure Appropriate and Timely Disclosures to
        Defendants ..................................................................................... 78 

VIII.  Failure to Track Disclosures to Defendants ..................................... 79 
CHAPTER SEVEN: RECOMMENDATIONS TO THE DEPARTMENT AND THE
    FBI ................................................................................................. 81 

APPENDIX A: SELECT DEFENDANTS REFERENCED IN REPORT............. 86 

APPENDIX B: THIRTEEN CRITICIZED FBI EXAMINERS ........................... 87 

APPENDIX C: CATEGORIES OF CASES ELIMINATED BY THE TASK FORCE
    AND THE FBI .................................................................................. 88 

APPENDIX D: FEDERAL CASE REVIEW (MATERIALITY) FORM ................ 92 

APPENDIX E: REDACTED STATE AND LOCAL CASE REVIEW
    (MATERIALITY) FORM ..................................................................... 93 

APPENDIX F: INDEPENDENT CASE REVIEW REPORT AND GUIDELINES 94 

APPENDIX G: DEFENDANTS WHO RECEIVED DEATH PENALTY, LIFE, OR
    LESSER SENTENCES ................................................................... 100 

APPENDIX H: DEFENDANTS WHOSE CASES WERE REVIEWED BY
    INDEPENDENT SCIENTISTS ......................................................... 103 

APPENDIX I: DEPARTMENT RESPONSE TO OIG REPORT ..................... 128 

APPENDIX J: OIG ANALYSIS OF DEPARTMENT RESPONSE .................. 136 
                                   CHAPTER ONE:
                                   INTRODUCTION

I.     Background

       This is the third report the Office of the Inspector General (OIG) has
published since 1997 related to alleged irregularities by the Federal Bureau
of Investigation (FBI) Laboratory (Lab).3 This report addresses the effort by
the Department of Justice (Department) from 1996 to 2004 to remedy
improprieties in the Lab analysis of evidence, or in the testimony by FBI Lab
personnel, that was used to support convictions in federal and state
criminal cases. In particular, this report focuses on how the Criminal
Division Task Force (Task Force), created by the Department in 1996 in
response to alleged improprieties in the Lab, managed the identification,
review, and follow-up of cases involving the use of unreliable analysis and
overstated testimony by FBI Lab examiners in criminal cases.4

      We conducted this review to assess the process and implementation of
the Department’s Task Force case review and to determine whether
additional cases warrant review to meet the Task Force’s objectives. We
found critical deficiencies in the case review process and implementation.
Given that there are at least seven defendants whose convictions were
tainted by unsupportable FBI Lab analysis or testimony after they each
served lengthy prison terms (see Appendix A), this report includes
recommendations to the Department and the FBI regarding additional
review of and notification to certain defendants whose convictions may have
been tainted by unreliable scientific analyses and false, inaccurate, or
misleading testimony.

      In view of the potential effect of our report on individual defendants’
cases, we have taken steps during this review to enable the Department to


       3  U.S. Department of Justice Office of the Inspector General, The FBI Laboratory:
An Investigation into Laboratory Practices and Alleged Misconduct in Explosives-Related and
Other Cases (April 1997) and The FBI Laboratory One Year Later: A Follow-Up to the
Inspector General’s April 1997 Report on FBI Laboratory Practices and Alleged Misconduct in
Explosives-Related and Other Cases (June 1998).
       4  Department of Justice Inspector General Michael E. Horowitz recused himself
from this review because he occupied senior management positions within the Criminal
Division from 1999 through 2002. We did not interview Mr. Horowitz or review his conduct
because of the inherent conflict for this office to evaluate the role of the Inspector General.
Although auditing standards are not applicable to this review, which is not an audit, they
provided useful guidance on this issue. See Generally Accepted Government Auditing
Standards (December 2011).




                                              1
move forward with ensuring that defendants receive notice, even if long
overdue, of unreliable Lab analysis or examiner testimony that may have
affected their convictions. To that end, we provided information regarding
all capital cases, regardless of whether they were reviewed by independent
scientists, and all cases reviewed by independent scientists (described in
Chapter Two) to the Department and the FBI at several points during this
review. We did this to enable the Department and the FBI to begin remedial
action we anticipated recommending without awaiting completion of this
report.

       This report is divided into seven chapters. In the remainder of this
Introduction, we describe the events that led to the OIG’s current review and
report. In Chapter Two, we describe the Task Force case review process and
the independent scientists’ review process, which the FBI managed.
Chapter Three addresses our analysis of the timeliness of the independent
reviews and transmissions of the independent scientists’ reports. Chapter
Four presents our findings about Michael Malone, the FBI examiner in the
Hairs and Fibers Unit of the Lab who repeatedly created scientifically
unsupportable lab reports and provided false, misleading, or inaccurate
testimony at criminal trials. Chapter Five outlines the Task Force’s and the
FBI’s death penalty case review process and the capital cases affected by the
faulty FBI Lab analysis and examiner testimony. Chapter Six contains our
analysis and conclusions. In Chapter Seven, we set forth our
recommendations to the Department and the FBI.

      A.    OIG Investigation of Whitehurst Allegations, 1994–1997

       The OIG first investigated the FBI Lab in 1994 when Frederic
Whitehurst, an FBI Supervisory Special Agent and Ph.D. scientist who
worked in the Lab between 1986 and 1998, complained to the OIG and the
Department’s Criminal Division about irregularities at the FBI Lab.
Whitehurst, who performed chemical analyses of explosives and explosives
residue, made allegations related primarily to bombings and explosives
cases concerning the reliability of the procedures employed by the Lab to
analyze evidence, the integrity of the Lab analysts, and the trustworthiness
of testimony provided by Lab examiners. In particular, Whitehurst alleged
that some Lab examiners improperly testified outside their expertise,
presented unsupportable scientific conclusions, committed perjury,
fabricated evidence, and failed to follow appropriate procedures. These
allegations, along with subsequent allegations that Whitehurst made after
his initial complaint to the OIG in 1994, encompassed events dating from
the early 1980s through 1997. The allegations involved some of the most
highly publicized and significant cases investigated by the FBI during that
period.




                                      2
       The OIG’s investigation focused on Whitehurst’s allegations, as well as
on additional problems either identified by the OIG or brought to the OIG’s
attention by Lab employees during the course of the investigation.
Whitehurst’s allegations primarily concerned three Lab components: the
Explosives Unit, the Chemistry-Toxicology Unit, and the Materials Analysis
Unit. Another purpose of the OIG’s investigation was to determine whether
the performance of Lab personnel and Lab practices satisfied general
standards of conduct for forensic scientists and complied with Lab policies
in effect at the time the work was performed. While the OIG’s investigation
of the Whitehurst allegations did not include an examination of all
examiners or the operations of the Hairs and Fibers Unit of the Lab, it did
review the conduct of one examiner from that unit.5

      On April 15, 1997, the OIG issued a report of its investigation (1997
OIG Report), and in June 1998, the OIG issued a follow-up report. The
1997 OIG Report addressed 28 FBI employees – including Lab examiners
and Whitehurst himself – whose conduct was the subject of Whitehurst’s
allegations, merited comment, or was otherwise identified to the OIG in the
course of its investigation. While the 1997 OIG Report exonerated 11 of the
individuals Whitehurst identified as having committed misconduct and did
not substantiate his allegations against 3 others, it found significant
instances of testimonial errors, substandard analytical work, and deficient
practices by many Lab examiners. The 1997 OIG Report described
scientifically flawed and inaccurate testimony, testimony beyond the
examiner’s expertise, improper preparation of Lab reports, insufficient
documentation of test results, and scientifically flawed reports in some
cases. In addition, the Report found that the Lab had an inadequate record
management and retention system, a flawed staffing structure in the
Explosives Unit, and various other management failures.

       The 1997 OIG Report recommended reassignments and other actions
for 9 of the 28 FBI employees investigated, including Whitehurst, and made
40 recommendations to enhance the quality of the FBI Lab’s forensic work.
The 40 recommendations were in the areas of: (1) accreditation,
(2) structure of the Explosives Unit, (3) the roles of Lab examiners and
resolutions of disputes, (4) report preparation, (5) peer review, (6) case
documentation, (7) record retention, (8) examiner training and qualification,
(9) examiner testimony, (10) protocols, (11) evidence handling, and (12) the
role of management.

       5  In particular, the OIG evaluated the work of Michael Malone, but only because a
witness whom the OIG interviewed in connection with Whitehurst’s allegations raised
questions about the scientific integrity of specific testimony Malone had provided years
earlier. The OIG concluded in its 1997 Report that Malone had testified falsely before a
congressional committee about having conducted a tensile test on a leather strap – a test
that measures the force required to break material.




                                            3
       B.     Criminal Division Task Force

       In January 1996, 2 years after the OIG had commenced its first
investigation but prior to the release of the 1997 OIG Report, the Criminal
Division, at the direction of Deputy Assistant Attorney General (DAAG)
John C. Keeney, created a task force to conduct a preliminary review of the
Whitehurst allegations and the materials Whitehurst provided in support of
his allegations.6 According to a January 4, 1996, memorandum from DAAG
Keeney to all United States Attorneys and another memorandum of the
same date to Louis Freeh, FBI Director, the purpose of the review at that
time was to: (1) assess the validity of Whitehurst’s allegations of
“improprieties in the analysis and/or presentation of evidence by FBI [Lab]
personnel”; (2) determine whether those allegations gave rise to any
constitutionally required disclosures in specific prosecuted cases of
exculpatory or impeaching material; and (3) inform federal and state
prosecutors of such information so they could make disclosures if
appropriate.7

      In June 1997, 6 weeks after the OIG released its report, the Task
Force determined that the work of 13 FBI Lab examiners (identified in
Appendix B) addressed in the OIG Report warranted closer scrutiny.8
Accordingly, the Task Force narrowed its scope from a broad review of all
Whitehurst allegations to those cases involving only the 13 FBI examiners it
determined had been criticized by the OIG (13 criticized examiners). A
June 6, 1997 memorandum to all United States Attorneys from DAAG
Keeney provided new guidance on the Task Force’s mission in light of the
OIG Report. Specifically, the Task Force’s mission became: (1) identifying
cases involving the 13 Lab examiners where the evidence at issue was
material to a defendant’s conviction, relying on the prosecutors to make that

       6 Keeney’s positions changed during the period 1995 through 2005. In addition to

serving as a Criminal Division DAAG, he served as Acting Assistant Attorney General and
Principal Deputy Assistant Attorney General.
       7   The seminal authority on prosecutors’ disclosure obligations is the United States
Supreme Court decision in Brady v. Maryland, 373 U.S. 83, 87 (1963), in which the Court
held that “the suppression by the prosecution of evidence favorable to an accused upon
request violates due process where the evidence is material either to guilt or to punishment,
irrespective of the good faith or bad faith of the prosecution.” In a subsequent ruling,
United States v. Bagley, 473 U.S. 667, 682 (1985), the Supreme Court held that evidence is
“material” for Brady purposes “only if there is a reasonable probability that, had the
evidence been disclosed to the defense, the result of the proceeding would have been
different.”
       8  Malone was not one of the examiners initially criticized by Whitehurst, and even
after the OIG expanded its review to include Malone, the OIG did not criticize Malone for his
work in the field of hair and fiber analysis. Rather, the crux of the OIG’s criticism was
Malone’s false testimony.




                                             4
materiality determination; (2) advising prosecutors in all cases resulting in a
conviction about the criticisms of the 13 Lab examiners and providing a
copy of or link to the 1997 OIG Report so prosecutors could determine and
comply with their disclosure obligations;9 (3) in cases where the evidence
was deemed material, collecting and submitting available Lab reports,
bench notes, and examiner testimony, if any, for review by independent
scientists; and (4) transmitting the independent scientists’ reports to the
prosecutors so that the prosecutors could determine the need for any
disclosures of such reports to defendants or defense counsel and make such
disclosures as they deemed appropriate. Ultimately, as described by Louis
Freeh, FBI Director, in a June 1997 letter to Congressman Robert Wexler,
“This review . . . will ensure that defendants’ rights to a fair trial were not
jeopardized by the conduct of any of the 13 affected examiners.”

       It was the efforts of this Task Force, beginning largely in 1997, that
were the focus of this OIG review, and which are discussed in the following
chapters. The Task Force completed its work in July 2004 and officially
dissolved in August 2005. According to former Task Force members, the
Task Force did not issue a final report summarizing its work, its findings, or
the number or nature of disclosures made to defendants.

       C.     Defendants Whose Convictions Were Tainted by Unreliable
              Lab Analysis or Testimony

      In April 2012, media reporting concerning tainted convictions of
several criminal defendants whose convictions relied upon forensic evidence
analyzed by the FBI Lab drew public and congressional interest.10 The OIG
confirmed, as reported, that three defendants, Donald E. Gates, Santae A.
Tribble, and Kirk L. Odom, had served sentences in excess of 21 years
based in part on FBI hair analyses and testimony that DNA analysis
subsequently proved erroneous. All three defendants were exonerated. In
addition, another defendant, Benjamin H. Boyle, had been convicted of a
capital offense and executed, in part, on the basis of FBI hair and fiber
forensic analysis that an independent scientist later determined to be
flawed.11


       9 The June 1997 Keeney memorandum provided federal prosecutors with a link to

the OIG Report on the OIG website and offered additional copies of the Report upon
request. However, as stated in Chapter Two of this report, we found that the Task Force
did not always provide this same information to state prosecutors.
       10 Spencer S. Hsu, “Convicted defendants left uninformed of forensic flaws found by
Justice Dept.,” The Washington Post, April 16, 2012; Spencer S. Hsu, “DOJ review of flawed
FBI forensics processes lacked transparency,” The Washington Post, April 17, 2012.
       11 We do not know whether Boyle’s capital conviction would have been upheld or
overturned based on remaining evidence because Boyle was executed before having the
                                                                                (Cont’d.)


                                            5
       As explained in Chapter Two, the Task Force’s review scope,
implemented in 1997, did not include the Tribble and Odom cases because
the examiners involved in those cases were not among those whom the OIG
criticized in the 1997 OIG Report and because the Task Force limited its
database search to cases dating back only to 1985. As we discuss in
Chapter Five, however, we believe the Task Force had sufficient information
to expand the scope of its review in September 1999 to include the review of
all FBI Lab work involving hair comparison analysis and should not have
limited its review to cases beginning 1985 or later. Had the Task Force not
limited the scope of its review in these ways, the deficiencies involving the
Tribble and Odom cases would have been identified much earlier.

       The Task Force review scope did include the Gates and Boyle cases
and those two cases were analyzed by both the Task Force and the FBI’s
independent scientists. The Task Force review process identified
deficiencies in the Lab analysis or testimony in both cases. However, in
Gates, the prosecutor failed to convey the identification of deficiencies to the
defendant or defense counsel. In Boyle, the identification of deficiencies
came too late to be of value to the defendant, who was executed 4 days after
issuance of the 1997 OIG Report.


II.    This Review

      Shortly after media reporting about the exonerated defendants,
Congressman Frank Wolf, Chairman of the Commerce, Justice, Science,
and Related Agencies Subcommittee of the U.S. House of Representatives
Committee on Appropriations, requested that the OIG evaluate the work of
the Task Force. We decided to conduct this review as a follow-up to our
1997 Report concerning allegations of improper FBI Lab practices and
misconduct by Lab examiners.12

       For this report, we studied the Task Force case review process
developed and implemented between 1996 and 2004 – the period when the
Task Force conducted its work – and analyzed the results of that process.
We considered the Department’s initial response to earlier allegations made
in 1994 by FBI Lab examiner Frederic Whitehurst that called into question
the reliability, integrity, and trustworthiness of work performed by Lab

opportunity to learn of the flawed forensic analysis or to appeal his conviction on that
basis.

       12 Our review was separate from a currently ongoing effort by the Department and
the FBI, begun in the summer of 2012, to identify and review thousands of cases where
testimony about the results of microscopic hair examinations conducted by the FBI Lab
was included as evidence in cases that resulted in conviction.




                                              6
examiners, primarily in the FBI Lab Explosives Unit, Chemistry-Toxicology
Unit, and Materials Analysis Unit. The Department’s initial response to the
Whitehurst allegations was relevant to this review because it influenced
many of the later decisions made in connection with the Task Force’s review
process and constitutionally required disclosures – decisions which
determined the Task Force’s approach for the next 8 years. In addition, we
explored the FBI’s role in identifying cases resulting in convictions, hiring
independent scientists to review FBI Lab examiners’ analyses and
testimony, and managing the independent scientists’ work.

       Our review identified the key participants and decision-makers
involved in the Task Force, determined which decisions had the most
significant impact on the case review process, and evaluated the
consequences of those decisions. We also assessed the timeliness of the
overall case review process, including how that process affected the death
penalty cases the Task Force reviewed. We evaluated the timeliness of case
identifications, initial Task Force notifications of the case review process to
prosecutors, materiality determinations by prosecutors, the scientific review
process, the transmissions of the scientists’ reports by the FBI and the Task
Force, and – when we were able to find and document them – the
disclosures made by prosecutors to defendants or defense counsel.

       We also examined the decisions the Task Force made related to former
FBI Lab Hairs and Fibers Unit examiner Michael Malone, who handled a
disproportionately large number of cases and provided seriously flawed
analyses and testimony in many cases the Task Force reviewed. We found
that, of the 13 FBI Lab examiners whose cases the Task Force reviewed,
Malone’s conduct was the most egregious. He repeatedly created
scientifically unsupportable lab reports and provided false, misleading, or
inaccurate testimony at criminal trials.

        The OIG review team consisted of OIG attorneys and program
analysts. We conducted our fieldwork from May 2012 through August
2013. Our fieldwork included data collection and analyses of Task Force
case files and electronic databases; reviews of correspondence by and
between the Task Force, the FBI, federal and local law enforcement officials
who requested FBI assistance, prosecutors, defense counsel, and
defendants; reports of independent scientists and other related documents;
trial testimony, congressional hearings, and press articles; and factual and
legal research on the status of defendants whose cases the Task Force
reviewed and who were sentenced to death or lengthy prison terms. We
reviewed thousands of pages of documents.

      We interviewed former Task Force staff members and former and
current senior Department and Criminal Division officials, including a
former Department Associate Deputy Attorney General and a former


                                       7
Criminal Division DAAG. At the FBI, we interviewed former and current
Assistant General Counsels in the Office of General Counsel and a former
Section Chief of the FBI Lab, as well as two independent scientists whom
the FBI had hired as part of the Task Force and FBI case review process
described in Chapter Two.

       We faced several challenges in reviewing the work of the Task Force.
For example, we were unable to interview certain people who played
important roles in the 1996 Task Force review of the Lab, the most
significant of whom was the late John C. Keeney, formerly a DAAG in the
Criminal Division. Others who had left the Department or the FBI prior to
our review were unavailable or unwilling to be interviewed.

      Another challenge we experienced was understanding the organization
and degree of completeness of the files maintained by the Criminal Division.
A former Task Force member explained the filing system created for this
case review and told us that the Task Force had intended to maintain a
system that would capture all correspondence by and between it, the FBI,
prosecutors, defense counsel, unrepresented defendants, and other third
parties. Yet, despite what appears to have been considerable effort on the
part of the Task Force to document its actions, the files we reviewed were
not complete and certain files, folders, and boxes were missing in their
entirety.

       We understand that multiple individuals, including Whitehurst, made
extensive requests pursuant to the Freedom of Information Act and that as a
result of producing documents to comply with those requests, some
documents may have been misplaced or misfiled. We also recognize that the
passage of time since the conclusion of the Task Force’s work may have
affected the Department’s ability to locate and produce some files. Although
we reviewed every file available to us, the Task Force’s failure to document
certain critical events, such as disclosures made by prosecutors to
defendants or defense counsel, and case-specific decisions, such as the
elimination of cases falling into as many as 18 categories (discussed in
Chapter Two), made it impossible for us to identify all cases and defendants
eliminated from review.

      In Chapter Two we provide more details about the Task Force case
review process, including the key participants, the case identification
procedures, the review scope, and the elimination of certain case categories.
We also discuss the prosecutors’ materiality determinations and the review
of cases by independent scientists at the FBI.




                                      8
                       CHAPTER TWO:
              TASK FORCE CASE REVIEW PROCESS

I.    Overview

       According to many witnesses we interviewed, the magnitude and
complexity of the Task Force case review process and implementation were
unprecedented. We were told that never before had the Department
undertaken such a massive case review with such potentially serious
consequences. Former Task Force members told us they had many
challenges to overcome, including negotiating roles and responsibilities with
the FBI; managing communications and documentation concerning
thousands of cases; compensating for imperfect case identification methods,
unavailable or unresponsive prosecutors, missing, destroyed, or incomplete
case files; managing an overwhelming number of cases; and developing a
comprehensive system to document the Task Force case review process.
Participants said that these challenges were compounded by insufficient
resources, a lack of decision-making authority delegated to the Task Force,
and a lack of continuity in both Task Force staffing and Department
leadership.

      Through our witness interviews and file review, we determined that
there was an absence of planning and forethought with regard to
disclosures to defendants that might be required as a result of the Task
Force’s findings. In particular, other than deciding to inform prosecutors of
relevant information and deferring to the prosecutors about their disclosure
obligations, we found no evidence that senior management considered the
threshold for when disclosures of information to defendants would be legally
required in cases involving 1 or more of the 13 examiners. Nor did we find
any evidence that senior management considered the kind of information
that should be disclosed or the importance of tracking such disclosures.

       As we discuss later in this report, the initial Task Force review
included over 7,600 federal and state cases involving the 13 criticized
examiners. With the assistance of the FBI and federal and state
prosecutors, the Task Force determined that approximately 2,900 of those
cases: (1) resulted in a conviction (either by trial or guilty plea), (2) were
cases awaiting trial or pending appeal, or (3) were sealed. For cases in
active litigation, the Task Force worked directly with the prosecutors to
ensure appropriate and timely disclosure to defendants or defense counsel.
The majority of the 2,900 cases, however, were closed. According to FBI
and Task Force documents we reviewed, these 2,900 cases also included a
limited number of sealed cases without indication of the litigation status.



                                       9
We include the sealed cases in our discussion of closed cases resulting in
convictions.

       For those cases resulting in a conviction, the Task Force requested
that federal and state prosecutors determine the materiality of the forensic
evidence to each defendant’s conviction and, where the FBI Lab evidence
was material to the conviction, provide relevant case materials to the Task
Force. Where the Lab evidence was material to the defendants’ convictions,
the Task Force transmitted to the FBI, for review by at least 1 of 14
scientists selected by the FBI, the Lab reports, any underlying
documentation from the Lab (such as bench notes and dictation notes), and
the examiner’s testimony, if any.13 We found that the Task Force referred a
total of 338 cases to the FBI. We determined that the independent
scientists reviewed and completed reports for 312 of the 338 cases, relating
to 402 defendants.14

       After the independent scientists completed their reviews, the FBI
forwarded the scientists’ reports to the Task Force. The Task Force then
transmitted copies of those reports to the federal or state prosecutors who
handled the cases, and requested that the prosecutors determine if
disclosure of the report, or other information, to defendants or defense
counsel was required. The prosecutor determined what should be disclosed
to the defense without input from the Task Force. Because the Task Force
neither required notification of nor tracked the prosecutors’ disclosures, we
were unable to determine, with limited exceptions, which independent
scientists’ reports or other information were disclosed to defendants.

       13   In April 2014, after reviewing a draft of this report, the FBI provided to the OIG
for the first time a list of all independent scientists who reviewed cases for the Task Force.
The list contained 14 scientists – 10 from independent agencies and 4 from the FBI Lab.
Because 4 of the 14 scientists were employed by the FBI Lab, they were not, in our view,
“independent.” Nevertheless, for purposes of this report, our use of the term, “independent
scientists” includes all 14 individuals who reviewed cases for the Task Force.
       14  The independent scientists did not review all of the 338 cases the Task Force
referred to the FBI for a variety of reasons, including: (1) the bench notes and Lab report
could not be located; (2) the FBI examiner’s analysis was deemed inconclusive or not
material after the case had been referred for independent review; (3) the FBI examiner only
confirmed the work of another examiner and, therefore, the Task Force deemed
independent review unnecessary; or (4) the case was eliminated from the Task Force’s
review scope after the referral but prior to the completion of the independent scientists’
review. We discuss eliminated case categories later in this report.
        In April 2014, after reviewing a draft of this report, the FBI provided to the OIG for
the first time undated documents stating that the Task Force referred 333 cases to the FBI
for review by independent scientists, resulting in 368 completed reports. This discrepancy
may be attributable to the fact that some reviews by independent scientists involved the
work of multiple FBI examiners under scrutiny, multiple evidence types, and multiple
defendants.




                                              10
      Below, we describe the key participants in the Task Force case review
process and the process as designed and implemented.


II.   Key Participants in the Case Review Process

       There were four sets of participants in the case review process:
(1) Department management personnel within the Criminal Division, the
Office of the Deputy Attorney General (ODAG), and the Office of the Attorney
General (OAG); (2) the Task Force staff; (3) the FBI; and (4) the federal and
state prosecutors.

       Department Management: Senior management officials in the
Department’s Criminal Division, ODAG, and OAG took the lead in designing
the case review process and supervising the Task Force. Through our file
review and interviews, we found that at least 12 management level attorneys
in the Criminal Division and Department, including the Attorney General,
an Assistant Attorney General, an Associate Deputy Attorney General, and a
DAAG, oversaw the Task Force at various times during its 8-year operation.
Those senior officials were responsible for important policy decisions and
legal interpretations related to the Task Force case review process and
implementation but did not work on the day-to-day case review. The time
periods during which senior Department officials oversaw the Task Force
varied; some officials were involved for only 1 or 2 years. In addition, these
officials had other concurrent responsibilities within the Department.

      Former Task Force members told us about frequent changes in senior
management leadership. One former member who remained on the Task
Force throughout its duration stated that the lack of continuity in
Department leadership resulted in different interpretations of how to
implement the case review process and difficulty obtaining necessary
guidance and decisions from senior management. In the following chapters
we discuss how delays in the Department’s decision-making affected the
general pace of the review and how decisions such as whether and when to
eliminate certain case categories from the review scope resulted in delays
due in part to changing senior management leadership. We also discuss
how the lack of continuity in Department leadership contributed to the Task
Force’s inability to provide authoritative guidance to the FBI and
prosecutors and to address the serious problems with cases Malone
handled.

      Task Force Staff: The Task Force staff members were responsible for
implementing the case review process as designed, including coordinating
with the FBI and prosecutors, and managing the records and
communications concerning the thousands of cases that were the subject of
the review. Through our interviews and file review, we determined that for



                                     11
the most part, none of the Task Force members participated in or made
significant decisions about how the Task Force would operate. Rather, the
Task Force received guidance and direction about its operation from
Department management and implemented that guidance.

      At the outset, the Task Force staff was comprised of one senior trial
attorney supervised primarily by John Keeney, then serving as Acting
Assistant Attorney General (AAG). DAAG Kevin DiGregory also provided
oversight of the Task Force. In January 1996, a second trial attorney was
hired to work full time on the Task Force. The second attorney became the
head of the Task Force in October 1996 when the original senior trial
attorney was promoted to another position in the Department. Between
1996 and 2004, the Task Force was also supported by two to three
paralegals and, on some occasions, by a few student interns and
administrative personnel. In June 2000, staff leadership of the Task Force
changed again with the departure of the second trial attorney and elevation
of another attorney to the position of lead attorney on the Task Force.
During its 8 years of operation, we found that the Task Force staff included
no more than two attorneys, three paralegals, and a few student interns and
administrative personnel. For many of those 8 years, the staffing level was
even lower. Moreover, only one person served continuously on the Task
Force, first as a student intern, then as a contractor, and finally as a
Department paralegal.

       FBI: The FBI was responsible for identifying criminal cases handled
by 1 or more of the 13 criticized examiners and for identifying, hiring, and
managing the independent scientists it retained to review the cases referred
by the Task Force. According to FBI and Task Force witnesses we
interviewed, the FBI was not involved in discussions or decisions relating to
notifications to defendants or defense counsel and had no responsibility for
communicating with defendants or their counsel at any stage of the process.
The FBI witnesses we interviewed told us that the FBI acted in a “support
capacity” to the Task Force, not as co-leaders or co-managers of the case
review process. In particular, these witnesses told us that the FBI’s role
was limited to communicating information about case identification to the
Task Force staff, managing the hiring and work of independent scientists,
and transmitting the completed independent reports to the Task Force.
During our review, however, we found that the FBI was actively involved in
decisions related to narrowing the scope of cases subject to review by the
Task Force. We discuss these decisions and the FBI’s role in making them
in more detail below.

       The FBI assigned one team – a supervisory paralegal and five
paralegals – from its Civil Discovery Review Unit (CDRU) of the OGC to work
full-time on the Lab case review beginning April 1997. In September 1999,
the FBI temporarily reassigned the CDRU team to work on other matters. In


                                     12
April 2000, the same team, minus one paralegal, resumed work on the Lab
case review. In addition, the FBI added OGC attorneys, Chief Division
Counsels in field offices, Lab personnel, and staff in other divisions to assist
the CDRU team. We found no indication that the FBI assigned other staff to
replace the CDRU team to ensure continued progress on the Lab review
during the team’s 7-month unavailability.

       Prosecutors: Federal and state prosecutors assisted in the
identification of cases within their jurisdictions that resulted in convictions
and that would be subject to the Task Force’s review. Their primary
responsibilities, however, were to assess the materiality of specific evidence
to the convictions in the cases they prosecuted and to make disclosures to
defendants or defense counsel when constitutionally required. The
responsibility for assessing materiality entailed retrieving case materials
from their office or off-site storage files and reviewing the case materials to
determine the role, if any, the evidence played in the defendant’s conviction.
If prosecutors deemed the FBI Lab analysis or testimony material to the
conviction, then they were responsible for providing the case materials to
the Task Force, which would then transmit those materials to the FBI for
review by independent scientists. In addition, under the law, the
prosecutors were required to disclose appropriate information, such as the
independent scientist’s report, to the defendant or defense counsel if there
were a reasonable probability that had the evidence been disclosed to the
defense, the result of the proceeding would have been different. Moreover, if
prosecutors decided to disclose the independent scientists’ reports to the
defendants or defense counsel, then they were responsible for doing so in a
timely way.15 The prosecutors’ materiality determinations and ultimate
disclosure decisions were fundamental to the objectives that gave rise to the
creation of the Task Force: preservation of the rights of the defendants
whose cases involved analysis or testimony handled by 1 or more of the
13 Lab examiners.

       The Department elected not to include as part of the case
identification process any outreach to defense counsel or defense

       15 On April 15, 1997, immediately following publication of the OIG Report, then-
Acting AAG Keeney sent a memorandum attaching a copy of the Report to all federal
prosecutors and senior Criminal Division management attorneys, requesting that all state
and local prosecutors be notified of the Report and be given access to it. In our review of
Task Force files, we found that some federal and state prosecutors disclosed to defense
counsel in individual cases the OIG Report and its potential relevance to the conviction of
the defense counsel’s client. Our research revealed, however, that the OIG Report was not
uniformly provided to defense counsel in closed cases where the defendant’s conviction
might have been affected by the OIG Report. See, e.g., Moss v. State of Florida, 860 So.2d
1007, 1009 (2003) (defendant learned of OIG Report from newspaper article 4 years after
publication of the OIG Report).




                                            13
organizations. Our review of the Department’s policy with respect to the
work of the Task Force showed this decision was based on settled legal
authorities and was approved by Attorney General Janet Reno on the
recommendation of her senior advisors.16


III.   Case Review Process in Detail

       A.     Review Scope and Case Identification Process

       At the direction of Acting AAG Keeney, the case review process called
for the Task Force to identify, with the assistance of the FBI and federal and
state prosecutors, all cases that resulted in a conviction (by trial or guilty
plea) in which forensic evidence had been analyzed or the subject of
testimony by any of the 13 criticized Lab examiners.17 The FBI identified
most of the cases using its databases of federal, state, and local cases and a
case identification checklist for use by its field offices. With regard to
federal cases, Acting AAG Keeney asked all U.S. Attorneys’ Offices to search
their files for cases involving the 13 examiners. In addition, Acting AAG
Keeney directed that each U.S. Attorney’s Office review FBI-generated lists
of federal cases to determine whether prosecution in the identified cases had
resulted in convictions.

       With regard to state and local cases, which together outnumbered the
federal cases, there is evidence that Acting AAG Keeney or the Task Force
considered seeking assistance directly from state attorneys general and
district attorneys. We reviewed a draft memorandum and two draft letters
addressed to those respective offices but we found no evidence in the Task
Force files, that the draft letters were approved and sent. An internal Task
Force e-mail, written by a then-senior Task Force attorney prior to the April
1997 OIG Report, stated that the FBI was concerned that sending a blanket
notice to all state attorneys general and district attorneys regarding
Whitehurst’s allegations would “tarnish” the reputation of the Lab when the
OIG had yet to make any adverse findings. Our file review showed that the
Task Force ultimately did not seek assistance directly from state attorneys
general and district attorneys. Instead, we found that after issuance of the
1997 OIG Report, the FBI tasked its field offices with conducting examiner-
specific inquiries, directing those offices to contact the state and local
prosecutors and local law enforcement officials who had requested the

       16 Attorney General Reno was criticized at the time for this decision by Gerald

Lefcourt, President of the National Association of Criminal Defense Lawyers.

       17 Task Force members told us that the Department lacked authority to direct state
prosecutors to assist in the case identification process or to demand their immediate
assistance with the case review process.




                                            14
original FBI Lab examination of evidence handled by the 13 examiners. The
purpose of those contacts was to assist the Task Force in determining which
cases had resulted in convictions.

       Based on our file review and interviews, we found that the case
identification process was long and arduous due to the sheer volume of
cases, the decentralized search efforts, and frequent changes in Task Force
staffing and management decisions. In total, the process of identifying
cases at the federal, state, and local levels took approximately 8 years,
beginning in 1997 and ending in 2004. We also determined that the scope
of review for the universe of cases DAAG Keeney sought to capture was
subsequently narrowed in significant ways, as described below.

              1.     Most Cases Pre-dating 1985 Eliminated from Task
                     Force Review

      The first scope limitation was one imposed by the FBI, which informed
the Task Force during the case identification effort that it would not identify
cases prior to 1985 because it did not have a computerized database of
cases dating before that time.18 No Task Force or FBI document we
reviewed and no witness we interviewed stated that the Task Force staff,
Criminal Division management, or other Department officials inquired of the
FBI as to what resources would be required for the FBI to manually identify
those cases arising before 1985.19 The Criminal Division seems to have
accepted the FBI’s decision not to identify cases prior to 1985 and
addressed identification of such cases only by encouraging prosecutors to
make “appropriate efforts” to identify any cases pre-dating 1985.
Thereafter, the Task Force focused its case search on the period between
1985 and 1996.


       18 It remains unclear to us, despite interviews of multiple former FBI and Task
Force personnel, what stage of investigative, prosecutorial, or court action determined
whether a case was captured in the FBI database as of January 1, 1985. We determined,
however, that defendants convicted and sentenced prior to 1985 were not captured in the
database.
       19  In the course of our document review, we discovered an FBI Lab document
purporting to memorialize a May 1, 1998, telephone call with an FBI Assistant General
Counsel concerning the use of 1985 as the cut-off date for case retrieval. The typed notes
referenced a “manual log” of hair and fiber cases that captured Lab reports between 1982
and 1987 and the existence of a separate computer database, “Express System,” that
captured reports in the Explosives Unit going back to 1972. The notes stated further that
the Lab “demonstrated that we can pull up the old reports.” Although the notes referenced
the “[n]eed to determine if any other units maintain databases or tickler copies of
Laboratory reports prior to 1985,” we did not find any other document that discussed or
referred any other sources of case information pre-dating 1985 and potentially helpful to
the Task Force review.




                                           15
       As a result of this narrowed scope, an unknown number of cases prior
to 1985 that included forensic evidence handled by 1 or more of the
13 examiners and potentially material to a defendant’s conviction were, with
limited exceptions, not reviewed by the Task Force. Moreover, given that at
least 6 of the 13 examiners joined the FBI Lab before 1985, the possibility
exists that additional problematic cases warranting independent review and
disclosure to defendants eluded Task Force review as a result of the decision
not to search FBI records for cases pre-dating 1985. Appendix B lists the
13 examiners and the years (where known) they joined the FBI. Our
examination of cases the Task Force referred to the FBI for review showed
there were at least 68 cases with convictions pre-dating 1985 and involving
1 or more of the 13 examiners. The Task Force did include those 68 cases
in its review. The combination of the FBI’s limiting the scope of the Task
Force’s review to cases beginning in 1985, and the Task Force’s failure to
expand its initial scope to all examiners in the Hairs and Fibers Unit, as
discussed in Chapter Four, also resulted in an additional unknown number
of cases with potentially tainted convictions. Notably, among the cases not
reviewed because of the Task Force’s artificially limited scope were those of
Tribble and Odom, referenced in Chapter One. Both cases involved
defendants who were exonerated by DNA testing and whose convictions
were later determined to have been tainted by discredited hair evidence after
they served lengthy prison terms (see Appendix A).20

       Excluding the pre-1985 cases, the FBI reported in a 2007 summary
document that the identification process yielded 7,609 cases involving the
13 examiners. Of those 7,609 cases, at least 2,893 cases resulted in
convictions and, barring elimination for other reasons, would proceed to the
next stage in the case review process: the prosecutor’s determination of the
materiality of the Lab evidence to the conviction. Figure 1 (next page)
illustrates the case identification process and shows the number of cases
identified.




       20 The testimony about hair evidence used to convict Tribble in 1980 and Odom in
1981 (and ultimately questioned) was analyzed by FBI Lab examiners James Hilverda and
Myron Scholberg, respectively, according to court documents. Tribble spent 27 years in
prison and Odom spent 21.5 years in prison before they were exonerated by DNA testing.




                                          16
        FIGURE 1: TASK FORCE CASE IDENTIFICATION PROCESS




Note: Regarding the Task Force review scope, a June 6, 1997, memorandum from John C.
Keeney, Acting Assistant Attorney General, Criminal Division, to all United States
Attorneys, First Assistant United States Attorneys, Criminal Chiefs, Criminal Division
Section Chiefs, and Office Directors stated: “. . . there is no database which identifies pre-
1985 cases. Therefore, each United States Attorney’s Office should make appropriate
efforts to identify any pre-1985 cases involving examiners identified in the OIG report.”

Sources: The process for identifying cases was reported in a July 23, 1997 letter from
William Esposito, Deputy Director, FBI, to Paul Fishman, Associate Deputy Attorney
General. The numbers of cases were reported in a 2007 FBI summary document, “Lab
Task Force Summary.”




                                              17
              2.     Other Cases Eliminated from Task Force Review

        According to former Task Force members we interviewed, at the outset
of the case identification process in 1996, the Task Force made as its top
priority determining constitutionally required disclosures in pending
litigation. For those active cases, the Task Force provided Lab reports and
other related documents to prosecutors for disclosure to defendants or
defense counsel. Once it made the necessary disclosures to the
prosecutors, the Task Force did not subject the active cases to further
review. We found no documentation indicating that the Task Force referred
any active cases to the FBI for review by an independent scientist.

      Thereafter, between September 1998 and April 2003, Task Force staff,
senior Department management officials, and FBI personnel held meetings
and exchanged correspondence in an effort to streamline the review process.
The concerns each participant expressed focused on the large volume of
cases the FBI had identified, the insufficiency of the resources available to
review all the cases that resulted in convictions, and what the participants
believed to have been an overbroad initial reading by the Task Force of the
1997 OIG Report. The Task Force’s initial interpretation of the 1997 OIG
Report had led it and the FBI to include in the review a Lab examiner whom
the OIG did not find to have engaged in misconduct and other examiners
whose primary work the OIG did not criticize at all.

      We ascertained that as a result of the communications between 1998
and 2003, senior Department management officials and the FBI agreed to,
and did, eliminate from the case review process 18 additional categories of
cases. Appendix C provides a complete list of the case categories eliminated
by the Task Force and the reasons cited for the elimination of each category.
In one such category – the “small” cases – the Task Force notified
prosecutors of the 1997 OIG Report.21 However, elimination from review
generally meant that the Task Force did not seek a determination by the
prosecutor as to whether the Lab evidence was material to the conviction.
Therefore, in those cases, no review of the Lab evidence was conducted by
an independent scientist.

       We found that the Department and the FBI provided a rationale in the
correspondence for eliminating some of the 18 categories of cases, including
that no defendant’s constitutional rights were or could have been adversely
affected by the lack of review. For example, cases involving defendants who
were not convicted of an offense for which the evidence was handled by a

       21 Small cases were defined by the Task Force as cases in which the defendants
“were fined, not incarcerated, or should have finished their sentence more than 6 years
ago.”




                                            18
criticized FBI examiner were not included in the review process because the
evidence was not relevant to the defendant’s conviction. Similarly, cases
where the conviction was vacated or reversed without subsequent retrial
were not included in the review process because any Lab work related to the
prosecution was no longer relevant or had no bearing on the defendant’s
constitutional rights.

       According to an FBI summary dated April 18, 2003, 448 cases were
eliminated either because allegations against the examiners had not been
substantiated in the OIG Report, the examiners had not been criticized for
their primary forensic analyses, or the cases were deemed “small” and not
worthy of review. However, the 448 cases eliminated from review were
associated with only 4 of the 18 categories of cases the Department and the
FBI eliminated. Three of those categories (278 cases) related to
unsubstantiated allegations against each of 3 examiners. The fourth category
(170 cases) entailed “small” cases – defined in the FBI summary as those in
which defendants were fined, not incarcerated, or should have finished their
sentence more than 6 years earlier. Although the Task Force maintained a
database that identified some of the categories of cases that were later
eliminated, we were unable to identify which cases and individual defendants
the Task Force eliminated from review as a result of the Department and FBI
decisions described above.

      The Department and the FBI eliminated other categories of cases,
however, without an explanation articulated in the correspondence we
reviewed. We highlight below five categories of cases excluded from the
review process even though there was a potential that the defendants in
these categories would suffer serious, adverse consequences if their
convictions were tainted by unreliable Lab analysis or testimony.22 These
categories include cases where:

               The defendant had died (whether by natural causes or
                execution).
               The defendant “should have finished [his] sentence more than
                6 years ago.” (Date unspecified.) This category is among the
                “small” cases described above.


       22   Potential collateral consequences to criminal convictions include: loss of job,
housing, and educational opportunities; loss of the right to vote; harm to family and other
personal relationships; loss of physical and mental health; and the possibility of an
enhanced prison sentence in the event of a subsequent conviction after release. In the
event of a tainted criminal conviction, the integrity of the criminal justice system also
suffers because such incidents undermine the public’s respect for and trust in our system
of justice.




                                            19
              The FBI Lab’s assistance was requested to support a foreign
               prosecution.
              The defendant had been deported.
              Malone confirmed the Lab results of another examiner but did
               not perform the hair examination.

      B.       Materiality Determinations by Prosecutors

      In a June 6, 1997 memorandum to Department attorneys, Acting AAG
Keeney directed that after cases involving the 13 examiners and resulting in
a conviction were identified, the federal prosecutors were to assess the
importance of the Lab evidence and examiner testimony to determine their
materiality to the defendant’s conviction. The Task Force designed a case
review form for federal prosecutors to complete – one form for each
defendant and FBI Lab examiner involved in each identified case that
resulted in a conviction. Appendix D contains a blank federal case review
form the Task Force designed and sent to federal prosecutors. If the federal
prosecutor determined that the Lab evidence was not material to the
conviction, the case review form directed the prosecuting office to explain in
writing the basis for its conclusion.

       In cases where the federal prosecutor indicated that the forensic
evidence or testimony was material to a defendant’s conviction, the Task
Force followed up with the prosecutor to request information concerning the
role of the FBI Lab examiner in the prosecution and relevant case materials,
including transcripts of the examiner’s testimony (if any). The Task Force
would then transmit these materials, along with any additional information
it obtained, to the FBI for review by independent scientists. For general
disclosure guidance, the Task Force included with its letter to federal
prosecutors a legal memorandum prepared by the Appellate Section of the
Criminal Division, referred to as the “Brady Memorandum.” This
memorandum described the relevant Supreme Court rulings on
constitutionally required disclosures, which legal requirements should have
been well known to all of the prosecutors. In keeping with the approach
described in earlier memoranda to the U.S. Attorneys, the Task Force
reiterated that the responsibility to assess these disclosure obligations and
to make such disclosures rested with the prosecutors.

      We found through our review of hundreds of case files that in the
course of requesting the conviction status of each identified defendant, the
Task Force sent a copy of the OIG Report to the federal prosecutor
associated with each prosecuted case. The Task Force usually indicated the
OIG Report page numbers referencing the particular Lab examiner involved
in the defendant’s case. Generally, although not in every instance, the Task
Force requested that if the federal prosecutor were to disclose the OIG


                                       20
Report to the defendant or defense counsel, then the prosecutor should
send to the Task Force a copy of the transmittal letter he or she sent to the
defendant or defense counsel. Figure 2 (next page) illustrates the case
review process.




                                      21
                  FIGURE 2: CASE REVIEW PROCESS




Source: OIG analysis of Task Force and FBI documents.


                                       22
      With respect to materiality determinations for state and local cases,
the process was similar. Task Force members worked with state and local
prosecutors to collect the same kind of information regarding their cases as
sought from the federal prosecutors, described above. The Task Force
designed a case review form for state cases similar to the one it designed for
federal cases. Appendix E contains a state and local case review form with
case information redacted.

      Unlike the protocol used for federal cases, however, the Task Force
did not consistently provide the state prosecutors a copy of the Brady
Memorandum or any other legal guidance of the kind provided to federal
prosecutors, or a copy of or link to the OIG Report. Although there may
have been some state cases in which this information was provided, it was
not consistently done , according to Task Force correspondence we reviewed
and former Task Force members we interviewed. These decisions were likely
driven by considerations of the relationship between the Department, a
federal government agency, and the state prosecuting entities, which were
independent of the Department. In addition, one noteworthy modification
arose with the state cases: because many state prosecutors responded that
they lacked sufficient resources to make materiality determinations in a
timely fashion or failed to respond at all to repeated requests for materiality
determinations, the Task Force notified those prosecutors that in the
absence of a materiality determination by the prosecutors, it would refer
those cases to the FBI for independent review.

       Upon learning of cases where the prosecutor determined that the
evidence handled by 1 or more of the 13 examiners was material to a
defendant’s conviction, the Task Force did not communicate with the
prosecutors – federal or state – about steps they should take to fulfill their
disclosure obligations. Specifically, the Task Force did not provide any
direct guidance to the prosecutors about what they should do in cases
where the prosecutor determined that the Lab evidence was material to the
defendant’s conviction, such as a recommendation that the prosecutor
disclose to the defendant or defense counsel that a Department case review
was underway concerning potentially unreliable FBI Lab analysis or
testimony material to the defendant’s conviction. We found no documents
and learned from no witnesses why the Department did not direct the Task
Force to include such guidance.

      C.    Referrals for Review by Independent Scientists

      Once the Task Force decided to obtain an independent scientist’s
review of a case (because a prosecutor either determined that the Lab
evidence was material to the defendant’s conviction or requested an




                                      23
independent review without such a determination), it sent a referral letter to
the FBI requesting such a review.23 Although the Task Force requested
independent reviews on a rolling basis, the FBI permitted the accumulation
of referred cases until, in its view, there were enough to justify bringing
scientists to FBI Headquarters to conduct reviews.

       According to the documents we found, the Task Force sent 37
separate referral letters concerning 338 cases to the FBI between July 1998
and January 2004. The letters identified each case by examiner, case
name, associated FBI-assigned identification numbers and, sometimes, the
type of analysis performed by the Lab. Although we found no
documentation reflecting a Department or Task Force decision to prioritize
capital cases, former Task Force staff members told us they did make these
cases their top priority. According to those witnesses, they color-coded and
separated capital cases from non-capital cases. However, the impact of this
segregation was not apparent to us. The Task Force case referral letters did
not flag for the FBI that any of the referred cases involved a defendant on
death row, as we discuss further below.

        For example, the first Task Force referral letter in July 1998
contained 60 cases, including cases for 4 death penalty defendants, 3 of
whom were awaiting execution at the time and 1 of whom had been
executed 4 weeks earlier. Yet the referral letter did not provide any of the
death penalty or execution information to the FBI for those cases. Also
noteworthy was that when the FBI Office of General Counsel (OGC)
transmitted the July 1998 case list to the Lab for reviews by independent
scientists, it made no mention of the death penalty cases included on the
list or of a priority for the review of those cases, even though the FBI had
knowledge of which defendants were on death row because it originally
identified such cases.

       D.      Review by Independent Scientists

      The FBI retained 14 scientists (10 independent scientists and 4 from
the FBI Lab) with expertise in a variety of disciplines – including 2 scientists
with hair and fiber expertise – to review written materials related to the
cases the Task Force referred. In total, we found these scientists reviewed
312 cases related to 402 defendants. Of the 312 cases, 162 contained hair
and fiber analyses performed by Malone relating to 172 defendants. The
independent scientists’ reviews did not involve examination of the physical

       23  There were some cases, mostly from Florida, for which prosecutors requested an
independent review without regard to the materiality of the evidence to the defendants’
convictions. The Task Force granted such requests when made. In addition, if the Task
Force did not receive a response to a request for a materiality determination, it referred the
case to the FBI for an independent review.




                                              24
evidence. Rather, their evaluation was strictly a “paper” review of the Lab
examiners’ work and testimony, as described below.

     Figure 3 shows the total universe of cases identified and defendants
whose cases were evaluated during the Task Force case review process.

                  FIGURE 3: TOTAL UNIVERSE OF CASES
     • Cases Identified in which the 13 Examiners Conducted
7,609 Analysis/Testified

        • Cases Resulting in a Conviction
2,893

        • Cases with Materiality Requests or Materiality Determinations:
 N/A      Unknown

        • Cases Sent for Review by Independent Scientists
 338

        • Cases Reviewed by Independent Scientists
 312

        • Defendants Whose Cases Contained Hair or Fiber Analyses
 172      Conducted by FBI Lab Examiner Michael Malone


Sources: FBI, “Lab Task Force Summary,” (2007) and OIG analysis.

             1.     Protracted Identification and Retention of Experts

       The FBI took responsibility for identifying and retaining qualified
experts for each scientific discipline associated with the referred cases and
for working through the needed security clearance for each outside scientist.
The FBI Lab employee responsible for overseeing the independent review
process from 1997 to 2003 explained that the independent scientists were
generally brought to FBI Headquarters using a “batching” system. This
meant that, although the Task Force requested independent reviews on a
rolling basis, the FBI did not respond in like manner – at least with respect
to the two hair and fiber scientists who lived and worked outside the
Washington area. In those cases, the FBI allowed the hair and fiber cases
referred by the Task Force to accumulate in its offices until there was a
large enough set to justify, in its view, the scientists’ travel to FBI
Headquarters to conduct the reviews. Then, the FBI copied the relevant
case materials (bench notes, lab reports, correspondence, and testimony
transcripts) for the scientists’ reviews, set up physical space for the reviews


                                         25
(located on a different floor from the Lab), and made arrangements for the
scientists’ travel to Washington.24

       Although the Lab did not wait for case referrals from the Task Force
before beginning to identify potential scientific experts, the process of
identifying, retaining, and bringing several experts to Washington to perform
case reviews was protracted, taking as many as 6 years in one instance
before an expert was retained. For example, in October 2000, 2 years and
3 months after the Task Force referred the first 60 cases to the FBI for
independent review in July 1998, the FBI wrote to the Task Force that it still
had not been able to identify an explosives expert necessary to review some
of the referred cases. As of early spring 2002, the FBI was still attempting
to identify military weapons and shoeprint experts. Remarkably, it was not
until April 2004, that the FBI located an independent scientist to review five
pending cases with plant evidence, all of which had been analyzed by
Malone. The independent scientist reviewed those plant cases on
September 22, 2004.

       With regard to hair and fiber experts, the FBI began to identify
potential expert scientist candidates in the summer of 1997 but did not
contact state law enforcement agencies for the purpose of hiring such
experts until after the Task Force referred the first 60 cases to the FBI for
independent review in July 1998. Furthermore, the first (and only) two hair
and fiber scientists the FBI retained did not begin their case reviews until
mid-May 1999 – over 10 months after the Task Force requested the reviews.
Notably, included in the first set of cases sent for independent review were
five death penalty cases, each of which had been handled by Malone.25 In
one of those cases, Texas v. Boyle, the defendant had been executed
8 weeks before the FBI identified his case as having been handled by one of
the criticized examiners. We discuss the Boyle case in more detail in
Chapter Five of this report.

               2.     Nature of the Independent Review: “Paper” Review

      In the course of setting parameters for the independent scientists’
case reviews, the FBI took the lead on making certain decisions about how
the reviews would be conducted. In particular, the FBI decided that the
scientists would review the Lab examiners’ bench notes and reports, trial


        24 The FBI required the independent scientists to travel to FBI Headquarters to

conduct the paper review of case materials. Not until late in the process, after the events of
September 11, 2001 made air travel more burdensome, did the FBI permit at least one
scientist, Steve Robertson, to review the materials at an FBI field office.
      25 Those defendants were Benjamin H. Boyle, Brett A. Bogle, Billy Rae Irick, and

Bryan M. Jones (who was a defendant in two of the five cases).




                                             26
transcripts, and any other related materials provided by the Task Force, but
would not re-examine the physical evidence originally analyzed by the
13 examiners. The decision not to re-examine any physical evidence led a
senior Task Force attorney to characterize the scientists’ review, in an
August 1997 memorandum to the DAAG then overseeing the work of the
Task Force, as a “cursory paper review.” In documents we examined, that
senior Task Force attorney expressed concern to senior Department officials
about the process the FBI had designed, including the decision not to have
the physical evidence re-examined and the FBI’s stated intent to have
scientists review as many as 100 cases per day. There was no indication
from witnesses we interviewed or documents we reviewed, however, that
Department officials agreed with the views expressed by the Task Force
attorney or took issue with the FBI’s approach.

      Through our file reviews and interviews, we found that the decision to
conduct a paper review was not viewed uniformly within the FBI as the most
appropriate or meaningful method for evaluating the examiners’ work. We
found that some Lab employees expressed their disagreement with this
approach, commenting that it “severely limited” the review project. In
particular, in a document that appears to have been drafted by an FBI
attorney and purports to summarize comments from a meeting with Lab
employees, the attorney’s notes state: “As a matter of practice, our
laboratory would never review the case work of another laboratory or
examiner solely on the basis of documentation (without conducting a re-
examination of the items of evidence).”

       Former FBI Lab personnel and the FBI-retained independent
scientists we interviewed also commented on the inherent limitations of
paper-only reviews. In particular, the FBI Deputy Section Chief of the
Scientific Analysis Section stated that the paper-only reviews were “the
reason why this process was really form over substance – there was an
inherent limitation in not having the physical evidence to review.”
Independent scientist Steve Robertson told us, “[W]hen it comes to hair
examinations . . . the only thing you have [are] the examiner’s handwritten
notes. There are no spectra, machine printouts, [or other analytical
data]. . . . It’s just what [the examiner] writes down.” Robertson stated that
the examiner “can write down almost anything [he] want[s] and say it’s a
hair match . . . and so there’s really no way, just from looking at written
notes, particularly for the hair exams” to determine if the examiner correctly
made a comparison. As explained further in this report, although some did
not regard the paper review as an effective means to provide a thorough
review of the Lab examiners’ work, it was ultimately sufficient to confirm, at
a minimum, that there were problems associated with some of the
examiners’ Lab analyses, reports, and testimony provided at trial.




                                     27
       We also found that the independent scientists were directed to review
the hair and fiber analyses in each case, considering the forensic techniques
in practice at the time the analyses were conducted by the Lab examiners,
rather than considering the forensic techniques in practice by the scientific
community at the time of the Task Force case review work. This direction
appears to have reflected the original intent of the Task Force scope but
failed to take into consideration compelling reasons to modify the review
based on findings and technological advances. Specifically, the FBI had
begun using mitochondrial DNA (mtDNA) analysis in conjunction with
microscopic hair comparisons in 1996, a technique which, used in
combination with microscopic analysis, can provide a stronger analysis than
microscopic hair comparisons alone.26

      Thus, the independent scientists had no opportunity to consider
examinations of the physical evidence using the microscopic standards in
practice at the time of the Task Force case review or the aid of mtDNA
analysis.27 Moreover, with one exception – a Tennessee case in which the
mtDNA testing was ordered by the court and did not exclude the defendant
as a suspect – we did not discover any documents or learn from any witness
that the FBI or the Department considered re-testing evidence material to
the conviction of any of the defendants encompassed in its case review
using mtDNA analysis. Nor did our review reveal that any discussions took
place among senior management in the Department or the FBI concerning
broadening the scope of the case review to include other pre-1996 cases in
which microscopic hair comparison analysis was used alone.




       26 FBI press release, “FBI Clarifies Reporting on Microscopic Hair Comparisons

Conducted by the Laboratory,” July 13, 2012, http://www.fbi.gov/news/pressrel/press-
releases/fbi-clarifies-reporting-on-microscopic-hair-comparisons-conducted-by-the-
laboratory (accessed February 28, 2014).
       27  We recognize that the two scientists who reviewed Malone’s hair and fiber work
were not qualified to perform or interpret DNA analysis. Therefore, the FBI would have had
to contract with additional scientists if it had elected to include the review of physical
evidence in the Task Force case review – a step that would have added time and cost to the
overall process.




                                           28
       To implement the process it designed, the FBI developed a form and
corresponding guidelines for the independent scientists to use in each of
their case reviews. Known as the Independent Case Review Report
(independent report form), the independent report form required the
scientists to respond to five questions (see text box, below) with one of three
fixed responses: “Yes,” “No,” or “Unable to Determine.” The scientists were
required to provide
comments for any              Independent Case Review Report Questions
“No” or “Unable to
                        (1) Did the examiner perform the appropriate tests in a
Determine”
                        scientifically acceptable manner, based on the methods,
responses. The          protocols, and analytic techniques available at the time of
independent report      the original examination(s)?
included                (2) Are the examination results set forth in the laboratory
supplemental blank      report(s) supported and adequately documented in the
pages for the           bench notes?
scientists to           (3) Testimony consistent with the laboratory report(s)?
summarize their
                        (4) Testimony consistent with the bench notes?
findings or add
comments.               (5) Testimony within bounds of examiner’s expertise?
Appendix F
contains a blank Independent Case Review Report and the corresponding
Independent Review Guidelines.

       In Chapter Three we describe the remaining elements of the Task
Force case review process, including the FBI’s retention of independent
scientists, the FBI’s transmissions of the scientists’ reports to the Task
Force, the Task Force’s transmissions of the reports to prosecutors, and the
prosecutors’ disclosures to defendants. We also discuss our findings related
to the timeliness of each of these stages.




                                        29
                   CHAPTER THREE:
     INDEPENDENT SCIENTISTS’ REVIEWS AND REPORTS
      The timeliness of the independent scientists’ case reviews and the
content of the correspondence transmitting the independent scientists’
reports were critical to a successful implementation of the Task Force case
review process. We examined these two aspects in detail and describe our
findings below.


I.     Timeliness of Independent Scientists’ Reviews

       In his initial January 1996 memorandum creating the Task Force and
in his subsequent correspondence, Acting AAG Keeney described in very
broad terms how the case review would proceed. We found no evidence,
however, of a target timeframe the Department, the Task Force, or the FBI
contemplated for completing each step of the case review process. To
measure the timeliness of the review as it actually occurred, we examined
specific time intervals in the review process after the Task Force referred
cases to the FBI.

      As discussed below, we examined the FBI’s efforts to retain all
14 scientists (10 from independent agencies and 4 from the FBI Lab) for the
disciplines associated with the referred cases. We concluded that there
were significant delays associated with those efforts. We also calculated the
length of time between the date the Task Force referred each case to the FBI
and the date the FBI transmitted the independent scientists’ reports to the
Task Force. By studying these time intervals, we determined that for all
312 cases that the 14 scientists reviewed, it took the FBI an average of
380 days – more than a full year – to provide the Task Force a completed
independent scientist’s report.28

       During our review, we learned that Malone had handled a
disproportionately greater number of referred cases than those involving any
other Lab examiner. It also became clear during our review that the two
independent scientists who reviewed Malone’s hair and fiber cases found the
most egregious errors. For these reasons, we narrowed most of our analysis
of the timeliness of the scientists’ reviews to the 162 hair and fiber cases
involving Malone. We determined there were other delays, in addition to
those associated with the retention of hair and fiber experts, leading up to

       28 The shortest interval between a Task Force referral and an FBI transmittal of the
corresponding completed report was 28 days; the longest was 6 years and 3 months. For
the Malone hair and fiber cases alone, the average time from Task Force referral to the
FBI’s transmission of the scientists’ reports was 231 days.




                                            30
the reviews of the cases Malone handled. To analyze the time that elapsed
between the Task Force referrals to the FBI of Malone’s hair and fiber cases
and the independent scientists’ reviews of those cases, we examined the
time allotted for those scientists to conduct their reviews, the FBI’s
“batching” of the scientists’ visits to the FBI to conduct their reviews, and
other delays between the scientists’ visits.

      We also examined the length of time those scientists spent reviewing
each hair and fiber case handled by Malone. According to the time reported
by the scientists on the independent report forms, they completed each of
those reviews in approximately 1 hour, excluding the 16 hours required to
review the Boyle case. We concluded, therefore, that the delays between the
Task Force case referrals and the FBI’s transmission of the completed
independent scientists’ reports to the Task Force were not attributable to
the scientists.

       As explained below, we concluded that the delays in the scientists’
reviews were largely attributable to the FBI for the following reasons: (1) the
agreed upon independent scientists’ review criteria and other factors caused
difficulties in identifying and retaining scientific experts; (2) the relatively
small number of expert scientists the FBI retained to conduct the reviews
and insufficient time the FBI allotted these few scientists to review the large
number of cases rendered the scientists unable to complete their reviews in
a timely manner; and (3) the FBI’s process of accumulating or “batching” of
numerous cases before arranging for the scientists to conduct the reviews
caused some cases to languish without review long after the Task Force
referred them to the FBI. In addition, there were significant, unexplained
delays between the two hair and fiber scientists’ visits to the FBI to review
cases. As discussed below, these delays in the scientific review process had
significant, adverse effects on some defendants’ cases.

       We do not know whether the delays associated with the scientists’
reviews of cases involving examiners other than Malone were caused by the
same factors, other than those related to the retention of experts. Our
findings regarding the FBI’s treatment of cases involving Malone hair and
fiber cases, however, create concern that the FBI handled the reviews of the
other 12 examiners’ cases in a similar manner.

      A.    Difficulties in Retaining Experts

      A significant factor that contributed to the delay of the FBI’s retention
of independent scientists was the need to locate and engage experts with the
appropriate educational and professional qualifications and ability to obtain
security clearances for the review. This difficulty was exacerbated by the
small number of qualified scientists in certain disciplines and the need to
retain experts for each scientific discipline associated with the 13 criticized


                                      31
examiners. As a result of these challenges, it took the FBI more than
6 years to hire all the scientists required to complete the reviews.

       Former FBI and Task Force participants we interviewed recalled the
FBI’s difficulty in retaining scientists to perform the independent reviews.
According to those witnesses and the terms of the FBI’s solicitation for the
scientists, the scientists were required to: (1) have at least 5 years of
experience as a “senior court qualified examiner” in the specified disciplines;
(2) have provided forensic analysis services at the competency level of a
Senior Forensic Examiner; (3) have provided expert witness testimony in
court at least 100 times; and (4) obtain a security clearance at the Secret
level.

       The limited availability of independent scientists due to competing
work responsibilities and, in the hair and fiber area, the few experts
employed in federal, state, and local crime labs, constituted additional
obstacles the FBI confronted in its effort to retain experts, according to the
former Deputy Section Chief of the Scientific Analysis Section of the FBI
Lab. In addition, a former FBI Assistant General Counsel involved in hiring
the scientists told us that the FBI did not seek scientific experts from
academia or private industry because the latter sources were not likely to
employ scientists with experience in law enforcement. Further, a few of the
witnesses we interviewed stated that some candidates viewed the FBI’s
contract requirements as too rigid and that other experts were simply not
interested in participating. Another former FBI Assistant General Counsel
also stated that outside labs were reticent to get involved in the case reviews
because of their work with the FBI and concerns about their future
relationships with the FBI.

       The first set of cases the Task Force referred to the FBI illustrates the
impact on the timeliness of the case reviews resulting from the delays in the
FBI’s retention of scientists in the hair and fiber discipline. There were
31 hair and fiber cases involving Malone among the first 60 cases the Task
Force referred to the FBI for independent review in July 1998. The 31 cases
included 5 death penalty cases (involving 4 defendants).29 However, the FBI
had not yet hired scientists with hair and fiber expertise at the time of those
case referrals. The two hair and fiber scientists the FBI ultimately hired did
not begin reviewing cases until May 1999 (Visit 1) – more than 10 months
after the first set of case referrals. As a result, those 31 cases – plus an
additional 17 cases the Task Force referred to the FBI prior to Visit 1
(48 total) – all suffered delays in the timeliness of their review attributable to
the lengthy time taken to retain experts.

       29As previously noted, the defendants were Boyle, Bogle, Irick, and Jones (who was
a defendant in two of the five cases).



                                           32
      Below, we discuss the additional factors we identified as significant to
the delays in the scientists’ reviews of the 162 hair and fiber cases involving
Malone.

       B.     Too Little Time Allotted for the Scientists to Conduct
              Reviews

       The FBI did not allot sufficient time for the two hair and fiber
scientists to review all the cases that awaited them during their scheduled
trips to the FBI. Put another way, the FBI failed to hire enough experts to
handle the number of cases awaiting review within the time period it allotted
for the scientists’ visits. Either way, the effect was the same: the scientists
were unable to review all cases awaiting them at the start of each visit.

       We determined that two hair and fiber experts, Cathryn Levine and
Steve Robertson, reviewed the 162 Malone hair and fiber cases in 10 visits
to the FBI between May 1999 and August 2004. Robertson reviewed most
of the cases in 9 of the 10 visits because Levine resigned after the first visit
(for reasons we discuss in Chapter Four). Levine and Robertson were
employed by state crime labs in New York and Texas, respectively. Though
the contract between the FBI and the scientists’ employers did not stipulate
the number of cases to be reviewed or the amount of time the reviews would
require, the FBI told us in April 2014 that, prior to Levine’s departure, both
scientists were scheduled to travel to Washington to review cases for 1 week
every 4 months. However, as we describe below, 1-week visits were
insufficient for the scientists to conduct their reviews and we found delays
of over 14 months between some visits.

      To illustrate the insufficient time allotted for Levine and Robertson to
conduct their reviews, Figure 4 (below) shows the hair and fiber cases
involving Malone that the scientists did not review during their visits.
During 8 of the 10 visits, the scientists were unable to finish reviewing all
the cases – up to 64 percent in 1 visit. Yet, the FBI neither extended the
time period allotted for the scientists to conduct the reviews nor retained
additional scientists after Levine resigned.

       In addition, the FBI’s initial requirement that, with limited exceptions,
the reviews be conducted at FBI Headquarters in Washington compounded
the limitation on the scientists’ time available for case reviews.30 For Levine
and Robertson, who lived and worked in New York and Texas, this travel

       30 The FBI’s contract with the scientists stipulated that all reviews be performed at
Headquarters “except as specifically directed by the FBI.” The contract stated that this was
due to “the nature of this work and for security purposes.” FBI, attachment to contract
with independent scientist Steve Robertson for the contract period November 1, 1998
through October 31, 1999, Section 6, Work Location and Equipment.




                                            33
consumed valuable time that they otherwise could have spent conducting
the reviews had they initially been permitted to do so close to their
workplaces. The FBI’s travel requirement also limited the scientists’ ability
to complete the cases awaiting their review because they needed to travel
back home at the end of the prescribed review period. The FBI’s initial
requirement that the reviews be conducted in Washington seemed
unnecessary in view of the fact that the scientists’ reviews encompassed
access only to bench notes, lab reports, correspondence, and testimony, not
a re-examination of any physical evidence. It was not until travel became
more burdensome following the events of September 11, 2001, nearly
2½ years after the reviews began, that the FBI sent files to a field office
geographically convenient to Robertson so that the reviews could be
accomplished more quickly.




                                     34
    FIGURE 4: MALONE HAIR AND FIBER CASES NOT REVIEWED BY
      INDEPENDENT SCIENTISTS DURING EACH VISIT, 1999–2004
 
                               70%
                                                     64%                          60% 60%
                               60% 58%

                               50%

                               40%

                               30%
                                                           18%
                               20%
                                                                  8%       10%
                               10%          4%
                                                                                            0%       0%
                               0%
                                      Visit Visit Visit Visit Visit Visit Visit Visit Visit Visit
                                       1     2     3     4     5     6     7     8     9     10
    Percentage of Cases Not Reviewed 58%     4%       64% 18%      8%       10% 60% 60%      0%       0%
    Number of Cases Awaiting Review    48    28       56     56    26        20     5   5        6        2
    Number of Cases Reviewed           20    27       20     45    23        17     2   2        6        2
    Number of Cases Not Reviewed       28        1    36     10        2     2      3   3        0        0

Notes: “Cases Awaiting Review” includes any cases not reviewed from the prior visit
plus new cases the Task Force referred to the FBI after the prior visit. “Cases
Reviewed” reflects cases the scientists reviewed during each visit. “Cases Not
Reviewed” reflects cases the scientists were unable to finish reviewing during a given
visit and deferred to a future visit. Some cases were reviewed more than once in more
than one visit and others awaiting review were later eliminated from the review scope.
For these reasons, the number of cases reviewed and not reviewed during each visit do
not always equal the number of cases awaiting review.

Source: OIG analysis.


       These delays are best illustrated by examining Levine and Robertson’s
visits to FBI Headquarters in 1999. The Task Force had referred the first
31 hair and fiber cases to the FBI for review in July 1998. By the time the
FBI retained Levine and Robertson and brought them to Washington in May
1999, the Task Force had referred another 17 hair and fiber cases, bringing
the number of cases awaiting review to 48. During the 5 days the FBI
scheduled for Levine and Robertson to review cases, the scientists reviewed
20 of the 48 cases. Levine subsequently resigned from the project for
reasons we describe in Chapter Four, leaving only Robertson to review the
remaining 142 Malone hair and fiber cases. The FBI did not bring
Robertson back to Washington to review the remaining 28 cases for another
4 months (in September 1999), more than 14 months after the Task Force
had referred some of those cases to the FBI. Figure 5 shows the delays



                                                     35
related to the reviews of the first 48 Malone hair and fiber cases the Task
Force referred to the FBI.

FIGURE 5: DELAYS IN INDEPENDENT SCIENTISTS’ REVIEWS OF THE
   FIRST 48 MALONE HAIR AND FIBER CASES THE TASK FORCE
                    REFERRED TO THE FBI

           20 of 48 Cases Reviewed                     28 of 48 Cases not Reviewed 
                 During Visit 1                                During Visit 1

                                         6%
                             8%       (3 cases)
                          (4 cases)                                 Length of Delay from
                                                                    Task Force Referral 

                                                                      Over 14 months


                                                                      Over 10 months


                                                                      Over 8 months

                27%
                                                          58%         Over 3 months
             (13 cases)
                                                       (28 cases)


   Source: OIG analysis.

       Among the defendants whose cases were not reviewed during the first
visit and were delayed by over 14 months were Brett Bogle and Bryan M.
Jones, both of whom were on death row. Also among the cases not reviewed
was that of John Norman Huffington, whose case awaited review of Malone’s
flawed testimony for over 14 months after referral to the FBI. We discuss
the Huffington case later in this chapter.

       Similarly, during Robertson’s third 5-day trip to the FBI to conduct
reviews in November 2000, Robertson completed 20 out of 56 cases awaiting
his review, leaving a balance of 36 cases for the next visit, nearly 4 months
later. During his fourth visit in March 2001, Robertson completed 45 out of
56 cases, the balance of which was not reviewed until more than 7 months
later. We observed, based on our analysis of the timeliness of the Malone
hair and fiber reviews, that Robertson was able to complete the later reviews
of Malone’s cases more quickly than the earlier reviews.

      C.       Delays Caused by Batching

    The FBI’s process for independent reviews involved accumulating
numerous cases before arranging for the independent scientists to conduct


                                                  36
the reviews. This “batching” system meant that the FBI allowed cases for
which the Task Force had requested independent reviews to remain
unexamined until the FBI determined there were enough to warrant
bringing a scientist from his or her lab of employment to FBI Headquarters
to conduct the reviews. Because we focused most of our analysis of the
review timeliness on the 162 hair and fiber cases involving Malone (for
reasons described above), we did not calculate the review timeliness of cases
handled by the other 12 independent scientists the FBI retained. However,
in April 2014, the FBI provided for the first time documentation showing
that three independent scientists who worked in the Washington, D.C. area
reviewed cases involving examiners other than Malone on a more frequent
basis – approximately once per month in some instances – than the two
independent scientists who reviewed Malone’s hair and fiber cases.

        In an example of the Malone hair and fiber case review delays caused
by batching, the Task Force referred 55 new Malone hair and fiber cases to
the FBI between January and October 2000, after Robertson’s second visit
in September 1999. Yet, it was not until November 2000 – nearly
14 months after the second visit – that Robertson returned to Headquarters
to start reviewing the new cases. When Robertson returned for the third
visit in November 2000, there were more cases for him to review than was
feasible in the time allotted, just as there had been during the first visit.
Robertson reviewed 20 cases and departed, leaving 36 cases still awaiting
review.

       One case, Florida v. John Walter Smith, was not reviewed by a scientist
for 2 years and 7 months after the Task Force referred the case to the FBI.
Rather than arranging for Robertson to review the Smith case as soon as
possible after it was referred in July 1998, the FBI waited until more
referred cases had accumulated. Although one of the delays in this case
was attributable to a second independent review of wood particles
conducted after Robertson’s hair analysis review, we concluded that other
serious delays occurred as a direct result of both the FBI’s batching and the
insufficient time it allotted for scientists to review cases during each visit.

       Even if the batching approach made sense from a resource
perspective, the approach caused significant delays in the review of many
defendants’ cases, the disclosure of the independent scientists’ reports, and
judicial determinations about whether the defendants should be released
from custody because they were wrongfully convicted based on tainted FBI
Lab analysis or testimony. By our analysis, the FBI batched cases for
review for 8 of Robertson’s 10 visits, causing many delays for defendants
whose convictions or sentences may have resulted from tainted Lab analysis
or testimony.




                                      37
      Two cases illustrate the adverse effects of this batching approach. In
United States v. Donald Gates, the defendant spent 27 years in prison and
was ultimately exonerated on the basis of DNA testing. Among the delays
contributing to the injustice in Gates’s case was that the FBI did not have
the independent scientist review Malone’s analysis in the case until
December 4, 2003, more than 7½ months after it received the request from
the Task Force. It took the independent scientist only 45 minutes to review
Malone’s Lab report and related case materials and to complete his report in
the Gates case.

       In United States v. Bragdon, the defendant was convicted and
sentenced to 30 years on the basis of tainted FBI Lab analysis and false
testimony concerning fiber analysis Malone provided. Bragdon spent nearly
11 years in prison before his conviction was set aside on the grounds that,
without Malone’s unreliable testimony, the jury might have reached a
different verdict. In addition to other delays in this case, almost 14 months
elapsed between the Task Force’s referral of Bragdon’s case to the FBI
(January 31, 2000) and the date when the independent scientist reviewing
Bragdon’s case signed his completed report (March 14, 2001). It took the
independent scientist only 2 hours to review the case materials and
complete his report.31

       In addition to the FBI’s batching of cases the Task Force sent for
independent review, we also found unexplained time lapses between
scientists’ trips to the FBI to review cases. The intervals between visits
ranged from 9 days to almost 14 months, when at least 1 and as many as
36 Malone hair and fiber cases awaited review. We were unable to
determine the reasons for these delays using the available documents and
witness interviews. Nor did we find any evidence of discussions among FBI
officials, the Task Force, or Department officials of the need to minimize the
time between scientists’ visits to the FBI, even after one of the scientists,
Levine, found egregious mistakes in Malone’s analysis. Specifically, Levine
determined in May 1999 that Malone’s analyses were scientifically
unsupportable and that his testimony was overstated and incorrect in the
capital cases of Boyle (executed prior to Levine’s review) and Billy Rae Irick
(currently on death row). Such early, serious findings should have
motivated the FBI to ensure that the scientists reviewed the remaining cases
as soon as the Task Force referred them.




       31  The delay caused by the FBI’s batching was further compounded by the
prosecutor, who forwarded the report to the defendant’s counsel more than 4 months after
receiving it. The defendant’s conviction was vacated 19 months later.




                                           38
II.   Transmissions of Scientists’ Reports

       The internal FBI protocol for the independent scientists’ reviews called
for the FBI Lab, which managed the scientists’ visits, to send the completed
reports to the FBI OGC for review. The OGC then would transmit copies of
the reports to the Task Force. Upon receipt, the Task Force was to transmit
the reports to the prosecutors for their determination of whether the reports
should be disclosed to defendants or defense counsel. Below, we describe
our findings on how this process worked in practice.

      A.    Transmissions from FBI to Task Force Not Timely

       Based on our review of the available FBI and Task Force
correspondence, we believe the FBI OGC reviewed some or all of the
completed independent reports it received from the Lab, although no
witnesses we interviewed described such reviews. From our interviews with
former FBI OGC staff, we learned only that the Lab sent the reports to the
OGC and that an OGC administrative employee was responsible for copying
and transmitting the reports to the Task Force. We focused our analysis on
the transmission of reports in hair and fiber cases referred for independent
review and for which Malone had served as an examiner. We examined the
report transmittal letters and the transmission intervals in those cases.
Our analysis of the FBI transmissions to the Task Force was based on
160 Malone hair and fiber cases with available data.

      We examined 30 OGC transmittal letters to the Task Force and found
that an OGC attorney signed all the letters and identified the cases for
which reports were enclosed. The first four such letters contained
references to the findings of the independent scientists’ reviews, such as
that they had identified problems or raised “issues of concern.” However,
the 26 subsequent letters from the OGC to the Task Force that we examined
made no such references to the independent scientists’ findings.

       With regard to the timing of the FBI OGC’s transmission of the
scientists’ reports to the Task Force, we found that in the Malone hair and
fiber cases, the transmissions occurred on average within about 1 month of
the scientist’s signature on the completed reports. It took the OGC between
1 week and 2 months to transmit most (84 percent or 134 of 160 cases) of
those cases to the Task Force; the remaining 16 percent were transmitted
over a period that ranged from 9 weeks to over 2 years in one case (the
Smith case). We also noted that in the seven death penalty cases handled
by Malone, the FBI’s transmission of the completed reports to the Task
Force occurred on average almost 3 months after completion of the
scientists’ work. The reasons for the substantial delays in transmissions of
completed reports to the Task Force were unclear from Task Force and FBI
documents and our interviews. However, we found that for each of the


                                      39
scientists’ 10 visits, the FBI OGC sent the completed reports to the Task
Force in batches, rather than when they were completed by the scientists at
the end of each visit.

      B.    Transmissions from Task Force to Prosecutors Provided
            Limited Information and Little Guidance

      The protocol for the Task Force transmission of the scientists’ reports
to prosecutors, as articulated by senior Department management, was
described only in very broad terms. Although Department management
approved a standard letter for transmission to prosecutors, it did not
provide specific guidance to the Task Force regarding: (1) language to
address the findings of the scientists’ reports; (2) the necessity or
presumption, based on the findings and the law, that prosecutors disclose
the scientists’ reports to defendants; (3) whether, how, and when
prosecutors should inform the Task Force about their disclosure
determinations regarding the scientists’ reports and the reason for any non-
disclosure; or (4) tracking the reports transmitted to prosecutors and any
disclosures of such reports by prosecutors.

       As a general rule, the Task Force sent a transmittal letter with boiler-
plate language notifying prosecutors of the report being transmitted and
requesting that the prosecutors determine whether disclosure of the report
to the defendant or defense counsel was warranted. The letters contained
no reference to the independent scientists’ findings about the Lab reports
or trial testimony provided in the defendant’s case. Nor was there any
language in the letters to alert prosecutors that the reports contained any
issues of concern warranting immediate attention. This was true in the
death penalty cases as well as in the non-death penalty cases. For example,
in the Bragdon case, the Task Force letter to the state prosecutor contained
standard language, which we determined from our analysis was approved
by senior Department officials. The letter stated:

      Enclosed are the results of the independent scientific review of
      the forensic work performed by FBI laboratory examiner
      Michael Malone in the Bragdon case. The review was limited to
      the laboratory file and trial transcript. Also enclosed for your
      information is a copy of the laboratory report(s) reviewed by the
      scientist.
      Please review the enclosed documents, the OIG report, and any
      other information you may have to determine whether the
      report of the independent scientist should be disclosed to the
      defendant or to the defendant’s counsel pursuant to Brady v.
      Maryland and its progeny.




                                      40
       The Task Force letters to federal prosecutors also contained no
guidance about disclosure of the scientific report to the defendant or
defense counsel, other than simply enclosing the Brady Memorandum,
which was a general statement of well-established law. The letters did not
provide any case-specific guidance about the prosecutor’s obligations. The
transmittal letters to state prosecutors contained less information because
those letters generally did not include the Brady Memorandum or any other
disclosure guidance. Further, all the transmittal letters to prosecutors were
silent on a timeframe for making disclosures and conveyed no urgency for
making any required disclosures to defendants.

      Through our file review, we found that for the first 10 months of
report transmissions, the standard Task Force letters requested that
prosecutors send copies to the Task Force of any disclosures made to the
defense. However, there was no deadline attached to the request and, after
the senior trial attorney on the Task Force left the Department in June
2000, the request for copies of any disclosures was omitted from subsequent
transmittal letters to prosecutors enclosing the scientists’ reports.
According to one former Task Force member we interviewed, the new Task
Force lead attorney decided to remove the language requesting copies of
disclosures to the defense, reasoning that because the Task Force had no
control over prosecutors and was not tracking disclosures, there was no
point to continue requesting copies of the prosecutors’ disclosure letters.

       The Task Force did receive copies of a limited number of letters from
prosecutors indicating they had disclosed the scientists’ reports to
defendants or defense counsel. However, according to former Task Force
members we interviewed, the Task Force did not generally follow up with
prosecutors from whom it did not receive disclosure notifications to
determine whether a disclosure had been made. For this reason, after the
prior Task Force senior attorney left the Department in June 2000, the Task
Force received few notifications from prosecutors and was unable to track
disclosures to defendants in the vast majority of cases.

       Our file reviews and interviews showed that the Task Force members
believed they had an important role but limited authority when it came to
ensuring that prosecutors satisfied their legal disclosure obligations in cases
where the independent scientist found that the Lab analysis or testimony
was problematic. Although we found no memoranda addressing the
authority delegated to the Task Force, the former Task Force members we
interviewed uniformly stated they believed, based on statements from senior
management, that they did not have authority to tell prosecutors, federal or
state, how to handle their cases, including providing guidance on their
disclosure obligations. Instead, they were told by senior management that
the Task Force’s role was to facilitate the identification of cases involving the
13 examiners, to coordinate with the FBI by providing cases for the


                                       41
independent scientists’ review, and to transmit the independent scientists’
reports to the prosecutors. Upon completing those duties, the former Task
Force members told us, they believed the Task Force would have fully
discharged its responsibilities.

      With regard to the timeliness with which the Task Force transmitted
the scientists’ reports to prosecutors, we found that in most cases
(79 percent or 125 of 158 cases with available data), the Task Force
transmitted the reports to prosecutors in 3 weeks or less – most commonly
between 8 and 14 days – of receiving them from the FBI.32 However, there
were some exceptions, including one death penalty case (Irick), where the
Task Force did not transmit the report to the prosecutor until more than
10 weeks after receiving it from the FBI. We also learned from one former
Task Force member we interviewed that, although the Department did not
expect the Task Force to follow up with federal or state prosecutors to
ensure receipt of the scientists’ reports, or to track disclosures made by
prosecutors to defendants, the Task Force ensured that the prosecutors
received the reports it sent. This witness stated that the Task Force staff
called the prosecutors in advance of sending the reports and sent the
packages by Federal Express so that the delivery could be tracked and
confirmed. According to this witness, after these confirmations, the Task
Force took no further action to communicate with the prosecutors about
whether disclosures of the independent reports were made.

       C.     Prosecutors’ Disclosures to Defense Counsel Not Tracked

       With regard to the prosecutors’ disclosures of the independent
scientists’ reports to defendants or defense counsel – a critical step resulting
from the work of the Task Force – we found very little documentation in the
Task Force files evidencing disclosure to defendants. As a result, we had a
limited basis on which to determine whether and when prosecutors
disclosed the scientists’ reports. Our review established that there were
402 defendants for whom the independent scientists completed reports. We
identified evidence of confirmed disclosures by prosecutors to only
15 defendants. For 13 of those disclosures, the Task Force files included
copies of transmittal letters from prosecutors to defense counsel. In two
instances, court records established that the defendants received copies of
the independent report. We provided the list of 402 defendants to the FBI
and the Department in September 2013 to enable them, without awaiting
completion of this report, to begin remedial action we anticipated
recommending. The list is shown in Appendix H.


      32 Our analysis of the Task Force transmissions to prosecutors was based on

158 Malone hair and fiber cases with available data.




                                          42
       Additional defendants may have received copies of the independent
scientists’ reports, but we were unable to confirm disclosure from our review
of the Task Force’s files. For example, we found correspondence from
prosecutors and Task Force members’ notes memorializing conversations
with prosecutors who expressed their intention to disclose the reports to
43 additional defendants or defense counsel. However, the Task Force files
contained no documentation confirming transmission or receipt by the
defendants or their counsel of those reports.

       We also found two instances in which prosecutors definitely did not
disclose the independent scientists’ reports to defendants. In the well-
publicized Gates case, the U.S. Attorney’s Office for the District of Columbia
failed to transmit Robertson’s report documenting Malone’s inaccurate and
scientifically unreliable analysis.33 In December 2009, approximately
6 years after the Task Force transmitted the report to the prosecutor,
Gates’s conviction was vacated. Gates was exonerated on the basis of DNA
testing, requested and performed before Gates or his counsel learned of
Robertson’s report, which Gates’ counsel received later in response to a
Freedom of Information Act request to the FBI. Gates’s counsel wrote in
Gates’s Motion to Vacate Convictions on the Ground of Actual Innocence
that the U.S. Attorney’s Office never notified Gates or any of his past
defense counsel of Robertson’s report.

       In the Huffington case, the defendant learned of Robertson’s report,
which described Malone’s testimony as false, misleading, and unscientific,
when an investigative reporter informed his defense counsel of the
independent scientist’s report more than 12 years after the Task Force
transmitted the report to the state prosecutor. In a court filing in support of
Huffington’s petition for a finding of actual innocence on the basis of DNA
evidence, Huffington’s counsel asserted that neither he nor his client had
been aware of Robertson’s report until the reporter contacted them. The
filing stated that Huffington, through counsel, had “for many years”
attempted repeatedly without success to obtain information from the FBI
regarding Malone’s hair analysis and that the FBI had claimed it was unable
to locate any relevant files. Yet, Task Force files reflect that the Task Force
sent a copy of Robertson’s report to the state prosecutor 1 week after the
FBI transmitted the report to the Task Force.



       33  Although Gates was most harmed by the failure by the U.S. Attorney’s Office for
the District of Columbia to forward to Gates’s counsel the independent scientist’s report,
the FBI contributed to the delay in Gates’s ultimate release because it took over 7½ months
to complete the independent report and return it to the Task Force. By the time the Task
Force forwarded Gates’s report to the prosecutor, over 9 months had passed since the Task
Force referred the case to the FBI for independent review.




                                            43
        We also found that while some prosecutors disclosed the independent
reports to the defendants they prosecuted, they did not do so immediately
after receiving the reports from the Task Force. For example, in the case of
Anthony Bragdon, the Florida state prosecutor waited 4 months before
sending the Robertson report to the defendant. Bragdon’s conviction was
reversed on appeal on the basis of the independent report; he had served
11 years in prison. Thus, in addition to the tainted convictions of
defendants like Gates and Bragdon, the failure of the prosecutors to
transmit the reports to these defendants in a timely fashion delayed these
defendants’ appeals and extended their incarcerations.

       Finally, it was also important for prosecutors to disclose reports to
those defendants already released from prison because of the potential
collateral damage those defendants suffered if, in fact, they would not have
been convicted but for the unreliable Lab analysis or testimony used against
them. Those defendants should have been notified in a timely way so that
they could pursue their legal remedies.

       There was a lack of evidence in the Task Force files that the
independent scientists’ reports were consistently provided to defendants. In
addition, we found cases firmly evidencing non-disclosure of reports. The
failure to disclose any reports that found flawed Lab analysis or testimony
deprived those defendants of the opportunity to challenge their convictions
on the basis of potentially unreliable evidence.

      We asked each Department and Task Force witness we interviewed to
explain why the Task Force failed to consistently document prosecutors’
completion of this critical step in the case review process. Former Task
Force members we interviewed all stated that senior Department
management never directed the Task Force to follow up with prosecutors to
ensure that necessary disclosures had been made or to track the
prosecutors’ disclosures. Rather, Task Force members told us, as we
discussed above, that senior Department managers limited the final role
and authority of the Task Force to transmitting the completed independent
scientific reports to prosecutors. We found no other information in the Task
Force’s files to explain why the Department did not follow up with
prosecutors about whether disclosures were made.

      In Chapter Four we discuss the forensic analysis and testimony by
former FBI Lab Hairs and Fibers Unit examiner Michael Malone. We
describe the independent scientists’ findings about Malone’s work and how
the FBI and the Department responded to those findings.




                                    44
                       CHAPTER FOUR:
              FORENSIC ANALYSIS AND TESTIMONY
                    BY MICHAEL MALONE
       Of the 13 FBI Lab examiners whose work the Task Force reviewed,
1 examiner, Michael Malone, repeatedly created scientifically unsupportable
lab reports and provided false, misleading, or inaccurate testimony at
criminal trials. At the height of his career with the FBI, Malone was a senior
examiner for the Hairs and Fibers Unit and handled a disproportionately
large number of cases. We include this discussion to illustrate the
significance of the problems that became known to the Task Force and the
FBI about Malone’s work and testimony in criminal cases. The stark
revelations about Malone resulting from the Task Force’s work, and the lack
of a corresponding response by the Department, the Task Force, or the FBI
exposed a major deficiency in the Department’s implementation of the Task
Force’s mission.


I.    Background

      Michael Malone earned a Bachelor’s Degree from Towson State
University in Baltimore, Maryland in 1968 and then became a high school
teacher where he taught biology and general science in Maryland, Virginia,
and Florida. In 1970, Malone earned a Master’s Degree in Biology from
James Madison University in Harrisonburg, Virginia. He joined the FBI in
the same year as a Special Agent. In 1974, Malone transferred to the Hairs
and Fibers Unit in the Lab, then located at FBI Headquarters in
Washington, D.C., where he received training to become a hair and fiber
examiner. Upon completion of his training, Malone was designated a
Forensic Microscopist specializing in trace evidence. In that capacity,
Malone analyzed evidence as the primary examiner, testified about his
analyses in criminal trials, and served as a “confirming examiner” of his
colleagues’ hair and fiber analyses.

      Malone became well known to many judges and the law enforcement
community because of his forensic work on several high profile cases,
including those of Jeffrey MacDonald, a Green Beret Army surgeon
convicted of murdering his wife and children at Fort Bragg, North Carolina,
and John Hinckley, who attempted to assassinate President Ronald Reagan.
In Florida, Malone was instrumental in helping to achieve multiple capital
convictions of a serial killer, Robert (Bobby) Joe Long.

      Problems with Malone’s analyses and testimony began to surface
publicly in Florida, starting in the late 1980s, when several courts reversed
murder convictions on the grounds that microscopic hair comparisons were


                                     45
insufficiently reliable to constitute a basis for positive personal identification
without other evidence to link a defendant to the murder with which he was
charged. In several of these Florida cases, Malone had been the hair and
fiber expert who conducted the forensic examinations and testified at trial.
In one murder case, Florida v. Jackson, the court also found that Malone’s
hair analysis was unreliable because it failed to identify hair strands of
other potential suspects found on the victim’s body and submitted by local
authorities for examination.

       Malone’s credibility also came under attack as the result of his
testimony in 1985 before the Investigating Committee for the Judicial
Council of the Eleventh Circuit regarding the proposed impeachment of
then-federal Judge Alcee Hastings. In particular, William Tobin, an FBI Lab
metallurgy expert whom OIG investigators interviewed for the 1997 Report,
alleged that Malone had testified falsely, outside his expertise, and
inaccurately. The OIG expanded the scope of its 1994–1997 review to
include Tobin’s allegations about Malone’s testimony and found that Malone
had testified falsely before the Committee when attesting that he had
performed a tensile test which he had not done.34 The OIG also found that
Malone had testified “outside his expertise and inaccurately” concerning the
tensile test results. The OIG recommended in the 1997 Report that the FBI
assess the need for disciplinary action against Malone for this misconduct
and monitor his testimony in future cases. However, the FBI did not take
disciplinary action against Malone, deferring such a decision to the
Department. The Department also elected not to take any action against
Malone. By the time the OIG issued its report in 1997, Malone had already
left the Lab to return to work as a Special Agent in the field. He was
assigned to the Norfolk, Virginia office. Malone retired from the FBI in
1999.

       Just 3 years after his retirement, however, Malone began conducting
background investigation services for the FBI. In May 2014, the OIG
learned, and the FBI confirmed, that since 2002, Malone had been actively
employed by Background Investigative Contract Services, an FBI contractor,
performing background investigations. After we brought Malone’s
employment to the attention of the FBI and the Department, the FBI
reported that, effective June 17, 2014, Malone’s association with the FBI
was terminated. Although not the focus of this report, we believe that
Malone’s employment as an FBI contractor was a consequence of the failure
of the FBI and the Department to discipline Malone for the misconduct we
identified in our 1997 Report.


         34   A tensile test measures the force required to break material, such as a leather
strap.




                                                46
II.       Findings of Independent Scientists Regarding Malone’s Forensic
          Evidence Analysis and Testimony

       In 1999, the FBI hired two hair and fiber experts, Cathryn Levine and
Steve Robertson, to serve as independent scientists for the Task Force
review.35 Both scientists began their reviews on May 17, 1999. After the
first week’s review, however, Levine withdrew from the project, unhappy
with the way the FBI had designed the review and the terms of her
engagement. Levine expressed these concerns in a resignation letter to the
FBI and in our interview with her (see text box below). The findings and
conclusions Levine reached regarding the cases she reviewed during her
week at FBI Headquarters were consistent with those reached by Robertson
who, thereafter, reviewed all of the Malone hair and fiber cases the Task
Force referred to the FBI for independent review. The FBI did not hire
another hair and fiber expert scientist to take Levine’s place, despite
comments from Levine and Robertson during an FBI debriefing that it had
been helpful to work in tandem for the purpose of consultation.

                  Cathryn Levine’s Main Reasons for Withdrawing from
                       the FBI’s Team of Independent Reviewers
      1. The FBI’s lack of standard operating procedures governing examiners’ work at
         the time prevented the independent scientists from verifying the examiners’
         analysis methods; the examiners’ bench notes did not include information on
         methods used. Levine said the FBI’s case review form should have asked
         whether the testimony was accurate instead of whether the testimony was
         consistent with the bench notes.
      2. The FBI’s policy of not permitting the independent scientists to retain copies
         of their case notes or their completed case review forms compromised her
         independence and would expose her to criticism when she would inevitably
         have to testify in future litigation of the cases she reviewed.
      3. The FBI’s requirement that independent scientists not disclose their review
         findings created a “moral and ethical dilemma” by preventing Levine from
         reporting Malone to the ethics committee of the forensic science board to
         which they both belonged.


       According to Levine and Robertson, due to the inherent limitations of
the paper-only reviews and the fact that the FBI Lab was not accredited
until 1998, they inquired about established Lab policies or protocols that
guided the Unit examiners and that Robertson and Levine could use to
evaluate the Lab examiners’ compliance. The head of the Hairs and Fibers
Unit informed them that no policies or protocols existed within the FBI at
the time Malone and his colleagues performed their analyses of the cases

       35 The FBI hired these experts through their state crime laboratories. The scientists

were not personally compensated by the FBI for their work.




                                                47
Robertson and Levine were reviewing.36 The lack of policies or protocols
rendered it extremely difficult for the independent scientists to assess the
consistency or accuracy of the scientific approach used by Malone. The
same would have been true had the scientists been asked to review the
forensic work of any other examiners in the Hairs and Fibers Unit.

       As mentioned above, of the 312 cases the independent scientists
reviewed for the Task Force, 162 cases contained hair and fiber analyses
performed by Malone, relating to 172 defendants. Approximately one-third
of those 162 cases also included testimony provided by Malone. According
to the former Deputy Section Chief of the FBI Lab’s Scientific Analysis
Section, Malone handled significantly more cases than any other Hairs and
Fibers Unit examiner, causing many examiners in the Lab to question the
integrity of Malone’s methodology. The fact that the number of cases
handled by Malone and reviewed by the independent scientists was
disproportionate to the number of cases handled by the 12 other Lab
examiners subject to the Task Force review may also have reflected other
factors. For example, the Tampa, Florida, State Attorney’s Office had
requested that the Task Force refer all cases in his district involving
Malone’s work to the FBI for review by the independent scientists.

      We determined that the independent scientists deemed approximately
96 percent of the Malone cases to be problematic in one or more areas
corresponding to the five questions on the case review form and as defined
by the Independent Review Guidelines the FBI provided to the scientists at
the start of the case reviews. The guidelines are in Appendix F. In
summarizing his reviews of Malone’s cases, Robertson, who reviewed over
150 Malone cases, told us the most significant, recurring problems with
Malone’s work were:

       1. His testimony that an individual hair could be determined to
          belong unequivocally to only one person in the world, based solely
          on microscopic analysis, had no scientific basis at the time Malone
          testified. Robertson described Malone’s testimony to this effect in
          many cases as “outlandish.”
       2. His testimony to the statistical probability of a match was
          inappropriate in hair analyses based solely on microscopic
          analysis.

       36 At the outset of this review, the FBI did not produce in response to our request
any FBI manuals or other internal guidance concerning hair or fiber analysis. However, we
subsequently located on the Internet a 1977 FBI manual that specifically addressed how to
analyze hair and testify in court about findings derived from hair microscopy analysis:
John W. Hicks, Special Agent, Microscopy of Hairs: A Practical Guide and Manual, Federal
Bureau of Investigation, U.S. Department of Justice (Jan. 1977).




                                           48
      3. His conclusions, as described in his reports, had unclear and
         unsupported bases.
      4. His documentation was inadequate and often indecipherable.
      5. His testimony included analysis that was not documented in his
         lab report or bench notes.

      Levine and Robertson found serious and consistent flaws in Malone’s
work. They concluded that Malone had failed to use appropriate tests in a
scientifically acceptable manner and that Malone’s testimony was often
unsupportable on the basis of his bench notes, lab reports, or accepted
standards in the scientific community. Further, they told us that had the
FBI Lab been accredited at the time Malone conducted his forensic work
and provided testimony, Malone’s work would not have satisfied the
standards then required of accredited hair and fiber laboratories (discussed
further below). Finally, the scientists concluded that Malone testified
outside his area of expertise in almost half of the cases involving testimony.

      We analyzed the independent scientists’ responses to the five
questions using a sample of 50 reports concerning hair and fiber cases
handled by Malone. The scientists concluded in 94 percent (47 of 50) of the
cases that either the appropriate forensic tests were not conducted or it was
impossible to determine whether Malone conducted the appropriate tests
(Question 1). Similarly, in the same percentage of cases, the scientists
concluded that the results Malone described in his lab reports were not
supported by his bench notes (Question 2). Testimony was available for the
independent scientists’ review in 26 of the 50 reports we analyzed. The
scientists concluded that in 54 percent (14 of 26) of the cases, Malone’s
testimony was inconsistent with his lab reports (Question 3) and that in
65 percent (17 of 26) of the cases, his testimony was inconsistent with his
bench notes (Question 4).

      With regard to whether Malone’s testimony in cases involving both
hair and fiber analyses was within the bounds of his expertise (Question 5),
Levine and Robertson found that Malone’s testimony was consistently
overstated and much stronger than either his lab reports or bench notes
supported, resulting in misleading and inaccurate testimony. Moreover,
Malone testified in some cases to conclusions that were outside his area of
expertise – the same criticism we noted of Malone in the OIG Report.

       With regard to fiber analyses, the scientists wrote in their reports that
they did not believe Malone understood the appropriate use and limitations
of an instrument known as a microspectrophotometer and, therefore, that
he often came to scientifically inaccurate conclusions in his reports and
testimony. For example, testifying about carpet fibers in the 1994 trial
involving Bryan M. Jones, who was convicted of murder and sentenced to


                                      49
death, Malone stated that “we have a machine that can get it down to one
specific dye from all others . . . [and] they had exactly the same dyes.”
Robertson wrote in his independent report that Malone’s statement was
incorrect and misleading: “The microspectrophotometer is used to measure
color. Articles published in the Journal of Forensic Sciences [the
professional scientific journal of the American Academy of Forensic
Sciences] in 1988 and 1990 specifically point out that spectra cannot be
used to identify dyes – they only allow determination of color.” Robertson
also wrote in an additional report that Malone failed to use other fiber tests
available to him at the time of his lab work.

       Levine and Robertson also told us that Malone’s notes regarding both
fiber and hair analyses he performed were inadequate. For example, Levine
told us that Malone’s bench notes about his fiber analysis did not indicate
which tests he performed, such as how he identified a particular fiber.
Without knowing the specific tests Malone used to conduct his
examinations – and without conducting her own forensic analysis of the
evidence – Levine could not verify the accuracy of Malone’s analyses.
Robertson also told us that hair comparisons are typically described in an
examiner’s handwritten notes. However, Malone’s notes often lacked detail
or were indecipherable, leaving Robertson no choice but to select the
“unable to determine” response on the independent report form.

       Similarly, whereas accreditation standards would have required that
all notes be in permanent ink, initialed, and dated by the examiner,
Malone’s notes were in pencil and not dated. According to the former
Deputy Section Chief of the FBI Lab’s Scientific Analysis Section, there were
no peer reviews of hair and fiber examinations performed by the FBI Lab,
also required by the American Society of Crime Laboratory
Directors/Laboratory Accreditation Board standards.37 Robertson stated
that there was no evidence of annual monitoring of testimony provided by
Hairs and Fibers Unit examiners at trial – yet another Accreditation Board
requirement (then and now). In addition to a lack of documentation
standards, the FBI Lab’s Hairs and Fibers Unit did not adhere to its own
standards and protocols for hair analysis – the 1977 FBI manual we located
and cited above. We did not find any standards or protocols for fiber
analysis.38


       37  In the course of our file review, we identified a limited number of documents
reflecting confirmations of hair and fiber examinations, but the documents did not indicate
the nature of the reviews conducted.
       38 The FBI Lab had not yet been accredited by the American Society of Crime

Laboratory Directors/Laboratory Accreditation Board at the time the first OIG Report was
published in April 1997. In response to the 1997 OIG Report recommendations, the FBI
Lab applied for accreditation in December 1997 and received the accreditation in
                                                                                  (Cont’d.)


                                            50
       In their independent reports of Malone’s hair and fiber analysis and
testimony in four cases (including two capital cases), both Levine and
Robertson documented
Malone’s work as                  Excerpt from Independent Scientist Cathryn
particularly unreliable,         Levine’s Findings on Malone’s Trial Testimony
                                                       in Boyle
inaccurate, and
unscientific. In Texas v.     Malone “does not understand this [microspectro-
Boyle, a death penalty        photometer] instrument – its limitations and/or its
case in which the             inability to identify certain dyes. The testimony does
defendant was executed        not support that he understands this instrument.”
4 days after the OIG
                              “[T]his testimony would not be generally accepted as
Report was published          scientifically accurate by the majority of hair and
and 2 years before            fiber examiners.”
Levine’s independent
review in 1999, Levine        — Boyle Independent Report, pages 7-8.
noted many serious
problems with Malone’s analysis and testimony. Levine answered “no” to all
five questions on the independent report form and provided eight pages of
detailed commentary (see text boxes above and in Chapter Two). In
addition, she wrote 18 pages of notes about the case to support her
findings, all of which were transmitted to the Task Force. In total, Levine
spent 16 hours reviewing Malone’s work and testimony in the Boyle case.
Among her findings, Levine noted that the conclusions Malone reached
when comparing nylon and acrylic fibers (using microspectrophotometer
data) were unacceptable because the comparisons lacked supportable
documentation. Levine noted a misidentification of fibers in another
evidence sample in the case and recommended that the fibers be re-
examined to clarify the issue. She also wrote that Malone’s trial testimony
about his fiber findings was overstated and incorrect.

       With regard to Malone’s testimony in the Boyle case about hair
comparisons, Levine found that Malone’s statement about the “uniqueness”
of hair was without scientific basis and that his statement “that only on
2 occasions had he found similar hair in the 10,000 people he [had]
examined” was confusing and misleading. Levine further wrote that
Malone’s testimony in Boyle that “at least 15 characteristics are needed for
a hair comparison” was scientifically unsupportable, and she took issue
with testimony in which Malone claimed to have conducted certain
examinations which were, in fact, conducted by a technician in the Lab.
Such testimony was both inaccurate and inconsistent with Malone’s bench
notes, she wrote. In Boyle, the Task Force requested a materiality

September 1998. The FBI maintains, and we have no basis to question, that there were no
universally accepted standards and protocols approved by the scientific community at the
time of Malone’s examinations.




                                          51
determination from the prosecutor, who responded that but for Malone’s
testimony, Boyle would not have been convicted of the capital offense that
rendered him eligible for the death penalty.

       In another death penalty case, that of Billy Rae Irick, who is still on
death row, Levine wrote about Malone’s hair analysis conclusions as
reflected in his lab report and explicitly found that he had omitted
exculpatory evidence:

      The [Lab] report [references] ‘some individual microscopic
      characteristics.’ The word ‘individual’ is confusing and may be
      misleading. Examples exist (see [Malone’s] handwritten notes)
      where exculpatory evidence is not in [the Lab] report. Hairs
      that may be exculpatory are identified in notes and testified to –
      but they are omitted from [lab] report . . . . Omitting possible
      exculpatory evidence is problematic and possibly unethical.

      In Irick, the Task Force transmitted Levine’s report to the prosecutor
who, in turn, disclosed the report to defense counsel. The defendant took
broad discovery and unsuccessfully sought a new trial on the basis of the
independent scientist’s report.

      Robertson’s reviews of Malone’s cases resulted in similar findings. In
the Gates case, the file provided to Robertson for review did not contain
testimony, so his review was limited to bench notes, lab reports, and letters
from the submitting law
                                 Excerpt from the Independent Scientist Steve
enforcement agencies.           Robertson’s Findings on Malone’s Bench Notes
Robertson indicated that                              in Gates
he was unable to
determine whether            “The [lab report] results are not adequately documented
Malone performed the         in the [bench] notes. The notes are not dated and are
                             in pencil instead of ink. Abbreviations are used that
appropriate tests in a       are hard to interpret. There is documentation that
scientifically acceptable    hairs were recovered from suspect [Gates’s] clothing,
manner due to                but there is no documentation that hairs were
inadequate                   recovered from the victim’s items. Documentation is
documentation (see text      lacking that explains if the examiner looked only for
                             Negroid hairs on Q1-Q4 or if there were other hairs on
box).                        them. If other hairs were detected, one must wonder if
                              they are the victim’s hairs.”
      In the review of
another case, that of        — Gates Independent Report, page 3.
Derrie Nelson,
Robertson’s comments also echoed those of Levine in her report on the
Boyle case. In particular, Robertson wrote that Malone had “testified that
hair must have at least 15 characteristics to have value for comparison.
This has no scientific basis known to this reviewer.” In support of




                                          52
Robertson’s comment above, we found in our review of the January 1977
FBI manual on hair microscopy the following statement:

       It is pointed out that hairs do not possess a sufficient number
       of unique microscopic characteristics to be positively identified
       as having originated from a particular person to the exclusion of
       all others.39

      In cases involving hair analysis, Robertson also found that Malone
frequently and inappropriately testified to the probability of a match when
there was no scientific basis for doing so. In his independent report on the
Nelson case, Robertson commented:

       In response to the question, “What percentage of the Negro
       population would have hairs with all 20 of these
       characteristics?” examiner testified “one in 5,000.” The same
       answer was given to the same question concerning Caucasian
       hair . . . . While the examiner bases his answer on his
       experience, there has been no published scientific study to
       confirm this. In fact, the only published study concerning
       probability of a hair match has been criticized and debated and
       does not have the support of the forensic community.

      According to a document the FBI provided to us summarizing a
debriefing of Robertson at FBI Headquarters in September 1999, the experts
recommended that the physical evidence in some of the Malone cases be re-
examined, if available. Our review of the Task Force files and interviews of
former Task Force members and FBI personnel revealed, however, that no
re-examinations of physical evidence were conducted, whether
recommended by the independent scientists or requested of the Task Force
by a prosecutor.


III.   FBI and Department Response to Independent Scientists’
       Findings Regarding Malone’s Analyses and Testimony

       Our file review and interviews of former Task Force members and FBI
personnel made clear that beginning in May 1999 and July 1999,
respectively, the FBI and the Department learned that the independent
scientists were finding almost all of the cases involving hair or fiber evidence
analyzed by Malone to be seriously flawed. The Boyle case was one of the
first of such cases. Yet, we found no indication in the thousands of Task
Force and FBI documents we reviewed or from the interviews we conducted

       39John W. Hicks, Special Agent, Microscopy of Hairs: A Practical Guide and
Manual, Federal Bureau of Investigation, U.S. Department of Justice (Jan. 1977), p. 41.



                                            53
to suggest that the FBI or Department ever considered submitting for
independent review all cases handled by Malone where the evidence was
material to the conviction, regardless of the length or nature of sentence
imposed or the date of conviction. Nor was there any documentation to
suggest that the FBI or Department considered reviewing all cases Malone
had handled (in any capacity) at any time that had been eliminated from the
Task Force review process for one or more of the categories listed in
Chapter Two or for other reasons listed in Appendix C.40

       Similarly, it appeared that neither the FBI nor the Department
considered the potential for a more widespread set of problems in the Hairs
and Fibers Unit, which had handled many cases prior to 1985, having
opened sometime in the 1960s. Nor did the FBI or the Department consider
the wisdom of expanding the scope of the review to include other examiners
in the Unit.41 Our research revealed that between 1975 and 1996, at least
seven FBI Hairs and Fibers Unit examiners testified to the probability of a
hair match using testimony very similar to that which Malone so frequently
offered at trial. Finally, we found no evidence that any consideration was
given to disclosing broadly, to prosecutors or defendants, the nature and
extent of the problems with Malone’s analyses and testimony.

        To ensure that all defendants are notified about deficiencies in the FBI
Lab analysis or testimony in their cases – whether by Malone or another
examiner, including cases reviewed and not reviewed by the Task Force – we
make several recommendations to the Department. Chapter Seven contains
a full list of those recommendations.




       40  Malone also analyzed and testified about plant evidence in an unknown number
of criminal cases. Our file review reflected that the Task Force referred only five Malone
plant cases to the FBI for review by an independent scientist. The independent plant
scientist the FBI retained found that Malone did not perform appropriate tests in a
scientifically acceptable manner and that Malone testified outside the bounds of his
expertise.
        41 We found one Criminal Division memorandum referencing “the specter that the

other examiners in the [Hairs and Fibers] unit were either as sloppy as Malone or were not
adequately conducting confirmations [of Malone’s work]. This issue has been raised with
the FBI but not resolved to date.” Maureen Killion, Director, Office of Enforcement
Operations, Criminal Division, memorandum to Michael Chertoff, Assistant Attorney
General, Criminal Division, through John C. Keeney, Principal Deputy Assistant Attorney
General, Criminal Division, Pending Considerations Regarding the Criminal Division’s Case
Review Related to the Inspector General’s Investigation and Report on the FBI Laboratory,
July 11, 2002, footnote 1. It was unclear from Task Force and FBI documents we reviewed
and our interviews whether other Hairs and Fibers Unit examiners had received the same
training and applied the same standards, to the extent they existed, as those received and
applied by Malone.




                                            54
       In Chapter Five we discuss the death penalty cases that fell within the
Task Force’s review scope. We describe how the Task Force and the FBI
identified and reviewed captial cases and how the Task Force notified
prosecutors of the independent scientists’ reviews of those cases.




                                     55
                              CHAPTER FIVE:
                           DEATH PENALTY CASES
      The OIG closely examined the capital cases falling within the scope of
the Task Force’s review. We identified two serious deficiencies in the way
the Department and the FBI approached these cases.

       First, following publication of the OIG Report in April 1997, and
before any defendants on death row had been identified, the Department did
not provide immediate notice to the relevant prosecuting authorities of the
potential need to stay the imminent executions of defendants whose capital
convictions may have been tainted by FBI Lab analysis and testimony. As a
result, the executions of at least three defendants, Benjamin Boyle, Michael
Lockhart, and Gerald E. Stano, were carried out prior to a case review by
the Task Force.42 Boyle was executed just 4 days after the OIG Report was
published.

       Second, the Department and the FBI did not design and implement
case review procedures to ensure that the handling of capital cases would
be the Task Force’s top priority, despite recommendations from a senior
Task Force attorney to a senior Department official that they do so. As a
result, the FBI identified capital cases no differently from non-capital cases
and with no particular urgency. It took the FBI almost 5 years, from 1996
through 2001, to identify all the death penalty cases falling within the
1985–1996 timeframe the FBI and Department had established for cases
subject to review. Eventually, the FBI identified 64 defendants on death row
whose cases involved analysis or testimony handled by 1 or more of the
13 examiners.

       In our view, these two deficiencies show that the Department and the
FBI failed to recognize the priority that the Task Force should have given to
capital cases and to adjust the Task Force’s priorities as information
became known about the effects of tainted Lab analysis and testimony on
death penalty cases. Moreover, these deficiencies resulted in a lack of
uniformity and urgency in the way capital cases were treated by the Task
Force and the FBI. For example, case-specific determinations about the
reliability of the Lab analysis and testimony were made in some capital
cases but not others, and delayed notice or no notice at all was provided to



       42 According to the FBI, although Stano and Lockhart were executed before the
Task Force reviewed their cases, the OIG-criticized examiner who analyzed the evidence in
those cases did not find any positive associations linking either of the defendants to the
crimes for which they were convicted and executed.




                                            56
defendants convicted of capital offenses about the Task Force’s case review
process.


I.    Failure to Provide Immediate and Broad Notice

       In our file review and witness interviews, we found no evidence that
immediately after publication of the 1997 OIG Report and before any death
penalty cases were identified, the Department provided, or even considered
providing, notice to relevant state and federal prosecuting authorities of the
potential that death row inmates had been convicted on the basis of tainted
Lab analysis or testimony. No steps were taken or considered to reduce the
likelihood that a condemned defendant could be executed without a case
review. In particular, we found no evidence that anyone in the Department
or the FBI contacted governors’ offices or state attorneys general, or
attempted to swiftly identify federal death row prisoners whose convictions
could have been affected by tainted Lab analysis or testimony. Nor did the
Department inform or consider informing defense organizations or death
penalty organizations of the potential grounds to challenge imposition of the
death penalty. Had the Department or the FBI provided such notice, three
defendants – Boyle, Stano, and Lockhart – would have had grounds to argue
for a stay of their executions while they litigated the impact of this discovery
on their cases.

       Boyle and Stano were executed after the OIG Report was published,
but before the FBI had identified their cases as involving 1 or more of the
13 examiners. In those cases, the Task Force had 4 days and 11 months,
respectively, to provide notice but failed to do so (see Figure 6, next page).
The FBI identified 2 death penalty convictions for Lockhart – 1 in Indiana
and 1 in Texas – that involved 1 or more of the 13 examiners. The FBI had
identified the Indiana case 8 months prior to the defendant’s execution by
the State of Texas, but did not identify the Texas case until after Lockhart
was executed.




                                      57
      FIGURE 6: BOYLE, LOCKHART, AND STANO DEATH PENALTY
                         CASE TIMELINE




Source: Task Force case files.


II.    Failure to Design and Implement Case Review Procedures to
       Ensure Expedited Handling of Capital Cases

       The Department and the FBI did not design and implement case
review procedures to ensure that the handling of capital cases would be the
Task Force’s top priority, despite recommendations from a senior Task Force
attorney to a senior Department official that they do so. We found no
Department correspondence to the FBI that discussed the need for the Task
Force to make identification and handling of capital cases its top priority.
We also found no evidence that the Department directed the Task Force to
promptly gather information about pending execution dates. We found two
memoranda from a senior Task Force attorney to DAAG DiGregory raising
the issue of capital case review prioritization. The first memorandum, dated
August 19, 1997, explicitly stated, “The Criminal Division should request
expedited review of death row cases.” The second memorandum, dated
September 15, 1997, listed proposed questions for an upcoming meeting
with the FBI regarding independent reviews. Among the questions was
whether the FBI had designated a “priority order” for the scientists’ case
reviews based on factors such as length of sentence, including death penalty
cases. DAAG DiGregory told us during his interview that he did not recall
whether capital cases were prioritized.



                                    58
       Further, although all the former Task Force members we interviewed
recalled that they had made capital cases their top priority, we found no
evidence suggesting that this prioritization was done immediately after the
Task Force narrowed its scope in June 1997 to focus on the 13 criticized
examiners. We found one document listing some capital cases, dated
April 30, 1998, 1 year into the Task Force project. That document did not
indicate anything, however, about how the Task Force treated those cases or
the priority of those cases among the universe of cases under review. We
found a second Task Force document addressing only federal death penalty
cases, none of which involved the 13 examiners.43 That document was
dated April 10, 2000, more than 4 years after the Task Force began its
work. Similarly, we found no FBI documents that referenced a specific
protocol for handling capital cases, and two FBI employees actively involved
with the case review whom we interviewed told us they did not recall making
these cases a priority.

       Below, we describe the key stages in the case review process at which
both the Department and the FBI could have made, but did not explicitly
make, capital cases their top priority. We also explain how our examination
of the review process for death penalty cases revealed repeated and material
delays traceable to the Task Force, the FBI, and state prosecutors.

       A.     The FBI Failed to Immediately Identify Death Penalty Cases

       We found no evidence that when the FBI first identified the 7,609
cases involving the 13 examiners, it explicitly requested its field offices to
prioritize the identification of capital cases. The FBI had created a case
identification checklist for use by its field offices, but did not include a line
dedicated to the identification of defendants on death row. We concluded
that neither the FBI field offices nor FBI Headquarters treated the capital
cases differently from the other cases in the identification process. It
appears that the FBI directed its field offices to focus on identifying cases
based on the examiner involved and that the field offices followed those
instructions.44 In addition, we found no evidence that when the FBI sent all
7,609 identified cases to the Task Force, it segregated or flagged the death

       43Our review of the Task Force death penalty files yielded no federal cases between
1985 and 1996 involving any of the 13 Lab examiners at issue.
       44   This direction was referenced in an August 1997 internal Task Force
memorandum, which indicates that in prioritizing the review of cases by FBI field offices for
purposes of determining which prosecutions resulted in convictions, the FBI’s “examiner
priority” identified Malone as top priority. We did not find any document in our file review
that explained why the FBI made Malone its top priority. We determined, however, that
prior to July 1999, the Task Force had no reason to suspect that Malone’s analyses and
testimony would be deemed by the independent scientists to be any more unreliable than
those of the other 12 examiners.




                                             59
penalty cases to alert the Task Force to their urgency. The death penalty
cases were among thousands of identified cases and, therefore, the Task
Force could not readily determine which defendants were at risk of
imminent execution.

       B.     The Task Force Did Not Request or Receive Materiality
              Determinations from State Prosecutors for All Capital Cases

       The Task Force did not request or receive a materiality determination
on the Lab analysis or testimony for all capital defendants. Our review
showed the Task Force requested materiality determinations in cases
related to only 55 of the 64 defendants on death row. We found no evidence
that the Task Force requested or received a materiality determination for the
remaining 10 defendants, 6 of whose cases involved analysis or testimony
handled by Malone.45 With regard to the 55 defendants for whom the Task
Force requested materiality determinations, the Task Force did not receive
determinations for 14 defendants, as illustrated in Figure 7 (next page). In
total, our review revealed that the Task Force did not obtain determinations
from prosecutors about the materiality of the evidence for 24 of the
64 (38 percent) death penalty defendants.




       45  The fact that Lockhart was sentenced to death in two separate jurisdictions and
that his cases were handled differently by the Task Force accounts for the total number of
materiality determination requests having been increased by one.




                                            60
    FIGURE 7: DEATH PENALTY MATERIALITY DETERMINATIONS




    Note: As discussed above, one defendant, Lockhart, was sentenced to death in two
    separate jurisdictions and his cases were handled differently by the Task Force. As a
    result, the total number of materiality determination requests reflected in this figure
    is increased by one.

    Source: OIG analysis.

      Using available case file documentation for 34 of the 55 death penalty
defendants for whom materiality determinations were sought, we
determined that it took the Task Force an average of approximately
5 months after the FBI’s identification of a death penalty case to request a
materiality determination from the prosecutor. In the case of Tennessee v.
Wayne Bates, the Task Force requested a materiality determination very
quickly – only 2 days after the case was identified. However, it took the
Task Force between 6 months and 1 year to request a materiality
determination from the prosecutor for nine other defendants. In the case of
Idaho v. David Card, the Task Force requested a materiality determination
from the prosecutor approximately 1 year and 4 months after first becoming
aware of the case. It is noteworthy that the Task Force neither requested
that prosecutors respond quickly in the capital cases nor set any deadline to
respond with the requested information.


                                           61
      We also found that state prosecutors contributed to the delays at this
stage in the case review process for some defendants on death row. Among
the 39 cases for which we could determine the length of time between the
Task Force request for a materiality determination and the prosecutor’s
response, we found that it took an average of approximately 5 months for
prosecutors to respond to the Task Force. In one case, the prosecutor
responded in a single day; in another, the prosecutor took almost 2½ years
to respond. These delays had the potential for obviously severe and
irreparable consequences.

       C.      The Task Force Did Not Refer All Capital Cases to the FBI
               for Independent Review

       The Task Force referred to the FBI for independent review capital
cases involving eight defendants.46 It did not refer for independent review
all capital cases for which the prosecutor deemed the evidence material to
the defendant’s conviction or for which the prosecutors provided no
materiality determination at all. For example, in the case of Pennsylvania v.
Young, the prosecutor deemed the evidence material to the defendant’s
conviction, but the Task Force did not refer the case for an independent
review (see below). Young was sentenced to death in 1987 but died of
natural causes in 1996 while awaiting execution. We discuss his case in
more detail in Part III of this chapter. In addition, as reflected in Figure 7
(above), the Task Force requested from prosecutors but did not receive
materiality determinations related to 14 of the 64 defendants and did not
refer those cases to the FBI for an independent review.47


       46  The eight defendants whose capital cases the Task Force referred to the FBI for
independent review are: (1) Brett Bogle, (2) Benjamin H. Boyle, (3) Michael T. Crump,
(4) Billy Rae Irick, (5) Bryan M. Jones (two cases), (6) Robert (Bobby) Joe Long, (7) Michael
Mordenti, and (8) Hector R. Sanchez. Cases related to all but one of these eight defendants
(Sanchez) involved hair and/or fiber evidence handled by Malone. Yet, there were
27 additional death penalty defendants with hair and/or fiber evidence that Malone
handled which the Task Force did not send for independent review.
       47  The 14 defendants for whom the Task Force requested materiality determinations
from prosecutors but received no response, represented in Figure 7, were: (1) Oscar R.
Bolin (2 cases), (2) Victor J. Cazes, (3) Jeffery R. Ferguson, (4) Donald H. Gaskins,
(5) Anthony Larette, (6) Michael Lockhart (2 cases), (7) Alan Matheney, (8) Hugh W. Melson,
(9) Leon J. Moser, (10) Kenneth W. O’Guinn, (11) Nathan J. Ramirez, (12) Danny H. Rolling,
(13) Gerald E. Stano, and (14) Laron R. Williams. According to comments the Department
provided to a draft of this report, these cases were not referred for an independent review
for 1 or more of the following reasons: they involved Lab work that resulted in “no match”
to the defendant; they involved a defendant who died before the Task Force began its
review; they involved a primary FBI examiner who was not among the 13 criticized
examiners who conducted the analysis; the defendant knew of the criticisms in the OIG
Report and was pursuing litigation; no Lab exam was actually performed; the defendant
had been executed for a crime for which no FBI Lab work was performed; or the examiner
                                                                                      (Cont’d.)


                                             62
       Further underscoring our finding that the Task Force did not make
death penalty cases a priority, we determined that although there were
cases involving 4 defendants on death row among the first 60 cases the
Task Force sent to the FBI for independent review in July 1998, the Task
Force letter to the FBI did not specifically identify those death penalty cases
or request that they be reviewed first. Nor in later Task Force requests to
the FBI for independent reviews was there specific identification of cases
involving defendants on death row, much less a request that the FBI give
priority to their review.

       D.     The FBI Caused Delays in Death Penalty Case Reviews

      The FBI also contributed to the delays in the review process for
defendants in capital cases. In particular, we found that the FBI took a full
year, on average, from the time the Task Force requested an independent
review in the capital cases to return a completed report to the Task Force.
In one case, Florida v. Bobby Joe Long, the FBI responded within a month;
in another case, Florida v. Michael T. Crump, the FBI responded 2 years and
3 months later. Moreover, just three of the seven FBI letters to the Task
Force transmitting independent reports involving defendants on death row
mentioned that the enclosed independent reports included some for
defendants sentenced to death.

       E.     Task Force Transmittal Letters to Prosecutors Enclosing
              Scientists’ Reports Did Not Highlight Capital Cases

       As explained above and in Chapter Three, for both death penalty
cases and non-death penalty cases, the Task Force used a form letter with
boilerplate language to notify prosecutors that it was transmitting the
independent scientists’ reports and to request that prosecutors determine
whether disclosure of the reports to the defendants or defense counsel was
warranted. For the death penalty cases, the Task Force did not highlight in
any of its transmittal letters to prosecutors that the enclosed reports
warranted immediate attention because they concerned defendants
sentenced to death. Nor did the letters include any direction, instruction,
guidance, or suggestion to the prosecutors to disclose the reports promptly
to the defendants or defense counsel for the affected defendants. The
strongest language suggesting that prosecutors disclose the reports read as
follows:



analyzed hair of a suspect who was not the defendant. The Department also stated that in
a number of these cases, the defendants had admitted guilt and accepted responsibility
(through a plea or an insanity defense, through unchallenged confessions, or through post-
sentencing acceptance of responsibility).




                                           63
      Please review the enclosed documents, the OIG report, and any
      other pertinent information you may have to determine whether
      the report of the independent scientist should be disclosed to
      the defendant or to the defendant’s counsel. . . . If you decide
      to disclose any of these documents to the defense, please
      provide a copy of the transmittal letter to the Task Force.

      The last sentence of the excerpt, requesting that prosecutors notify
the Task Force if they disclosed any of the documents to the defense, is the
language that appeared in the first 10 months of the Task Force’s letters but
was omitted from subsequent letters after the senior Task Force attorney left
the Department in June 2000. We found that only four of the eight Task
Force letters to prosecutors transmitting independent reports for death
penalty cases contained this direction because they pre-dated June 2000.
Furthermore, as discussed in Chapter Three, these transmittal letters did
not impose a deadline for the prosecutors to notify the Task Force of
disclosures made, let alone a deadline for disclosure of the reports to the
defendants.

      F.    The Task Force Did Not Track Prosecutors’ Disclosures to
            Defendants

      Of the cases involving the eight defendants on death row referred to
the FBI for independent review, we found evidence of disclosures of the
completed reports by prosecutors to defense counsel for only two living
defendants – Irick and Bogle, as illustrated below in Figure 8. The
prosecutor in Irick’s case disclosed the independent scientist’s report to the
defendant’s counsel within 3 weeks of his receipt of the report from the Task
Force. The prosecutor in Bogle’s case did not make the disclosure to the
defendant’s counsel for almost 9 months. In total, the length of time
between the FBI’s case identification and the prosecutors’ disclosures of the
independent reports to the defendants in both the Irick and Bogle cases was
more than 2 years.




                                     64
FIGURE 8: INDEPENDENT REPORT DISCLOSURES IN CAPITAL CASES


                                64
                            Defendants
                           on Death Row



                          8 Defendants’
                           Cases Sent for
                        Independent Review



                           2 Defendants
                        Received Independent
                         Scientists’ Reports

Source: OIG analysis.


III.   Case Studies Demonstrating Inconsistent Treatment

      We concluded that the lack of a formal protocol for handling death
penalty cases resulted in irregular treatment and handling of those cases by
the Task Force, as evidenced by the following cases.

Pennsylvania v. Joseph Young

       In Young, although the prosecutor determined that the FBI Lab
analysis and testimony were material to the defendant’s conviction, the Task
Force did not refer the case to the FBI for independent review. Malone was
the FBI Lab examiner in Young’s case. Upon review of Malone’s testimony,
we determined that Malone had testified in a manner strikingly similar to
that in other cases where the independent scientists concluded that
Malone’s testimony was overstated and inaccurate. Whether the outcome of
Young’s trial and his sentence would have been different without Malone’s
testimony is a serious question in view of the fact that the analysis and
testimony Malone provided in others cases was deemed scientifically
inaccurate, exaggerated, and unreliable. Young was sentenced to death in
1987 but died of natural causes in 1996 while awaiting execution. He had
served 9 years.




                                    65
Texas v. Benjamin Boyle

       In Boyle, discussed previously, the Task Force requested a materiality
determination from the prosecutor, who responded that but for Malone’s
testimony, Boyle would not have been convicted of the capital offense that
rendered him eligible for the death penalty. The case review form the Task
Force sent to the prosecutor, which was based on information the FBI
collected during its case identification process, indicated that Boyle had
been executed on May 21, 1997.48 Aware that Boyle was deceased, the Task
Force still referred Boyle’s case to the FBI for independent review – a review
which did not occur until 2 years later – in May 1999. None of the Task
Force or FBI documents we reviewed and none of the witnesses we
interviewed revealed why the Task Force referred the Boyle case, but not the
Young case for independent review.

       The Task Force’s subsequent transmission to the prosecutor of the
independent report in the Boyle case seems to illustrate an effort by the
Task Force to follow the case review process as designed, regardless of the
defendant’s incarceration status. The independent scientist’s report in the
Boyle case unequivocally concluded that Malone’s analysis lacked scientific
integrity. As set forth in Chapter Four, the independent scientist, Cathryn
Levine, described Malone’s hair and fiber examinations and testimony as
“confusing,” “incorrect,” “not consistent,” “misleading,” “overstated,”
“without scientific basis,” and “not generally accepted as scientifically
accurate by the majority of hair/fiber examiners.” Levine also noted a
misidentification of fibers in an evidence sample and recommended that the
fibers be re-examined.

      Yet, in its letter transmitting Levine’s report to the prosecutor, the
Task Force said nothing about the substance of the report or the fact that
Boyle had already been executed. Instead, the Task Force letter contained
the standard boilerplate language used in all such letters, including a
sentence that stated, “Please review the enclosed documents . . . to
determine whether the report of the independent scientists should be
disclosed to the defendant or the defendant’s counsel.” The letter further
requested the prosecutor to advise the Criminal Division in the event of
developments or litigation, including “motions for new trial, motions
attacking the validity of the conviction, or ongoing prosecution, related
appellate issues, and Brady disclosures of FBI laboratory-related
documents.” The Task Force files we reviewed contained no written
response from the prosecutor; instead, there was merely a Task Force letter

       48Although the FBI’s case review checklist indicated Boyle’s execution date was
May 21, 1997, the correct date was April 21, 1997. This error had no bearing on the
consequences of the Task Force’s actions.




                                           66
to the FBI requesting, on behalf of the prosecutor, a copy of supplemental
notes Levine mentioned in her report. Neither the FBI nor the Department
publicly acknowledged that Boyle’s conviction was tainted.

      To ensure that all defendants involved in the 52 death penalty cases
reviewed by the Task Force are notified about deficiencies in the Lab
analysis or testimony in their cases, we make several recommendations to
the Department. Chapter Seven contains a full list of those
recommendations.

     In Chapter Six we provide our analysis and conclusions of the
Department’s design, implementation, and management of the Task Force.




                                    67
                            CHAPTER SIX:
                    OIG ANALYSIS AND CONCLUSIONS
       We concluded that there were serious deficiencies in the Department’s
and the FBI’s design, implementation, and management of the 1996 Task
Force case review process. We found that the process lacked adequate
planning for cases and scenarios that the Department and the FBI should
reasonably have anticipated. We also identified significant, avoidable delays
in multiple phases of the case review process and the primary reasons for
those delays. For many defendants, the delays were very prejudicial and,
for some, they caused irreversible harm. Finally, although we found that
the individuals assigned to the Task Force were dedicated, hardworking,
and conscientious, the Department seriously understaffed the Task Force
for the scope of the review assigned to it.

       The Department’s lack of adequate planning resulted in its failure to
define as the Task Force’s main priorities the identification and review of
capital cases with a sense of urgency commensurate with the consequences
of a tainted conviction or, worse, the conviction of an innocent person in
such cases. The failure to adequately plan also: (1) limited the universe of
cases subjected to the Task Force review process, unjustifiably leaving
unreviewed categories of convictions that were potentially based on faulty or
unreliable Lab analysis or testimony; (2) resulted in the Department not
providing case-specific guidance to prosecutors that would have allowed
them to make timely disclosures of potentially unreliable Lab analysis,
testimony, or both that they had already determined was material to a
conviction; and (3) led to the Task Force not tracking information about any
disclosures made by prosecutors to defendants with potentially tainted
convictions.

      The planning deficiencies and the delays in the case review process
had a significant adverse impact on defendants whose convictions relied
upon Lab analysis or testimony handled by Malone. Some of the affected
defendants are among the seven defendants whose tainted convictions were
not discovered until after they had served many years in prison and, in two
instances, were deceased, either by execution (Boyle) or natural causes
(Young). (See Appendix A for all seven cases.) Furthermore, the case review
process was narrowed to exclude from review potentially tainted convictions
of numerous other defendants, at least two of whom have since been
exonerated of crimes for which they served over 21 years in prison,
Santae A. Tribble and Kirk L. Odom.49 Although the allocation of limited

       49 As explained in Chapter One, it was the combination of the FBI’s exclusion of
cases pre-dating 1985 and the Task Force’s failure to expand the scope of review to include
                                                                                    (Cont’d.)


                                            68
resources always presents difficult choices for management, we believe that
some of the cases excluded from the Task Force’s review on account of the
Department’s and the FBI’s resource allocation concerns were difficult to
justify.

       Below, we discuss the major deficiencies of the Task Force case
review, all of which had the potential to adversely affect defendants’ rights.
In order of greatest consequence and concern, this chapter finds that:
(1) death penalty cases were not handled with sufficient urgency and
priority; (2) the Task Force review scope for non-death penalty cases should
have been expanded based on information about Malone during the Task
Force’s case review process; (3) categories of cases were inappropriately
eliminated from the Task Force’s review scope for resource-related reasons;
(4) Task Force resources were insufficient; (5) the FBI caused significant
delays to the independent scientists’ reviews; (6) independent scientists’
reviews were limited to a paper review; (7) inadequate efforts were made to
ensure appropriate and timely disclosures to defendants; and (8) the Task
Force failed to track disclosures to defendants. At this juncture, 17 years
after the commencement of the Task Force review, only some of these
deficiencies can be remedied by corrective action, a matter we discuss in the
next chapter.


I.     Death Penalty Cases Not Handled with Sufficient Urgency and
       Priority

       The Department and the FBI should have made the handling of death
penalty cases their highest priority. Yet, we found that no one involved in
developing and implementing the Task Force case review process placed a
sufficiently high priority on the identification and review of death penalty
cases to ensure they were handled in an effective and time-sensitive
manner. In fact, at no time did Department leadership, the FBI, or Task
Force members take any meaningful action to treat death penalty cases
differently from other cases or to develop a strategy for doing so. As
discussed in Chapter Five, none of the Task Force letters to prosecutors
transmitting independent reports for capital cases stated that the enclosed
reports warranted immediate attention because they concerned defendants
sentenced to death. Nor did the Department broadly notify federal or state
prosecutors that the Task Force review included cases of defendants on
death row.




cases involving all Hairs and Fibers Unit examiners that resulted in the Task Force’s failure
to identify the Tribble and Odom cases.




                                             69
       A reasonable and expected design of the review process would have
included direction by Department leadership to the Task Force and the FBI
to make every effort to identify as quickly as possible all death penalty cases
involving any of the 13 examiners. Then, the Department could have
attempted to expedite the state prosecutors’ determination of the materiality
of the Lab evidence to convictions by closely coordinating and encouraging
state officials to establish and enforce deadlines for those determinations.
Alternatively, the Department could have described to the public, in more
detail, the case review it was undertaking. This would have allowed
defendants, defense organizations, and others to be notified of the potential
effect on capital convictions.50

      In addition, a reasonable and expected case review design would have
included explicit direction to the Task Force to promptly gather information
about pending execution dates. This would have allowed the Task Force to
have ordered the priority of death penalty cases for review or provided
information to the appropriate authorities to enable informed decision-
making on whether any impending executions should be stayed based on
the possibility that the capital conviction relied on unreliable Lab analysis or
testimony. The failure to treat death penalty cases with any sense of
urgency resulted in one defendant, Boyle, not having the opportunity to
challenge his conviction and death sentence on the ground that the capital
conviction relied on analysis and testimony that an independent expert
retained by the FBI found “confusing,” “incorrect,” “not consistent,”
“misleading,” “overstated,” “without scientific basis,” and “not generally
accepted as scientifically accurate by the majority of hair/fiber examiners.”
The prosecutor in the Boyle case, when asked about the materiality of the
evidence presented at trial, stated that “the examiner’s testimony was
‘material’ on the issue of whether the defendant committed capital murder
by murdering the victim in the course of committing or attempting to
commit the offense of kidnapping.”

      With respect to the capital cases involving analysis, testimony, or both
handled by Malone, the Department and the FBI had ample reason by July
1999 to be concerned that virtually all of those convictions may have been
tainted. By then, the Department had learned about the scientifically
unsound examinations Malone conducted and his consistently overstated
and scientifically unsupportable testimony. In our view, the Department
should have directed that all of Malone’s death penalty cases – including
those where he served as the confirming examiner for analysis performed by
another examiner in the Lab – be referred for immediate review by the

        50 This latter approach would have reached a greater number of defendants whose

capital convictions were supported by unreliable evidence because the Task Force review
did not include all cases handled by the 13 examiners. The review excluded cases before
1985.



                                          70
independent scientists. In each of those capital cases, it was important to
the integrity of the justice system to establish whether the forensic analysis
and testimony underlying the conviction and sentence of the defendant were
free of material defect, even if the defendant had already been executed or
died in prison.

       Apart from the failure of the Department and the FBI to react in a
focused and meaningful way to the severity of the problems found in the
Malone cases, we also concluded that the Task Force, supervised by the
Department, failed to handle all death penalty cases in a similar manner
without reason. We concluded that the inconsistent handling of death
penalty cases demonstrated the inattentiveness of everyone involved in the
process and a lack of focus on the need to treat those cases with urgency
and as the Task Force’s highest case review priority. For example, the Task
Force treated differently capital cases in two different states involving the
same defendant (Lockhart), where the evidence in both cases was handled
by 1 or more of the 13 criticized examiners. Upon learning that the
defendant had already been executed, the Task Force requested a
materiality determination only from the prosecutor in Texas, where the
defendant had been executed, and not from the prosecutor in Indiana,
where the defendant had also been sentenced to death. Thereafter, the Task
Force did not refer either case to the FBI for review by an independent
scientist. We attribute the Task Force’s poor handling of these cases to the
fact that the Department had not developed specific protocols or guidance
for the Task Force or the FBI with regard to death penalty cases. Moreover,
to ensure the thoroughness and integrity of the review process, the
Department should have directed the Task Force to thoroughly review all
identified death penalty cases, even if the defendants had been executed or
had died in prison before publication of the 1997 OIG Report.

      Finally, the Department and the FBI did not acknowledge publicly in a
timely way that the conviction that led to Boyle’s execution was tainted. In
Boyle, the prosecutor stated that there would not have been a capital
conviction without the testimony presented by the FBI examiner at trial and
the independent scientist stated that the evidence presented by the FBI
examiner at trial (Malone) was “incorrect” and “without scientific basis.”
While we understand that this is not dispositive as to whether Boyle’s
conviction would have been overturned and his execution halted in light of
this new evidence, we do believe it raises a serious question as to whether
execution would have been the outcome. We concluded that Boyle was not
given an opportunity to challenge his conviction and death sentence based
upon this new and compelling evidence. Failures of this nature undermine
the integrity of the United States’ system of justice and the public’s
confidence in our system. Moreover, the failure to acknowledge
contemporaneously the error also injured the reputation of the FBI and the
Department.


                                     71
II.   Inadequate Task Force Review Scope for Non-Death Penalty Cases

       Although we did not examine in detail all the non-death penalty cases
in which 1 or more of the 13 examiners were involved, our review was
thorough enough to enable us to conclude that an unknown number of
defendants, including some sentenced to decades or life in prison, were
convicted in cases where the labanalysis or testimony was deficient. These
deficiencies, if challenged, might not have caused a defendant’s conviction
to be overturned because there could have been other evidence to sustain
the conviction. However, the defendants should have had the opportunity
to challenge their convictions. This was particularly true in cases where
Malone performed the forensic analysis or provided testimony. The Bragdon
case is one example of a case (shown in Appendix A) where a court found
that there was a significant possibility that the outcome of the defendant’s
trial would have been different had the state not used Malone’s faulty
analysis or testimony. In the Gates case, in which Malone performed the
Lab analysis and testified at trial, the court found that the defendant was
actually innocent.

      We believe the Department should have directed the Task Force to
review all cases Malone handled at any point during his tenure in the FBI
Lab beginning in 1975, whether as a primary, secondary, or confirming
examiner, where the evidence was deemed material to the defendant’s
conviction. A discussion about potential scope expansion should have
occurred no later than fall 1999, since the FBI and the Department learned
in May and July 1999, respectively, after the glaring findings by the
independent scientists, that Malone’s forensic analysis and testimony were
unreliable. Plus, the Department and the FBI were already aware of the
OIG’s 1997 finding that Malone falsified testimony in the Hastings matter.
Finally, the fact that the FBI was not accredited and could not locate
standard protocols for hair and fiber analysis during Malone’s tenure at the
FBI Lab constituted additional bases to compel the Department and the FBI
to consider expanding the scope of review.

       We also believe the Department should have considered directing the
Task Force to review a sampling of cases handled by examiners in the Hairs
and Fibers Unit other than Malone where the evidence was deemed material
to the defendants’ convictions. Given the lack of FBI Lab accreditation, the
questionable reliability of microscopic hair comparisons within the scientific
community, and Malone’s inappropriate testimony regarding the probative
value of hair evidence, we seriously question whether the work of Malone’s
peers may have also suffered the same or similar deficiencies, as was later
determined to be the problem in the Tribble and Odom cases. To determine
the scope of the problem and to assess the reliability and scientific integrity
of the analysis and testimony used in those cases, the Department should



                                      72
have called for a review of at least a sampling of cases performed by the Unit
where the forensic evidence was material to the defendants’ convictions.


III.   Categories of Cases Inappropriately Eliminated from the Task
       Force’s Review Scope

       We recognize that resource management is an appropriate
consideration in the Department’s decision-making. Clearly, categories of
cases were eliminated to reduce the number of cases to a more manageable
level. Although resource management is an understandable consideration
in decision-making, we concluded that by eliminating case categories to
make the review process more manageable, the Task Force and the FBI
inappropriately excluded certain cases involving defendants with potentially
tainted convictions. Below are the most significant categories of cases
eliminated from the Task Force’s scope that we believe should have been
reviewed.

      Cases Pre-Dating 1985. We concluded that the Department
       acquiesced to the FBI’s unilateral decision not to search for cases pre-
       dating 1985 during the case identification phase. We recognize that
       FBI Lab databases did not contain pre-1985 cases and that additional
       labor would have been required to review paper files to identify these
       cases, including those identified in the manual log of hair and fiber
       cases back to 1982. However, as initially revealed by media reporting
       and confirmed by our review, challenges to two pre-1985 cases,
       Tribble and Odom, involving hair and fiber examiners others than
       Malone, resulted in the exoneration of these defendants. In our view,
       Acting AAG Keeney’s guidance to federal prosecutors to use
       “appropriate efforts” to identify pre-1985 cases should have been
       much more prescriptive, requiring federal prosecutors to conduct a
       more comprehensive search for cases not retrievable through a
       database search. In addition, the Department should have engaged
       directly with state prosecutors and state attorneys general to identify
       pre-1985 state cases involving the 13 examiners. The Department
       should also have given greater consideration to engaging other
       resources, such as associations of criminal defense attorneys, to
       discover additional cases warranting review by the independent
       scientists.51 As a result of the Department’s acquiescence in the FBI’s
       decision to limit its searches, there still may exist unreviewed, pre-
       1985 cases involving the FBI Lab in which potentially tainted

       51 The Department and the FBI announced that they are taking these very
measures in connection with their ongoing 2012 review of hair cases referenced in
footnote 12, above.




                                           73
          convictions were supported by unreliable analysis and testimony
          including, but not limited to, Malone’s cases.
         Five of the 18 categories of cases described in Chapter Three. Between
          1998 and 2003, the Department and the FBI identified 18 categories
          of cases they decided would be eliminated from the review process
          (see Appendix C). Those categories included cases where: (1) the
          defendant had died; (2) the defendant “should have finished [his]
          sentence more than 6 years ago; (3) the defendant had been
          prosecuted in a foreign country; (4) the defendant had been deported;
          or (5) Malone only confirmed the lab results of another examiner. In
          our view, the decision not to review these five categories of cases
          devalued the liberty and collateral consequences potentially suffered
          by the defendants in these cases whose convictions may have been
          supported by unreliable FBI Lab analysis or testimony. In addition to
          the loss of liberty for any period of incarceration to which these
          defendants may have been subjected, criminal convictions can have
          many collateral consequences, including: loss of job, housing, and
          educational opportunities; loss of the right to vote; harm to family and
          other personal relationships; loss of physical and mental health; and
          the possibility of an enhanced prison sentence in the event of a
          subsequent conviction. In our view, the Department fell short of the
          Task Force’s articulated mission when it excluded these cases from
          review.


IV.       Insufficient Task Force Resources

       The findings and deficiencies we identified throughout this review led
us to conclude that the Department failed to staff the Task Force with
sufficient personnel to implement a case review of the magnitude it
undertook. At no time during its 8 years of operation did the Task Force
include more than two attorneys, three paralegals, and a few student
interns. For much of that time, the staffing level was even lower. Only one
individual served on the Task Force continuously, initially as a student
intern, then as a contractor, and finally as a Department paralegal.
Although the Task Force worked diligently to accomplish its mission, its
numbers were simply too small relative to the task at hand. Despite the
language of various memoranda and statements by Department leadership
about the importance and priority of the Task Force’s work, the Task Force’s
staffing level clearly demonstrated that the Department did not dedicate the
resources required to accomplish its mission. Similarly, we concluded that
the FBI did not always maintain the project as a sufficiently high priority.
During one time period, for example, the FBI transferred some attorneys
and support staff from Task Force-related work to other pressing matters.
We found no indication that the FBI assigned other staff to replace the



                                         74
CDRU team to ensure that progress on the Lab review would not be
impeded as a result of this staffing depletion.

       We also concluded that while the Department’s senior leaders
assumed responsibility for critical decisions regarding the Task Force’s case
review process and its implementation, the lack of continuity in senior
Department leaders overseeing the Task Force undermined the Task Force’s
mission. The lack of continuity contributed to delays, changes in the case
review approach and priorities, and a lack of authoritative guidance the
Task Force was able to provide in its dealings with the FBI and prosecutors.
In addition, the lack of focused attention by senior Department officials on
the developments of the case review process resulted in the Department’s
failure to address the grave problems the Task Force staff identified with
cases handled by Malone.

       We recognize that the Department’s resources were finite and that its
decisions reflected a valuation of how its resources should be allocated to
meet the varied needs of the Department and the public. However, having
appropriately undertaken the Task Force’s important mission of ensuring
that convictions had not been tainted by faulty and unreliable FBI Lab
analysis and testimony, the Department was obligated to devote sufficient
resources to the project throughout its tenure to enable the Task Force to
accomplish its mission. That the scope of the review was great and would
take substantial resources to complete did not lessen the compelling nature
of the Task Force’s mission or the Department’s responsibility to ensure
that the case reviews were completed in a timely and effective manner.

       In our view, enhanced Task Force staffing would have led to quicker
case identification, closer attention to the cases warranting highest priority,
and potentially more informed judgments about how to achieve effective,
timely case reviews and disclosures to defendants. Greater attentiveness by
senior Department leadership to the work of the Task Force would have kept
the reviews moving in a more timely manner and would likely have resulted
in more disclosures to defendants that Lab analysis or testimony lacking
scientific integrity was material to their convictions. In addition, as
discussed below, a larger staff could have enabled the Task Force to create
and maintain more comprehensive and accurate documentation and to
achieve a faster resolution for those defendants whose cases were adversely
affected by faulty and unreliable Lab analysis or testimony.

      In addition to not adequately staffing the Task Force, the Department
did not produce a final written report of the Task Force’s work for any
audience. There was no written summary of the total number of cases the
Task Force reviewed, how many independent reports the FBI generated
through its retained experts, the results of the prosecutors’ disclosure
determinations, or the impact of the disclosures and non-disclosures on the


                                      75
defendants affected by the FBI Lab’s erroneous handling of the analysis or
testimony in their cases. The lack of any such assessment reflects the low
priority that Department and FBI leadership placed on the importance of
this project by the end of its 8-year operation.


V.    FBI Caused Significant Delays to Independent Scientists’ Reviews

       We concluded that the FBI was responsible for significant, avoidable,
and costly delays in the independent scientists’ reviews of cases the Task
Force referred. We based our conclusion on our interviews, close
examination of case files, and analyses of multiple time intervals relating to
when the FBI began its efforts to retain experts, when the Task Force
referred specific cases for independent review, and when the reviews
occurred. The first delay occurred early on. Once the Department identified
in June 1997 the 13 FBI examiners whose cases would be subject to
scrutiny, the FBI was in a position to identify the scientific disciplines for
which it would need to retain experts. As discussed in Chapter Three,
however, the FBI did not move expeditiously to retain the needed experts
and, in fact, took more than 6 years to hire some of the experts it needed to
complete the reviews. This was true in several scientific disciplines, but it
had the largest impact on hair and fiber cases, including eight capital cases
referred for review by independent scientists.

       The second cause for delays stemmed from the FBI’s initial decision
that all reviews by the independent scientists would be performed at FBI
Headquarters. This on-site requirement added delays to the reviews
because of the travel logistics and the scientists’ competing professional
responsibilities and busy schedules. We are not convinced that the case
reviews needed to be conducted at Headquarters or that there was any
benefit to this practice given that the experts reviewed only copies of paper
files and were not permitted to re-examine physical evidence or to discuss
their case reviews with any Lab members or attorneys involved in the cases.
That the FBI later permitted at least one expert, Steve Robertson, to review
case files in an FBI field office following the events of September 11, 2001,
further demonstrates that the requirement that reviews be conducted at
Headquarters was unnecessary.

      The third cause of delays was revealed in our analysis of the number
of cases Malone handled that the hair and fiber experts were not able to
review during their visits to Headquarters. The FBI knew how many cases
required the expertise of these scientists at the beginning of each visit,
including after the first visit when only Robertson remained. Yet, the FBI
did not allocate sufficient time for the scientists to conduct their reviews or,
alternatively, failed to retain enough scientists to conduct the reviews in a
timely fashion. Either way, the result was that for 8 of the 10 visits, the


                                       76
scientists were unable to finish reviewing all the cases – up to 64 percent in
1 visit. The remaining cases were not reviewed until Robertson could return
to the FBI, which ranged from 4 to more than 14 months later (see below).

       The fourth cause of delays was the FBI’s decision to “batch” cases for
the independent scientists’ reviews, which resulted in cases unnecessarily
sitting at FBI Headquarters for lengthy periods of time awaiting review –
over 2½ years in one case. Although we analyzed data related only to the
hair and fiber cases handled by Malone, an FBI Lab witness we interviewed
described this approach as having been used for all the case reviews.
Finally, our analysis revealed there were unexplained delays of up to
14 months between visits by the hair and fiber expert, leaving as many as
36 hair and fiber cases handled by Malone awaiting review between each
visit. Given the egregious findings about Malone’s analyses and testimony,
which had been made at the outset of the independent experts’ reviews, we
believe the FBI should have ensured an expeditious review of these cases.


VI.   Limited, “Paper” Review by Independent Scientists

       At no point during the Task Force review was any of the forensic
evidence in any of the cases at issue physically re-examined. Instead, the
FBI explicitly limited the independent scientists’ reviews to a paper review of
the available testimony, lab reports, lab notes, and other papers created
during or associated with the original physical examination. However, in
some cases, including Boyle, the independent scientists who reviewed the
FBI Lab work expressly recommended that the evidence be re-examined; in
other cases, prosecutors requested a re-examination of the physical
evidence. Yet, our review confirmed that the FBI made no effort to search
for or provide the evidence for such re-examination in Boyle or any other
case. We also concluded that the Department and the FBI gave no
meaningful consideration to these recommendations and requests.

      We believe this approach to the reviews was short-sighted. We
recognize that the evidence would likely not have been available in every
case and that where it was available, physical re-examination of the
evidence would have added considerable time to an already lengthy review
and additional cost to the overall case review project. However, that time
and cost should have been weighed against the serious issues the Task
Force identified regarding the scientific integrity and reliability of Lab
analysis and testimony supporting convictions in capital cases as well as
other serious crimes. Moreover, while the number of cases that fell within
the scope of the Task Force review was overwhelming, independent paper
reviews were conducted only in cases involving the 13 examiners and, with
limited exceptions, only where a prosecutor had opined that the Lab
analysis or testimony was material to the conviction – a total of 312 cases.


                                      77
Moreover, physical re-examination appears to have been requested or
recommended only in a very small subset of those cases. We believe,
therefore, that to ensure justice was done, the FBI should have arranged for
a physical re-examination of available evidence in all instances where
prosecutors requested that it be done or where an independent scientist
concluded that a physical re-examination was necessary to fairly evaluate
the scientific integrity and reliability of the evidence.


VII.   Inadequate Efforts to Ensure Appropriate and Timely Disclosures
       to Defendants

      Senior Department officials made critical decisions about when and
what to communicate to federal and state prosecutors about the 1997 OIG
Report, findings of materiality, and constitutionally required disclosure
obligations. These decisions had the potential for enormous impact on
defendants whose convictions were tainted by unreliable or faulty Lab
analysis or testimony, particularly given how many years the case review
process lasted. We were troubled by the failure of Department leadership to
require federal prosecutors to make disclosure of the independent scientists’
reports to convicted defendants. We recognize that the Department does not
have authority to mandate that state prosecutors take any action, including
disclosures that may be required by constitutional standards. However, the
Department could have directed the Task Force to engage more assertively
with state prosecutors and state attorneys general on the importance of
making timely and meaningful disclosures in the affected cases and to
strongly urge state prosecutors to do so.52

       The Task Force’s request that prosecutors determine whether the Lab
evidence was material to the defendants’ convictions was apparently
designed to identify cases in which the government might have an obligation
to disclose such information to defendants or their counsel. When the Task
Force received a prosecutor’s determination that Lab evidence handled by
1 of the 13 examiners was material to a defendant’s conviction, and an
independent scientist concluded that the Lab evidence, testimony, or both
was faulty or could not be verified, the Task Force should have provided the
prosecutor with guidance about the independent report’s relevance to the
prosecutor’s disclosure obligation. Yet, the Task Force provided no such
case-specific guidance to the prosecutors when it transmitted the completed
reports.


       52 Pending cases, whether at the trial or appellate level, were handled differently:
federal and state prosecutors notified defense counsel of Lab examinations conducted by
the 13 examiners criticized by the OIG, providing an opportunity to litigate the admissibility
of the subject Lab reports and testimony.




                                             78
       We believe the Department, through the Task Force, should have
required federal prosecutors, and strongly encouraged state prosecutors, to
disclose the independent scientists’ reports to the defendants or defense
counsel when the reports concluded that the material Lab analysis or
testimony was unreliable. This would have afforded affected defendants the
same opportunity to pursue legal recourse that was given to defendants in
pending cases. As discussed in Chapter Three, the Task Force never
articulated to any prosecutor, federal or state, the Department’s position
about whether disclosure of the independent reports to defendants was
legally required when it transmitted the completed reports. We believe the
Department, through the Task Force, should have provided firm guidance to
federal and state prosecutors about the effect of an independent scientist’s
conclusion that the Lab analysis or testimony was unreliable on a
prosecutor’s disclosure obligation.53

       The consequence of the Task Force’s silence on the prosecutors’
disclosure responsibilities was that some prosecutors may have made an
erroneous determination that disclosure was unnecessary. This would have
precluded defendants who should have been notified of the problems
identified in their cases from seeking legal recourse. Indeed, in one Task
Force case, the failure of federal prosecutors to disclose the independent
scientist’s report likely lengthened the sentence served by an innocent man
who was subsequently exonerated by DNA testing. In Gates, the Task Force
verified that the U.S. Attorney’s Office for the District of Columbia received
the letter containing an independent review of Malone’s analysis. The
U.S. Attorney’s Office, however, never transmitted that report to Gates or his
counsel. At the time the Task Force sent the letter to the U.S. Attorney’s
Office in 2004, Gates had served approximately 21 years for a rape and
murder he did not commit. Gates was exonerated on the basis of DNA
testing in 2009, after serving 27 years in prison, approximately 6 of which
were served after he should have received a copy of the independent report
finding fault with Malone’s analysis.


VIII. Failure to Track Disclosures to Defendants

      The Task Force also failed to require that prosecutors notify the Task
Force of their disclosure decisions – whether or not they decided to disclose
the independent reports to defendants or defense counsel. Nor was there

       53  Our conclusion is focused on those independent reports that document problems
with the FBI Lab’s work in cases where the prosecutor determined that the Lab evidence
was material to the conviction. If the reports concluded that the FBI Lab work was not
problematic, then there would be no constitutional requirement that the prosecutors
disclose those reports to defendants even if the evidence were material. See Brady v.
Maryland, 373 U.S. 83, 87 (1963) and United States v. Bagley, 473 U.S. 667, 682 (1985).




                                          79
any mention in the Task Force letters to prosecutors about the importance
of acting swiftly to make disclosures to defendants or their counsel, even in
death penalty cases.

       The Task Force’s failure to track prosecutors’ disclosures or follow up
with the prosecutors reflects the same deference to prosecutors that appears
to have led the Department not to take a more active role in providing
guidance to prosecutors about disclosures the law would seem to clearly
require. From our review of Task Force files, we believe many disclosures
that should have been made may not have been made. We identified a
limited number of case files that included copies of independent report
disclosure letters that prosecutors sent to defense counsel; most files we
reviewed did not contain any evidence that any such disclosure was made.
Appendix H shows that copies of such letters were contained in case files for
only 13 of the 402 defendants whose cases were reviewed by independent
scientists. Although the FBI has informed us that it has identified
additional cases where disclosures were made, the Task Force’s decision not
to track prosecutors’ disclosures of independent reports to defendants
precluded the Task Force from alerting Department leadership to cases that
may have required their intervention to avoid the denial of defendants’
rights.

       These failures, some alone and some in combination, played a crucial
role in determining whether a given defendant received the full benefit of the
case review process originally envisioned by the Department when it created
the Task Force, and as its mission was refined in response to the 1997 OIG
Report. Therefore, while the Department satisfied the Task Force’s mission
for many of the affected defendants, it failed to achieve the Task Force’s
objectives and to perform its core function of ensuring that justice was
served in matters within its purview when it came to defendants adversely
affected by deficiencies in the process.

      In Chapter Seven, we make five recommendations to the Department
and the FBI to address those deficiencies we believe can still be remedied.




                                     80
               CHAPTER SEVEN:
 RECOMMENDATIONS TO THE DEPARTMENT AND THE FBI
       Deficiencies identified in this report warrant action on the part of the
Department and the FBI. We make five recommendations regarding certain
deficiencies. These recommendations address specific categories of cases
involving a conviction and evidence handled by 1 or more of the 13 Lab
examiners. Other deficiencies we identified cannot be remedied at this
juncture. However, we recommend that the Department consider these
other deficiencies in designing, implementing, setting priorities for, and
making resource allocation decisions in future reviews of a similar nature it
may undertake.

       In view of the potential effect of our review on individual defendants’
cases, we have taken steps during this review to enable the Department to
move forward with ensuring that affected defendants receive notice, even if
long overdue, of unreliable Lab analysis or testimony that may have affected
their convictions. To that end, we provided information to the Department
and the FBI at several points during this review to enable them to begin
remedial action we anticipated recommending without awaiting completion
of this report. For example, in January 2013, after completing our initial
analysis of capital defendants whose convictions or sentencing may have
relied on evidence handled by 1 or more of the 13 examiners criticized in the
1997 OIG Report, we provided the names of these defendants and their
case-related data to the Department and the FBI. The list of capital
defendants – which includes those who received reduced sentences of life or
a lesser amount – that we provided to the Department and the FBI is
included in Appendix G. In addition, in September 2013, we provided the
Department and the FBI with identifying information on 402 defendants for
whose cases independent scientists completed reports. We were able to
determine in only 15 of those cases that the reports were disclosed to the
defendants or their counsel. The list of these 402 defendants provided to
the Department and the FBI is included in Appendix H.

       During our review, the Department informed us of its efforts to notify
potentially affected defendants of the 1997 OIG Report and Task Force
review. We acknowledge and appreciate representations by the Department
concerning its efforts to effectuate meaningful notice to certain potentially
affected defendants. We are not in a position at this juncture, however, to
evaluate the adequacy of the Department’s recent efforts in response to the
interim briefings we provided.

      We encourage the Department and the FBI to consider working with
defense organizations, such as the National Association of Criminal Defense
Lawyers or entities which work to ensure protection of defendants’ rights,


                                      81
such as the Innocence Project and the American Civil Liberties Union, to
ensure a comprehensive and effective plan designed to achieve maximum
and effective notice to all potentially affected individuals. We further
encourage the Department and the FBI to coordinate with and use the
resources of state attorneys general, district attorneys, public defenders,
and the federal, state, and local courts to implement these
recommendations.

      With respect to three categories of cases listed below, we recommend
that the Department and the FBI take the following corrective actions:

52 State Death Penalty Cases Reviewed by the Task Force54

        1.    Provide case-specific notice to defense counsel for 26
              defendants currently on death row or awaiting resentencing or
              retrial. The notice should include the following information:
                     a. The 1997 OIG Report;
                     b. A brief description of the 1997 Criminal Division Task
                        Force review;
                     c. Whether the prosecutor made a determination of the
                        materiality of the FBI Lab evidence;
                     d. Whether the Task Force referred the case to the FBI for
                        review by independent scientists;
                     e. Whether an independent scientist completed a report
                        for the defendant’s case; and
                     f. Completed independent scientist’s report for
                        defendant’s case, if applicable.

              Exceptions – No notice is necessary if there is:

                     A determination that the materiality and integrity of the
                      evidence was previously litigated, specifically with regard
                      to the deficiency of the Lab examiner’s analysis or
                      testimony;
                     Definitive evidence of prior notification, regardless of
                      whether the matter was litigated; or
                     A prior determination by a prosecutor that the Lab
                      evidence was not material to the conviction and there is
                      no indication undermining the objectivity of the
                      prosecutor’s determination.



        54 This figure represents the 64 death penalty defendants discussed in this report

less 12 defendants who were resentenced to a term of life or less.




                                            82
        2.    Urge states to allow FBI retesting of physical evidence, if
              available, for 24 of the 26 death row defendants who were
              executed or who died in prison while on death row.55
                    a. Request assistance from state attorneys general and
                        district attorneys to obtain physical evidence for
                        testing;
                    b. Retest using the most scientifically reliable and
                        accurate technology available today; if Lab evidence
                        included hair analysis, retest using mitochondrial DNA
                        analysis;
                    c. If test results are contrary to original Lab finding or
                        are potentially exculpatory or impeaching, work with
                        offices and organizations such as state attorneys
                        general, district attorneys, defense counsel, the
                        Innocence Project, and the National Association of
                        Criminal Defense Lawyers to ensure effective and
                        appropriate notification; and
                    d. If physical evidence is not available, conduct a review
                        of available testimony, Lab report, bench notes, and
                        any other relevant materials to assess the integrity of
                        the Lab evidence in the case.

              Exceptions – No retesting is necessary if there is:

                    A determination that the materiality and integrity of the
                     evidence was previously litigated, specifically with regard
                     to the deficiency of the Lab examiner’s analysis or
                     testimony;
                    Definitive evidence of prior notification, regardless of
                     whether the matter was litigated; or
                    Prior determination by a prosecutor that the Lab evidence
                     was not material to the conviction and there is no
                     indication undermining the objectivity of the prosecutor’s
                     determination.

Non-Death Penalty Cases Reviewed by Task Force

        3.    Provide case-specific notice to currently and previously
              incarcerated defendants whose cases were reviewed by the Task
              Force (approximately 2,900). The notice should include

       55 This number excludes 2 defendants (Victor Cazes and Anthony Larette) because
the Department recently learned and informed us that their convictions and death
sentences did not rely on the work of any of the 13 criticized FBI Lab examiners.




                                          83
              elements a through f described in Recommendation 1
              concerning death penalty defendants.
                    a. Start by providing notice to the 402 defendants for
                       whom the independent scientists completed reviews
                       (101 defendants in federal cases; 301 defendants in
                       state cases).56
                    b. For state and local cases, coordinate with offices and
                       organizations such as state attorneys general and
                       district attorneys, public defenders, defense
                       organizations, and state and local courts to maximize
                       likelihood of effective notice or constructive (broad,
                       public) notice.

              Exceptions – No notice is necessary if there is:

                    A determination that the materiality and integrity of the
                     evidence was previously litigated, specifically with regard
                     to the deficiency of the Lab examiner’s analysis or
                     testimony;
                    Definitive evidence of prior notification, regardless of
                     whether the matter was litigated; or
                    Prior determination by a prosecutor that the Lab evidence
                     was not material to the conviction and there is no
                     indication undermining the objectivity of the prosecutor’s
                     determination.

       Cases Not Reviewed by the Task Force

        4.    Provide the broadest possible notice to offices and organizations
              such as defense and civil liberties groups, state attorneys
              general and district attorneys, governors’ offices, and federal,
              state, and local courts. The notice should state that the Task
              Force did not review all criminal cases resulting in a conviction
              that involved 1 or more of the 13 FBI Lab examiners and that,
              as a result, notification may not have been provided to
              convicted defendants about deficiencies in the Lab analysis or
              testimony used in their cases.




       56  The OIG previously provided the list of 402 defendants to the FBI. See
Appendix H. The 301 state defendants include 7 sealed cases for which jurisdictions were
not identified.




                                           84
Tracking for all Three Case Categories

 5.   Consistently track the notice provided to specific defendants or
      defense counsel and the steps taken to provide constructive
      notice to categories of defendants whose identities are unknown
      or unidentifiable.




                              85
                                  APPENDIX A:
                    SELECT DEFENDANTS REFERENCED IN REPORT
                                             Time Served
                                            from Date of
                                           Conviction Until
                        Sentence Year      Date of Death or
      Defendant          and Penalty           Release             Case Status as of June 2014

Benjamin H. Boyle       1986               11 years           Executed 4/21/97, prior to
                        Death                                 identification and review by the Task
                                                              Force. Would not have been eligible for
                                                              death sentence without Lab evidence.

Joseph L. Young         1987               9 years            Died of natural causes on 2/28/96
                        Death                                 while awaiting execution.


Donald E. Gates         1982               27 years           Exonerated.
                        20 years to life


Santae A. Tribble       1980               27 years           Exonerated.
                        20 years to life


Kirk L. Odom            1981               21.5 years         Exonerated.
                        22 to 66 years


Anthony E. Bragdon      1992               11 years           Conviction reversed and remanded.
                        30 years                              Defendant not retried.


John N. Huffington      1981               32 years           Conviction reversed and remanded.
                        Two consecutive                       State appealing ruling.
                        life terms

Sources: Court records, Task Force files, and other information provided by the Department
and the FBI.




                                                86
                                APPENDIX B:
                     THIRTEEN CRITICIZED FBI EXAMINERS

      This table lists the 13 FBI examiners whose cases the Task Force
determined in June 1997 warranted further scrutiny based on the OIG’s April
1997 report.57

                                        FBI Lab Division Affiliation        Year Examiner
        FBI Lab Examiner                  (Per 1997 OIG Report)             Joined FBI Lab
1. Richard Hahn                      Explosives Unit                            1987
2. Robert Heckman                    Explosives Unit                            1990
3. Wallace Higgins                   Explosives Unit                            1989
4. Alan Jordan                       Explosives Unit                            1983*
5. Lynn Lasswell                     Chemistry-Toxicology Unit                  1975
6. Michael Malone                    Hairs and Fibers Unit                      1974*
7. Roger Martz                       Chemistry-Toxicology Unit                  1980*
8. J. Christopher Ronay              Explosives Unit                            1977*
9. Terry Rudolph                     Materials Analysis Unit                    1979*
10. James Thomas Thurman             Explosives Unit                            1981
11. Robert Webb                      Materials Analysis Unit                    1976
12. Frederic Whitehurst              Materials Analysis Unit                    1986
13. David Williams                   Explosives Unit                            1987

*Indicates a discrepancy we found in the examiner’s employment date on Task Force and FBI
documents. Some of the documents provided to us listed only an examiner’s start date with
the FBI, but not with the Lab specifically (Jordan and Ronay) whereas other documents listed
two different employment dates.

Sources: 1997 OIG Report; Task Force and FBI correspondence; FBI employment dates.

      At least six of the examiners joined the FBI Lab prior to 1985 – Lasswell,
Malone, Martz, Rudolph, Thurman, and Webb. Another two examiners – Ronay
and Jordan – likely joined the FBI Lab prior to 1985 but we could not verify
those dates due to the discrepancies described above.

      At least eight of the examiners had left the FBI Lab by the time the OIG
Report was published in April 1997, including two who had temporarily
transferred out of the Lab following issuance of the draft Report in January
1997 – Hahn, Williams, Lasswell, Malone, Martz, Rudolph, Webb, and Ronay.

       57  John C. Keeney, Acting Assistant Attorney General, Criminal Division, memorandum
to all United States Attorneys, First Assistant United States Attorneys, Criminal Chiefs, and
Criminal Division Section Chiefs and Office Directors, Inspector General’s Report on the FBI
Laboratory, June 6, 1997.


                                             87
                                       APPENDIX C:
               CATEGORIES OF CASES ELIMINATED BY THE TASK FORCE AND THE FBI

                                                                                                        Number of
                                                        Proposed   Reason Cited by the      Date           Cases
           Case Category and Description                   by       Task Force or FBI    Eliminated     Eliminated
1-10   Cases falling into 10 “other” sub-categories:    FBI and    No reason given       December     Not documented
        1. defendant deceased/deported                  Task                             1998         by the Task
        2. case dismissed/charges dropped/nolle         Force                                         Force
           prosequi
        3. defendant pardoned
        4. conviction vacated/overturned/reversed and
           defendant not retried
        5. foreign prosecution
        6. defendant not convicted for offense worked
           on by criticized examiner
        7. defendant pleaded guilty before laboratory
           report was issued
        8. criticized examiner did not work on case/
           replaced by another examiner
        9. no laboratory work performed or laboratory
           work was discontinued
       10. insufficient evidence for examination/
           comparison/identification.
11     Cases where Malone only confirmed the lab        FBI and    No reason given       December     Not documented
       results of another examiner: Cases in which      Task                             1998         by the Task
       former FBI Lab examiner Michael Malone did not   Force                                         Force
       perform the examination but confirmed the hair
       examination of another examiner.




                                                         88
12          Inconclusive lab evidence: Cases that had              FBI and   Rarely used by the        December   Not documented
            “inconclusive” lab evidence, not defined by the        Task      prosecution in            1998       by the Task
            Task Force but illustrated by the example of not       Force     criminal cases so “the               Force
            finding a hair that matched the defendant at the                 results are very rarely
            scene of a crime.                                                material to a
            Exception: The Task Force stated that death                      conviction.”
            penalty cases would be reviewed and materiality
            determinations obtained even if the lab results
            were inconclusive.58
13          Non-explosives Lasswell cases: Cases in which          FBI and   No evidence of any        January    245 out of 1,652
            former FBI Lab examiner Lynn Lasswell conducted        Task      wrongdoing or             2003       cases Lasswell
            non-explosives forensic work. (The Task Force          Force     routinely sloppy work                handled59
            stated that the majority of Lasswell’s cases                     by Lasswell.
            involved the identification of controlled
            substances, red dye on evidence from bank
            robberies, and other types of chemical analysis.)
            The Task Force stated it would review only those
            Lasswell cases involving explosives-related forensic
            work, the area of analysis for which Lasswell was
            criticized in the OIG Report.




       58 Notwithstanding the Task Force’s statement in its December 1998 correspondence that it would review death penalty
cases and obtain materiality determinations even if the Lab results were inconclusive, we found that this did not occur.
       59 Of the 245 cases, 218 resulted in a conviction. In addition, there were 26 federal cases for which the conviction status
was not determined and 1 case which was sealed with an unknown conviction status, according to an April 18, 2003, FBI summary
document. We found no further information in Task Force or FBI documents to explain why the conviction status of the 26 federal
cases was not determined.




                                                                    89
14          No record of case/files purged/unresponsive:        FBI and   If files from these      January      Not documented
            Cases where the records for a known defendant       Task      offices are not in       2003         by the Task
            could not be located or the prosecutor was          Force     existence and the                     Force61
            unresponsive to the Task Force’s requests for                 prosecutor could not
            materiality determinations. The Task Force stated             be identified or was
            that prosecutors’ offices, law enforcement                    unavailable, it would
            agencies, and courts occasionally purge case                  not be possible to
            files – particularly older ones – after a certain             obtain materiality
            number of years.60                                            determinations.
15          Ronay and Higgins cases: Cases reviewed by          FBI       The OIG Report           January      27 cases, all of
            former FBI Lab Explosives Unit Chief                          criticized Ronay and     2003         which resulted
            J. Christopher Ronay and Explosives Unit primary              Higgins for “lapses in                in a conviction
            examiner Wallace Higgins.                                     judgment in their                     (19 of 199 cases
                                                                          roles as supervisors,”                Higgins handled
                                                                          but not for their own                 + 8 of 350 cases
                                                                          lab work.                             Ronay handled)
16          Jordan cases: Cases reviewed by former FBI Lab      FBI       The OIG Report found     January      6 of 291 cases
            examiner Alan R. Jordan                                       no evidence of any       2003         Jordan handled,
                                                                          misconduct by Jordan                  all of which
                                                                          and did not                           resulted in a
                                                                          recommend any                         conviction
                                                                          disciplinary action.




       60A former Task Force member we interviewed told us that these cases differ from cases where there was no record of a
defendant or a subject. The Task Force did not pursue materiality determinations for the latter case category.
       61  A January 2003 FBI letter to the Task Force stated that the Task Force forwarded to the FBI for independent scientific
review nine cases in which the prosecutor’s office did not respond to repeated requests by the Task Force for materiality
determinations. Seven of the nine cases involved Malone analysis. The letter stated that both the FBI and the Task Force agreed to
review those cases. Although we could not determine from Task Force documentation whether those nine cases represent the full
universe of eliminated cases in this category, we found evidence that independent reviews were conducted for additional cases in
this category. For example, we found Task Force letters to the FBI requesting independent reviews for cases where prosecutors
were unresponsive to the Task Force’s requests for a materiality determination, had insufficient records to make a materiality
determination, or requested an independent review in lieu of making a materiality determination.




                                                                 90
17       Small cases: Small cases, defined by the Task         Task        Reviewing these cases    January       170 cases, all of
         Force as cases in which the defendants “were          Force       for both prosecutors     2003          which resulted
         fined, not incarcerated, or should have finished                  and the Task Force                     in a conviction63
         their sentence more than 6 years ago.”62                          would be labor and
                                                                           time-intensive
                                                                           because many were
                                                                           about 20 years old.
18       Cases with missing lab reports: Cases in which        FBI         Without the lab          January       Not documented
         the Task Force’s files lacked the corresponding lab               reports and              2003          by the Task
         reports.                                                          corresponding bench                    Force
                                                                           notes the examiners
                                                                           prepared, a
                                                                           meaningful
                                                                           independent scientific
                                                                           review could not be
                                                                           conducted.

Sources: Eight documents from December 1998 through January 2003 – seven letters and memoranda between the Task Force
and the FBI and one FBI summary document – discussing cases to be eliminated from the review scope. The source for the 4 case
categories that identified the number of cases eliminated (totaling 448 cases) was an April 18, 2003, FBI document, “Lab Task Force
Summary 4/18/03.”

These eight documents represented all relevant documents related to case eliminations the OIG discovered in the information
provided by the Criminal Division and the FBI. Many of the case categories eliminated in January 2003 were also discussed and
proposed for elimination in earlier correspondence.




       62 FBI letter to Office of Enforcement Operations, Criminal Division Re: FBI/DOJ Task Force to Review FBI Laboratory

Cases, January 2, 2003, page 4.
        63 According to the FBI’s April 18, 2003, document, the “small cases” category included 39 additional Lasswell cases;

6 additional Jordan cases; and 6 additional Ronay cases beyond those listed in the Lasswell, Jordan, and Ronay categories.




                                                                 91
             APPENDIX D:
FEDERAL CASE REVIEW (MATERIALITY) FORM




                  92
                      APPENDIX E:
REDACTED STATE AND LOCAL CASE REVIEW (MATERIALITY) FORM




                          93
                 APPENDIX F:
INDEPENDENT CASE REVIEW REPORT AND GUIDELINES




                     94
95
96
97
98
99
                                               APPENDIX G:
                 DEFENDANTS WHO RECEIVED DEATH PENALTY, LIFE, OR LESSER SENTENCES
                   (OIG PROVIDED TO THE FBI AND CRIMINAL DIVISION IN JANUARY 2013)

Defendant
  Count     Jurisdiction      Last Name      First Name             Examiner(s)                   Case Status as of January 2013

                                                    DEFENDANTS WHO RECEIVED DEATH PENALTY

1           FL             Branch         Eric                                     On death row with no known pending appeals
2           FL             Hannon         Patrick          Malone                  On death row with no known pending appeals
3           FL             Hendrix        Robert           Malone                  On death row with no known pending appeals
4           CA             Jones          Bryan            Malone                  On death row with no known pending appeals
5           FL             Krawczuk       Anton                                    On death row with no known pending appeals
6           CA             Letner         Richard          Malone                  On death row with no known pending appeals
7           CA             Tobin          Christopher      Malone                  On death row with no known pending appeals


8           FL             Bogle          Brett            Malone                  On death row with pending appeals
9           FL             Bolin          Oscar            Malone                  On death row with pending appeals
10          ID             Card           David            Malone                  On death row with pending appeals
11          LA             Code           Nathaniel                                On death row with pending appeals
12          TN             Cone           Gary             Malone                  On death row with pending appeals
13          MO             Ferguson       Jeffery          Malone                  On death row with pending appeals
14          FL             Happ           William          Malone                  On death row with pending appeals
15          PA             Hughes IV      Robert           Malone                  On death row with pending appeals
16          TN             Irick          Billy Ray        Malone                  On death row with pending appeals
17          OH             Lawson         Jerry                                    On death row with pending appeals
18          FL             Long           Robert           Malone                  On death row with pending appeals
19          FL             Mann           Larry            Malone                  On death row with pending appeals
20          FL             Suggs          Donald           Malone                  On death row with pending appeals
21          FL             Trepal         George                                   On death row with pending appeals
22          OH             Wogenstahl     Jeffery                                  On death row with pending appeals
23          FL             Wyatt          Tommy            Malone                  On death row with pending appeals


24          PA             Copenhefer     David                                    Pending retrial or resentencing




                                                                      100
Defendant
  Count     Jurisdiction      Last Name      First Name            Examiner(s)                           Case Status as of January 2013
25          TN             Smith          Leonard                                         Pending retrial or resentencing
26          WA             Stenson        Darold “RJ”                                     Pending retrial or resentencing


27          FL             Mordenti       Michael         Malone                          Capital conviction reversed; defendant released


28          TX             Boyle          Benjamin        Malone                          Executed April 21, 1997
29          FL             Buenoano       Judy                                            Executed March 30, 1998
30          SC             Drayton        Leroy                                           Executed November 12, 1999
31          SC             Gaskins        Donald                                          Executed September 6, 1991
32          ID             Johnson        Gregory                                         Executed May 25, 2005
33          FL             Larette        Anthony                                         Executed November 28, 1995
34          MO             Link           Martin                                          Executed February 9, 2011
35          TX             Lockhart       Michael                                         Executed December 9, 1997
36          IN             Matheney       Alan                                            Executed September 28, 2005
37          PA             Moser          Leon                                            Executed August 16, 1995
38          TX             Narvaiz Jr.    Leopoldo        Malone                          Executed June 26, 1998
39          AZ             Ortiz          Ignacio                                         Executed October 27, 1999
40          TX             Powell         James                                           Executed October 1, 2002
41          DE             Shelton        Nelson                                          Executed March 17, 1995
42          FL             Rolling        Danny                                           Executed October 25, 2006
43          FL             Schwab         Mark                                            Executed July 1, 2008
44          FL             Stano          Gerald          Malone                          Executed March 23, 1998


45          MO             Brooks         Thomas                                          Died in prison 2000
46          TN             Cazes          Victor          Malone (confirming scientist)   Died in prison 2000
47          TN             Melson         Hugh            Malone                          Died in prison 1999
48          FL             Mendyk         Todd            Malone                          Died in prison 2002
49          TN             O’Guinn        Kenneth         Malone                          Died in prison 1999
50          FL             Pettit         Samuel          Malone                          Died in prison 2005
51          FL             Wike           Warfield                                        Died in prison 2004
52          TN             Williams       Laron           Malone                          Died in prison 1985
53          PA             Young          Joseph          Malone                          Died in prison 1996




                                                                      101
Defendant
  Count     Jurisdiction      Last Name     First Name               Examiner(s)                   Case Status as of January 2013
                                                    DEFENDANTS WHO RECEIVED LIFE OR LESSER SENTENCES
54          TN             Bates          Wayne             Malone                  Reduced sentence: Life
55          PA             Bradley        Jerard                                    Reduced sentence: 13.5 to 32 years
56          FL             Crump          Michael           Malone                  Reduced sentence: Life
57          FL             Lovette        Michael           Malone                  Reduced sentence: Life
58          OH             Mason          Maurice           Malone                  Reduced sentence: 15 years to life
59          DE             Outten         Jack                                      Reduced sentence: 20 years to life
60          FL             Ramirez        Nathan                                    Reduced sentence: Life
61          IL             Sanchez        Hector                                    Reduced sentence: Life
62          DE             Shelton        Steven                                    Reduced sentence: 20 years to life
63          WA             Smith          Randall                                   Reduced sentence: Life
64          MD             Wiggins        Kevin                                     Reduced sentence: Life


Note: The data in this table are a subset of the information the OIG provided to the FBI and the Department in January 2013 and
reflect the status of those defendants’ cases at that time.




                                                                       102
                                              APPENDIX H:
                  DEFENDANTS WHOSE CASES WERE REVIEWED BY INDEPENDENT SCIENTISTS
                   (OIG PROVIDED TO THE FBI AND CRIMINAL DIVISION IN SEPTEMBER 2013)

                                                                                                    Definitive
Defendant     Year                                                    CDRU                         Evidence of
  Count     Sentenced   Jurisdiction      Last Name    First Name       #            Examiner(s)   Disclosure?   Notes
1           1987        US/VI          ABEDNEGO       CECIL          163      MALONE               No
2           1982        US/CA          ABU-NADI       JAMAL          4503     RUDOLPH              No
3           1988        AK             ADKINS         CHET           1813     RUDOLPH              No
4           1984        CT             AILLON         GUILLERMO      6598     MALONE               No
5           1994        TN             ALEXANDER      DAVID          1210     MALONE               No
6           1984        US/OK          ALFORD         CLIFFORD       6720     THURMAN              No
7           1987        NJ             ALLEN          BLAIR          4723     MARTZ/RONAY          No
8           1983        US/MD          ALSTON         ROGER          6855     RONAY                No
9           1985        FL             AMMAZ          LOUIS          6561     MALONE               No
10          1982        AK             ANOHOUAK       STEVEN         6252     MALONE               No
11          n/a         MS             ARMSTEAD       ROOSEVELT      6712     MALONE               No
12          1992        US/IL          ARNOLD         JOHN           4464     LASSWELL/WILLIAMS    No
13          1984        NJ             ARRINGTON      JOSEPH         4847     RUDOLPH/RONAY        No
14          n/a         NJ             ARROYO         MIGUEL         6415 A   MALONE               No
15          1984        NY             ASELTINE       GUY            1890     RUDOLPH              No
16          1991        US/TX          ATOR           DEBORAH        3941     LASSWELL             No
17          n/a         US/DC          AUSTIN         WAYNE          2558     LASSWELL             No
18          1986        MD             BAKER          MARK           1513     MARTZ                No
19          1991        WA             BALLARD        BILLY          1898     WEBB                 No
20          1979        IL             BARKNEK        PETER          7360     WEBB                 No
21          n/a         US/FL          BARR           DAVID          3838     HECKMAN              No




                                                               103
22   n/a    GU      BAZA          JOSE           2184      WEBB                No
23   1986   VA      BEASLEY       KEVIN          3309LL    WEBB                No
24   1991   US/PA   BECKETT       JAMES          2956      HAHN                No
     1991   US/PA   BECKETT       JAMES          5951      HAHN                No
25   1990   OH      BEKTAS        TONY           2842      WEBB                No
26   1992   WV      BENNETT       ELLOWOOD       7421      WEBB                No
27   1988   US/DC   BENOIT        JEAN           274       MALONE              No
28   1992   AK      BETZNER       GEORGE         6405      MALONE/MARTZ        No
29   1996   CA      BLACK         KEITH          4924 LL   MARTZ/WHITEHURST/   No
                                                           WEBB
30   1985   US/PA   BOGERT        RALPH          3266      RUDOLPH/MARTZ/      No
                                                           JORDAN
31   n/a    US/DC   BONHOM        MICHAEL        6316      MALONE              No
32   1991   PA      BORGER        ALLAN          5270      MARTZ               No
33   1979   FL      BOSTIC        DWAYNE         7366      MALONE              No
34   1996   ME      BOUTIN        DARLENE        979       MALONE              No
35   1981   US/CA   BOYD          DAVID          3258      RUDOLPH/MARTZ       No
36   1996   TX      BOYLE         BENJAMIN       195       MALONE              No
37   n/a    US/FL   BRADFORD      JOHN           3838      HECKMAN             No
38   n/a    US/FL   BRADFORD      STEVEN         3838      HECKMAN             No
39   1990   US/SC   BRADLEY       TERRANCE       3430      WEBB                No
40   1984   AK      BRIDEGAN      JAY            6488      MALONE              No
41   1988   AK      BRIGGS        JOHN           513       MALONE              No
42   1984   ME      BROCKELBANK   SCOTT          6569      MALONE              No
43   1985   SC      BROOKS        ROY            6609      MALONE/RUDOLPH      No
44   1985   MD      BROWN         DAVID          1452      MARTZ               No
45   n/a    MD      BRYANT        DAVID          860       MALONE              No




                                           104
46   1987   US/NE   BUCKLEY       ROBERT          32       MALONE            No
47   n/a    MD      BUCKLEY       JOHN            2171     HIGGINS           No
48   1988   MO      BUTLER        MICHAEL         187      MALONE            No
49   1979   US/MD   BYROM         JAMES           7050     RUDOLPH           No
50   1984   SC      CAMPBELL      CLIFTON         4795     MALONE            No
51   1986   MD      CARMICHAEL    JOHN            5150     RONAY             No
52   1992   US/NY   CASTELLANOS   LUIS            3653     WHITEHURST/HAHN   No
53   n/a    GU      CASTRO        RAMON           2184     WEBB              No
54   1992   FL      CATHCART      KIMBERLY        2381     LASSWELL          No
55   1992   FL      CATHCART      SCOTT           2381     LASSWELL          No
56   1993   MD      CLARK         HADDEN          1357     MALONE            No
57   1992   US/AR   CLARK         JAMES           3761     WHITEHURST        No
58   1980   US/WI   CLENDENNY     JOEY            6883BB   MALONE            No
59   1996   FL      CLEVELAND     WALTER          2249     WHITEHURST        No
60   n/a    KS      COLE          JODY            2217     WHITEHURST        No
61   1984   WV      COMBS         JUNE            4645     RUDOLPH           No
62   1983   FL      COOK          DOUGLAS         6336     MALONE/WEBB       No
63   1986   WA      COOPER        MARVIN          5259     MALONE            No
64   1987   ME      COVELL        FRED            5151     RONAY/MARTZ       No
65   1984   AZ      COX           KENNETH         4641     RUDOLPH/RONAY     No
66   1993   TN      CRESONG       MICKEY          1274     MALONE            No
67   1994   US/PA   CROUSHORE     MARK            3891     LASSWELL          No
68   1987   FL      CRUMP         MICHAEL         226      MALONE            No
     1987   FL      CRUMP         MICHAEL         466      MALONE            No
69   1984   DE      CRUMP         BENJAMIN        6389A    MALONE            No
     1984   DE      CRUMP         BENJAMIN        6389B    MALONE            No
70   1986   US/MT   DANIELS       RAY             1050     MALONE            No




                                            105
71   1988   TX      DARNELL         CHARLES         2038      WEBB                No
72   1985   NM      DAVID           SAMUEL          4841      MALONE/RUDOLPH      No
73   1990   MD      DAVIS           TOMMIE          1686      MARTZ               No
74   1990   DE      DENNARD         PEGGY           906       MALONE              No
75   n/a    US/MD   DESSER          FRANK           4843      RUDOLPH             No
76   1989   TN      DISNEY          DAVID           606       MALONE/WEBB         No
77   1986   MD      DONN            DUANE           5150      RONAY               No
78   1989   NJ      DORFLEI         ROBERT          4991      WILLIAMS            No
79   1996   CA      DORRIS          ROBERT          4924 LL   MARTZ/WHITEHURST/   No
                                                              WEBB
80   n/a    US/DC   DORSEY          ALVIN           2402      LASSWELL            No
81   n/a    NM      DRAPER          n/a             4841      MALONE/RUDOLPH      No
82   1996   MD      DUCKETT         DARRELL         5103      HECKMAN             No
83   1985   IL      DUGAN           BRIAN           6706      MALONE              No
     1985   IL      DUGAN           BRIAN           3LL       MALONE              No
84   1986   US/CA   DUPONT          MICHAEL         1047      MALONE              No
85   1986   US/CA   DUPONT          PEGGY           1047      MALONE              No
86   1989   ME      ELDRIDGE        WOODBURY        812       MALONE              No
87   1982   FL      FAULKNER        DONALD          6250      MALONE              No
88   1983   PA      FENSTERMACHER   WILLIAM         6365      MALONE              No
89   1984   US/OH   FIELDS          KENNETH         7197      THURMAN             No
90   1984   US/DC   FINNEY          DON             6741      RUDOLPH/THURMAN     No
91   1985   AK      FISHER          TERRY           1911      WEBB                No
92   n/a    FL      FODOR           BRIAN           5152      RONAY/MARTZ         No
93   1991   PA      FUNK            BYRON           2161      WEBB                No
94   1983   OH      GALL            JACK            6329      MALONE              No
95   1988   US/DC   GARAY           JOSE            463       MALONE              No




                                              106
96    1987   SC      GARCIA      JOSE            7467      MARTZ         No
97    n/a    US/DC   GARRETT     GEORGE          1576      MARTZ         No
98    1989   TN      GARRETT     CLIFFORD        2112      WEBB          No
99    1989   TN      GARRETT     WILLIAM         2112      WEBB          No
100   1979   US/KY   GASTON      LUIS            7432      MALONE        No
101   1979   US/KY   GASTON      WILLIAM         7432      MALONE        No
102   n/a    US/DC   GATES       DONALD          6321      MALONE        No
103   1994   US/FL   GEOHEGAN    EDWARD          3838      HECKMAN       No
104   1989   WV      GEORGE      CYRUS           412       MALONE/WEBB   No
      1992   WV      GEORGE      CYRUS           7421      WEBB          No
105   1992   TX      GILLIAM     THOMAS          735       MALONE        No
106   1985   US/MD   GILLS       RODRIGUEZ       6759      THURMAN       No
107   1984   FL      GLOVER      RONALD          6643      MALONE        No
108   1994   US/IL   GOINS       ANTHONY         1366      MALONE        No
109   1988   US/IL   GOMETZ      RANDY           2918      MARTZ         No
110   1986   MA      GONZALEZ    FREDDY          1441      MARTZ         No
111   1990   OH      GOSTICK     LESLIE          2842      WEBB          No
112   1984   CT      GRAHAM      JOHN            6391      WEBB          No
113   n/a    US/WI   GRZELAK     BROOKE          6256 BB   MALONE        No
114   1985   GU      GUERRERO    ANTHONY         6470      MARTZ         No
115   1988   US/CA   GUTIERREZ   ALEX            1047      MALONE        No
116   1988   US/CA   GUTIERREZ   WALTER          1047      MALONE        No
117   1987   US/MD   HAAFF       ERIC            40        MALONE        No
118   1987   MR      HANADA      HIDEKI          449       MALONE        No
119   1983   US/DC   HANSFORD    TERRENCE        6352      MALONE        No
120   1987   ME      HANSON      DAVID           245       MALONE        No
121   1985   AK      HANSON      JOHN            6510      MALONE        No




                                           107
122   1986   IN      HARRIS       TERRY           1540      WEBB              No
123   1991   FL      HART         DOMINIC         995       MALONE            No
124   1984   IL      HEINZ        FOREST          6538 LL   WEBB              No
125   n/a    US/AL   HENRY        PATRICK         3746      LASSWELL          No
126   1988   TX      HENSON       JAMES           1603      MARTZ             No
127   n/a    FL      HERNANDEZ    DANNY           6524      MALONE            No
128   1988   NY      HILL         CHARLES         2066      WEBB              No
129   1986   NJ      HILL         CHRISTOPHER     6642      WEBB              No
130   1989   CA      HOEPPNER     KAREN           5174      MARTZ/RONAY       No
131   1984   US/DC   HONSMAN      WARNIE          6741      RUDOLPH/THURMAN   No
132   n/a    FL      HORSTMAN     RODNEY          3471      MALONE            No
133   1987   NC      HUDSON       JIMMY           318       MALONE            No
134   1982   AK      HUF          JAY             6260      MALONE            No
135   1987   MD      HUFFINGTON   JOHN            5196      MALONE            No
136   n/a    FL      HUNTER       KEVIN           176       MALONE            No
137   1979   US/MD   HUTTON       JOSEPH          7050      RUDOLPH           No
138   1981   MS      HYDE         ANTHONY         7492      MALONE            No
139   1988   MD      ICGOREN      NURI            553       WEBB              No
140   n/a    GU      IGLESIAS     WILLIAM         2184      WEBB              No
141   1995   TN      IRWIN        DOUG            1281      MALONE            No
142   1986   SC      IVERSON      JAMES           295       MALONE            No
143   n/a    FL      JACKSON      KEITH           563       MALONE            No
144   1985   NM      JACOBS       BRYSON          4841      MALONE/RUDOLPH    No
145   1982   SD      JACOX        DARREL          6236      MALONE            No
146   1979   US/MD   JASON        PIERRE          7050      RUDOLPH           No
147   1985   AK      JOHNSON      RUEBEN          1438      MARTZ             No
148   n/a    MD      JOHNSON      WARREN          2177      HIGGINS           No




                                            108
149   n/a    KS      JOHNSON    DAVID           2217   WHITEHURST       No
150   1981   US/CA   JOHNSON    RODNEY          3258   RUDOLPH/MARTZ    No
151   1979   US/MD   JOHNSON    ARTHUR          7050   RUDOLPH          No
152   1986   MO      JONES      ERROL           187    MALONE           No
153   1994   CA      JONES      BRYAN           869    MALONE           No
      1994   CA      JONES      BRYAN           867B   MALONE           No
154   1989   US/MO   JONES      MICHAEL         3053   MARTZ            No
155   n/a    US/FL   JONES      ROBERT          3838   HECKMAN          No
156   n/a    US/CA   JONES      JEFFREY         3911   LASSWELL         No
157   n/a    MD      JONES      ALAN            6379   WEBB             No
158   n/a    WV      JUDE       YANCEY          7089   JORDAN/RUDOLPH   No
159   n/a    KS      KAISER     DAVID           2217   WHITEHURST       No
160   1982   MD      KANARAS    DENO            5196   MALONE           No
161   1987   MR      KAWANO     EIICHI          449    MALONE           No
162   1981   PA      KELINO     RICO            6897   WEBB             No
163   1982   UT      KELLEY     RONALD          7488   MALONE           No
164   1987   US/CA   KELLOGG    ARTHUR          1047   MALONE           No
165   1985   TN      KENNEDY    RONALD          7177   JORDAN/RUDOLPH   No
166   1987   MD      KNAPP      JAMES           5157   RUDOLPH/RONAY    No
167   1991   MD      KOSMAS     STANLEY         253    MALONE           No
168   1980   AK      KOUTCHAK   FREDDIE         7378   MALONE           No
169   1984   US/OH   KRACK      CHARLES         7197   THURMAN          No
170   1991   KS      KROUPA     JAMIE           2217   WHITEHURST       No
171   1979   IL      KUCABA     GEORGE          7360   WEBB             No
172   n/a    US/MD   LA FON     HERBERT         7050   RUDOLPH          No
173   1984   AK      LAMBERT    NEWTON          6358   MALONE           No
174   1983   US/SC   LANEY      DENNIS          6784   THURMAN          No




                                          109
175   1984   US/OK   LAUBACH    THOMAS          6720   THURMAN           No
176   1991   FL      LEE        SAMMY           995    MALONE            No
177   1994   FL      LEE        MICHAEL         995    MALONE            No
178   1979   NC      LEWIS      JAMES           5866   MALONE            No
179   1985   NJ      LINDSAY    RICARDO         4847   RUDOLPH/RONAY     No
180   1989   TN      LOMBARDO   TERRY           702    MALONE            No
181   1984   FL      LONG       ROBERT          2105   MALONE            No
      n/a    FL      LONG       ROBERT          3559   MALONE            No
      1985   FL      LONG       ROBERT          5319   MALONE            No
      1985   FL      LONG       ROBERT          5521   MALONE            No
      n/a    FL      LONG       ROBERT          5567   MALONE            No
      1985   FL      LONG       ROBERT          5632   MALONE            No
      n/a    FL      LONG       ROBERT          5747   MALONE            No
      n/a    FL      LONG       ROBERT          5748   MALONE            No
      n/a    FL      LONG       ROBERT          5749   MALONE            No
      1985   FL      LONG       ROBERT          6649   MALONE            No
182   1981   US/CA   LOO        CLDE            3258   RUDOLPH/MARTZ     No
183   1991   AR      LOY        MICHAEL         2213   WHITEHURST        No
184   1979   US/KY   LUNSFORD   DENNIS          7432   MALONE            No
185   1987   LA      MAGOUIRK   KENNETH         310    MALONE            No
186   1983   FL      MALONE     HENRY           6423   MALONE            No
187   n/a    OR      MARCA      BRADLEY         4690   RUDOLPH/THURMAN   No
188   1986   US/FL   MARKS      EDWARD          3113   MARTZ             No
189   1988   NJ      MARTA      JUAN            1992   WEBB              No
190   n/a    FL      MARTINEZ   ELEVIAL         6524   MALONE            No
191   1985   FL      MARTINO    JOSEPH          6514   MALONE            No
192   1979   PA      MASON      GERALD          6897   WEBB              No




                                          110
193   1991   FL      MATHIS       JOHNNY          995    MALONE         No
194   1988   US/PA   MCFADDEN     RANDALL         3749   WHITEHURST     No
195   1986   TN      MCGHEE       GEORGE          172    MALONE         No
196   1982   FL      MCGOWAN      THOMAS          6269   MALONE         No
197   1994   MD      MCINTURFF    PAUL            1249   MALONE         No
198   1982   US/MN   MCIVOR       DONALD          6255   MALONE         No
199   1983   US/DC   MCLAMORE     RAY             6352   MALONE         No
200   n/a    WV      MEADOWS      JAMES           4855   RUDOLPH        No
201   n/a    KS      MEDLEY       BRENT           2217   WHITEHURST     No
202   1984   AK      MEDWIN       DANIEL          6405   MALONE/MARTZ   No
203   1988   US/PR   MENA         EDUARDO         3285   MARTZ          No
204   1990   WA      METCALF      TOMMY           7309   WEBB           No
205   1994   FL      MILLER       GEORGIA         1280   MALONE         No
206   1994   FL      MILLS        GARY L.         964    MALONE         No
207   1993   FL      MILLS        GARY            1023   MALONE         No
                                  LORENZO
208   1991   US/LA   MINOR        ADOLF           46     MALONE         No
209   1995   ME      MITCHELL     THOMAS          1903   WEBB           No
210   1993   CT      MONTESI      MARYBETH        2271   LASSWELL       No
211   1987   US/NM   MORGAN       WAYNE           1065   MALONE         No
212   1987   TN      MORRIS       SAM             450    MALONE         No
213   1989   FL      MOSER        WILLIAM         1937   WEBB           No
214   1985   NY      MUGGLEBERG   JOHN            4650   RUDOLPH        No
215   1987   CO      MULROY       DANIEL          1626   MARTZ          No
216   1994   FL      NAWARA       JASON           2252   WHITEHURST     No
217   1986   US/DC   NELSON       DERRIS          130    MALONE         No
218   1995   ID      NELSON       JOSEPH          2255   WHITEHURST     No




                                            111
219   1991   FL      NIXON          WILLIE          995       MALONE          No
220   1986   US/MT   NORUNNER       HAROLD          1054      MALONE          No
221   1990   MD      NOWLIN         JAMES           3442 LL   WEBB/HAHN       No
222   1983   AK      OREAR          DAVID           6368      MALONE          No
223   1991   FL      OWENS          TYRONE          995       MALONE          No
224   1989   US/TN   OWENSBY        MARVIN          3372      JORDAN/WEBB     No
225   1993   MD      PAGE           TYRONE          1222      MALONE          No
226   1993   MD      PAGE           JEROME          1222      MALONE          No
227   1982   MD      PAINTER        MICHAEL         4624      RUDOLPH         No
228   1983   ME      PALLITO        RICHARD         6320      MALONE          No
229   1986   AK      PANNINGONA     ROXY            1920      WEBB            No
230   1985   NJ      PANTOJO        EDWIN           6415 A    MALONE          No
231   1988   DE      PARKER         JOSEPH          576       MALONE          No
232   n/a    US/CA   PAYNE          ZERRICK         3911      LASSWELL        No
233   n/a    SC      PEAKE          ALLEN           5320      MALONE          No
234   1990   AK      PELTOLA        RONALD          1727      MARTZ           No
235   1991   FL      PEREZ          AUGUSTINE       967       MALONE          No
236   1995   US/WA   PETRYKIEVICZ   OLIVER          2645      WILLIAMS        No
237   1980   US/WI   PHILLIPS       GEORGE          6883BB    MALONE          No
238   1987   US/CA   PILASKI        PETER           4353      RONAY/RUDOLPH   No
239   1987   SC      PINCKNEY       MICKELL         7467      MARTZ           No
240   1983   US/DC   PLATER         DARRYL          6352      MALONE          No
241   1987   SC      POINDEXTER     RANDY           2036      WEBB            No
242   1983   SC      POSTON         BILLY           6241      WEBB            No
243   1986   MD      PREAST         TIMOTHY         4908      THURMAN         No
244   1991   TX      RAMOS          GABRIEL         902       MALONE          No
245   1989   MD      RANSON         GERALD          93        MALONE          No




                                              112
246   1987   MD      REDD          ALVIN           1596      MARTZ              No
247   1987   US/KY   REED          CRAIG           3001      MARTZ              No
248   1987   US/KY   REED          STEPHEN         3001      MARTZ              No
249   1992   NH      REYNOLDS      DWIGHT          1172      MALONE             No
250   1989   NJ      RICE          GAIL            1648      MARTZ              No
251   n/a    NM      RICE          n/a             4841      MALONE/RUDOLPH     No
252   n/a    MD      ROBB          MAURICE         5081      JORDAN             No
253   1989   NJ      ROBINSON      MARK            2054      WEBB               No
254   1983   FL      ROMPAEY       STEVEN          4494      RUDOLPH            No
255   1984   IL      SANCHEZ       HECTOR          6538 LL   WEBB               No
256   1988   GU      SANTOS        HENRY           1614      MARTZ              No
257   1988   US/IL   SAUNDERS      PETER           5801      HECKMAN            No
258   1982   FL      SCARBOROUGH   LARRY           6283      MALONE             No
259   1988   IL      SCHINDLER     PATRICK         1625      MARTZ              No
260   1988   US/CA   SCHUMAKER     CARL            4719      RUDOLPH/RONAY      No
261   1989   US/MO   SCHWYHART     JASON           3053      MARTZ              No
262   1990   RI      SCURRY        WILLIE          709       MALONE             No
263   1995   NJ      SEEMS         GEORGE          5110      HECKMAN            No
264   1983   NH      SEFTON        SCOTT           6277      MALONE             No
265   1992   US/CA   SEILER        WILLIAM         3399      THURMAN/WEBB       No
266   n/a    DE      SHAHAN        DAWSON          278       MALONE             No
267   1986   MO      SHARP         CARL            187       MALONE             No
268   1989   SD      SHAW          JOHNATHAN       837       MALONE             No
269   1992   OH      SHEFFEY       ROLF            5116      LASSWELL/HECKMAN   No
270   1994   FL      SHEREN        DAVID           1280      MALONE             No
271   1987   US/CA   SMALL         SHAUN           4353      RONAY/RUDOLPH      No
272   1991   FL      SMITH         JOHN            995       MALONE             No




                                             113
273   1993   ME      SMITH         VIRGIL         2490     LASSWELL            No
274   n/a    US/PA   SMITH         EARL           2579     HAHN                No
275   1985   PA      SMITH         MITCHELL       4752     LASSWELL/THURMAN/   No
                                                           RUDOLPH
276   1983   US/DC   SMITH         THOMAS         6352     MALONE              No
277   1989   CA      SNIDER        GEORGE         5174     MARTZ/RONAY         No
278   1986   WA      SOLOMAN       JERRY          5259     MALONE              No
279   n/a    HI      SOUSA         LEROY          1680     MARTZ               No
280   1991   CA      ST. JACQUES   ROGER          4970LL   WHITEHURST          No
281   1987   SC      STACKHOUSE    ANTHONY        430      MALONE              No
282   1980   TN      STAFFORD      JIMMY          7225     RUDOLPH             No
283   1982   US/ID   STONE         LEBURN         6299     MALONE              No
284   1990   SD      STORDAHL      BRIAN          837      MALONE              No
285   1990   AR      STRAWHACKER   LONNIE         846      MALONE              No
286   1992   PA      STYER         BRETT          1165     MALONE              No
287   1988   PA      TAFT          RANDY          468      MALONE              No
288   1983   ME      TAIT          TIMOTHY        6282     MALONE              No
289   1985   US/DC   TERRY         WALTER         6601     MALONE              No
290   1987   FL      THEBERGE      BARBARA        2039     WEBB                No
291   1985   FL      THOMAS        CURTIS         6437     MALONE              No
      1985   FL      THOMAS        CURTIS         6446     MALONE              No
292   1984   US/OH   THOMAS        CARL           7197     THURMAN             No
293   1989   FL      THOMPSON      KEVIN          588      MALONE              No
294   1983   CT      THOMPSON      WILLIE         6391     WEBB                No
295   1985   FL      THORNTON      DAVIS          4495     RUDOLPH             No
296   1991   FL      TIBBETTS      DAROLD         755      MALONE              No
297   1987   OK      TILSON        MARTIN         5477     WEBB                No




                                            114
298   1981   CO      TOLERTON        KENYON          5911      MALONE        No
299   1994   CA      TOMPKINS        THEODORE        5121      WHITEHURST/   No
                                                               HECKMAN
300   1986   AK      TOOVAK          TIMOTHY         1493      MARTZ         No
301   1990   TX      TREZELL-BURNS   MARTINNIE       742       MALONE        No
302   1994   CT      TRINE           TERENCE         2271      LASSWELL      No
303   1990   CT      TRUTT           FRAN            5022      WILLIAMS      No
304   n/a    US/FL   TUTTLE          WILLIAM         3838      HECKMAN       No
305   n/a    NJ      VALENCIA        HELMER          6415 A    MALONE        No
306   1990   NC      VARNER          CHARLES         653       MALONE        No
307   1987   TX      VELASQUEZ       MARIO           1978      WEBB          No
308   n/a    KS      VINDUSKA        ERIC            2217      WHITEHURST    No
309   n/a    NC      VINSON          JERRY           6906      MALONE        No
      n/a    NC      VINSON          JERRY           7402      MALONE        No
310   n/a    US/CA   WALLACE         CONKLIN         6755 BB   THURMAN       No
311   n/a    US/CA   WALLACE         ARTHUR          6755 BB   THURMAN       No
312   n/a    GU      WARAKIA         JOSEPH          2184      WEBB          No
313   1989   DE      WATERMAN        JEROME          465       MALONE        No
314   1988   NC      WEAVER          PATRICIA        2023      WEBB          No
315   n/a    DE      WEBSTER         RICHARD         4787      RUDOLPH       No
316   1984   FL      WHITE           CURTIS          4669      RUDOLPH       No
317   1980   US/WI   WIENEKE         DENNIS          6883BB    MALONE        No
318   1993   MI      WIKARYASZ       ROBERT          2459      LASSWELL      No
319   1993   MI      WIKARYASZ       JASON           2459      LASSWELL      No
320   1984   AK      WILKIE          JEFFERY         6577      MALONE        No
321   1991   NY      WILKINSON       TIMOTHY         2136      WEBB          No
322   1988   ID      WILLIAMS        ROY             680       MALONE        No




                                               115
323   1983          US/DC   WILLIAMS   RODNEY          6352   MALONE           No
324   n/a           US/DC   WILLIS     JAMES           1806   RUDOLPH          No
325   1993          US/AR   WILSON     ANDRE           1375   MALONE           No
326   1991          US/ID   WINSLOW    ROBERT          3643   LASSWELL/HAHN/   No
                                                              WHITEHURST
327   1986          US/VI   WONG       ALLAN           1517   MARTZ            No
328   1984          NY      WOODWARD   JEFFREY         1890   RUDOLPH          No
329   n/a           US/PA   WOODY      MICHAEL         3379   WEBB             No
330   1988          SD      WRIGHT     BETTY           671    MALONE           No
331   SEALED CASE                                      164    MALONE           No
332   SEALED CASE                                      2323   LASSWELL         No
333   SEALED CASE                                      4697   RUDOLPH          No
334   SEALED CASE                                      5070   MARTZ            No
335   SEALED CASE                                      5072   MARTZ            No
336   SEALED CASE                                      5172   RONAY            No
337   SEALED CASE                                      5552   LASSWELL         No
338   1984          US/OK   YATES      STEPHEN         6720   THURMAN          No
339   1988          AK      YEARTY     RICHARD         538    MALONE           No
340   1989          FL      YELTON     JILL            2836   MARTZ            No
341   1987          MR      YONEDA     KOICHI          449    MALONE           No
342   n/a           HI      YOUNG      MELVIN          1680   MARTZ            No
343   1979          US/MD   YOUNG      MICHAEL         7050   RUDOLPH          No
344   1979          FL      ZOGRAFOS   IOANNIS         7404   MALONE           No
                                       (JOHN)




                                                 116
345   1988   OH   OSWALT      CHARLES        586    MALONE   No   Task Force likely
                                                                  produced
                                                                  independent
                                                                  scientist’s report
                                                                  (ISR) in response
                                                                  to defendant’s
                                                                  Freedom of
                                                                  Information Act
                                                                  request.
346   1985   FL   DICKERSON   TROY           137    MALONE   No   Hillsborough
                                                                  County case. St.
                                                                  Petersburg Times
                                                                  article in file
                                                                  referencing
                                                                  disclosure.
347   1988   FL   FRAME       JOHN           634    MALONE   No   Hillsborough
                                                                  County case. St.
                                                                  Petersburg Times
                                                                  article in file
                                                                  referencing
                                                                  disclosure.
      1988   FL   FRAME       JOHN           635    MALONE   No   Hillsborough
                                                                  County case. St.
                                                                  Petersburg Times
                                                                  article in file
                                                                  referencing
                                                                  disclosure.
348   1990   FL   GRADY       ISAIAH         793    MALONE   No   Hillsborough
                                                                  County case. St.
                                                                  Petersburg Times
                                                                  article in file
                                                                  referencing
                                                                  disclosure.
349   1982   FL   IGLES       RUDENE         6345   MALONE   No   Hillsborough
                                                                  County case. St.
                                                                  Petersburg Times
                                                                  article in file
                                                                  referencing
                                                                  disclosure.




                                       117
350   1994   FL   JONES      AUSTIN         124    MALONE            No   Hillsborough
                                                                          County case. St.
                                                                          Petersburg Times
                                                                          article in file
                                                                          referencing
                                                                          disclosure.
351   1993   FL   KOHUT      MARK           1282   MALONE/LASSWELL   No   Hillsborough
                                                                          County case. St.
                                                                          Petersburg Times
                                                                          article in file
                                                                          referencing
                                                                          disclosure.
352   1998   FL   MCLENDON   DEWAYNE        6544   MALONE            No   Hillsborough
                                                                          County case. St.
                                                                          Petersburg Times
                                                                          article in file
                                                                          referencing
                                                                          disclosure.
353   1992   FL   MILFORD    ROBERT         1207   MALONE            No   Hillsborough
                                                                          County case. St.
                                                                          Petersburg Times
                                                                          article in file
                                                                          referencing
                                                                          disclosure.
354   1982   FL   MITCHELL   ROBYN          6345   MALONE            No   Hillsborough
                                                                          County case. St.
                                                                          Petersburg Times
                                                                          article in file
                                                                          referencing
                                                                          disclosure.
355   1991   FL   MORDENTI   MICHAEL        808    MALONE            No   Hillsborough
                                                                          County case. St.
                                                                          Petersburg Times
                                                                          article in file
                                                                          referencing
                                                                          disclosure.




                                      118
356   n/a    FL   PATE        STEPHEN         129    MALONE            No   Hillsborough
                                                                            County case. St.
                                                                            Petersburg Times
                                                                            article in file
                                                                            referencing
                                                                            disclosure.
357   1993   FL   PELLETT     JEFFREY         1282   MALONE/LASSWELL   No   Hillsborough
                                                                            County case. St.
                                                                            Petersburg Times
                                                                            article in file
                                                                            referencing
                                                                            disclosure.
358   1988   FL   PERKINS     BRIAN           634    MALONE            No   Hillsborough
                                                                            County case. St.
                                                                            Petersburg Times
                                                                            article in file
                                                                            referencing
                                                                            disclosure.
      1988   FL   PERKINS     BRIAN           635    MALONE            No   Hillsborough
                                                                            County case. St.
                                                                            Petersburg Times
                                                                            article in file
                                                                            referencing
                                                                            disclosure.
359   1985   FL   PHOMMARNK   SOVKA           137    MALONE            No   Hillsborough
                                                                            County case. St.
                                                                            Petersburg Times
                                                                            article in file
                                                                            referencing
                                                                            disclosure.
360   1989   FL   PILGRIM     WALTER          694    MALONE            No   Hillsborough
                                                                            County case. St.
                                                                            Petersburg Times
                                                                            article in file
                                                                            referencing
                                                                            disclosure.




                                        119
361   1982   FL   REESE      ANGELA         6345   MALONE            No   Hillsborough
                                                                          County case. St.
                                                                          Petersburg Times
                                                                          article in file
                                                                          referencing
                                                                          disclosure.
362   1991   FL   RICE       LARRY          2304   LASSWELL          No   Hillsborough
                                                                          County case. St.
                                                                          Petersburg Times
                                                                          article in file
                                                                          referencing
                                                                          disclosure.
363   1993   FL   ROURK      CHARLES        1282   MALONE/LASSWELL   No   Hillsborough
                                                                          County case. St.
                                                                          Petersburg Times
                                                                          article in file
                                                                          referencing
                                                                          disclosure.
364   1986   FL   SHEPARD*   CLAYBORN       254A   MALONE            No   Hillsborough
                                                                          County case. St.
                                                                          Petersburg Times
                                                                          article in file
                                                                          referencing
                                                                          disclosure.
      1986   FL   SHEPARD*   CLAYBORN       254B   MALONE            No   Hillsborough
                                                                          County case. St.
                                                                          Petersburg Times
                                                                          article in file
                                                                          referencing
                                                                          disclosure.
365   1993   FL   SMITH      DONALD         2055   WEBB              No   Hillsborough
                                                                          County case. St.
                                                                          Petersburg Times
                                                                          article in file
                                                                          referencing
                                                                          disclosure.




                                      120
366   1991   FL   TORRES     FELIX          920    MALONE   No   Hillsborough
                                                                 County case. St.
                                                                 Petersburg Times
                                                                 article in file
                                                                 referencing
                                                                 disclosure.
367   1984   FL   WILLIAMS   TIM            6480   MALONE   No   Hillsborough
                                                                 County case. St.
                                                                 Petersburg Times
                                                                 article in file
                                                                 referencing
                                                                 disclosure.
368   1990   FL   WILSON     BETTY          1642   MARTZ    No   Hillsborough
                                                                 County case. St.
                                                                 Petersburg Times
                                                                 article in file
                                                                 referencing
                                                                 disclosure.
369   1985   FL   XAYAVONG   SOMATH         137    MALONE   No   Hillsborough
                                                                 County case. St.
                                                                 Petersburg Times
                                                                 article in file
                                                                 referencing
                                                                 disclosure.
370   1984   FL   BARD       JAMES          6427   MALONE   No   Prosecutors
                                                                 communicated to
                                                                 the Task Force
                                                                 that they would
                                                                 disclose the ISR.
                                                                 Forms of
                                                                 communication
                                                                 include: call, fax,
                                                                 and letter.
371   1994   FL   BELL       WILLIE         5403   MALONE   No   Prosecutor
                                                                 communicated to
                                                                 the Task Force
                                                                 intent to disclose
                                                                 the ISR.




                                      121
372   1986   CA   BENDER    COLUMBUS       55LL   MALONE               No   Prosecutor
                                                                            communicated to
                                                                            the Task Force
                                                                            intent to disclose
                                                                            the ISR.
373   1986   CA   BENDER    GEORGE         55LL   MALONE               No   Prosecutor
                                                                            communicated to
                                                                            the Task Force
                                                                            intent to disclose
                                                                            the ISR.
374   n/a    NC   BRIDGER   FRANKLIN       6297   MALONE               No   Prosecutor
                                                                            communicated to
                                                                            the Task Force
                                                                            intent to disclose
                                                                            the ISR.
375   1996   NJ   COFFMAN   BRIAN          4934   HIGGINS/WHITEHURST   No   Prosecutor
                                                                            communicated to
                                                                            the Task Force
                                                                            intent to disclose
                                                                            the ISR.
376   1984   FL   DAVIS     JOETTE         6523   MALONE               No   Prosecutor
                                                                            communicated to
                                                                            the Task Force
                                                                            intent to disclose
                                                                            the ISR.
377   1992   FL   DOLAN     MICHAEL        862    MALONE               No   Prosecutor
                                                                            communicated to
                                                                            the Task Force
                                                                            intent to disclose
                                                                            the ISR.
378   1993   FL   GREEN     ANTHONY        6300   MALONE               No   Prosecutor
                                                                            communicated to
                                                                            the Task Force
                                                                            intent to disclose
                                                                            the ISR.
379   1984   FL   GUNN      GREGORY        6523   MALONE               No   Prosecutor
                                                                            communicated to
                                                                            the Task Force
                                                                            intent to disclose
                                                                            the ISR.




                                     122
380   1986   TN   HODGE      TERRY          1466   MARTZ    No   Prosecutor
                                                                 communicated to
                                                                 the Task Force
                                                                 intent to disclose
                                                                 the ISR.
381   1980   AK   KINGOSAK   JIMMY          7392   MALONE   No   Prosecutor
                                                                 communicated to
                                                                 the Task Force
                                                                 intent to disclose
                                                                 the ISR.
382   1988   TN   KYLES      TARRAN         352    MALONE   No   Prosecutor
                                                                 communicated to
                                                                 the Task Force
                                                                 intent to disclose
                                                                 the ISR.
383   1986   TN   RUTLEDGE   DAVID          250    MALONE   No   Prosecutor
                                                                 communicated to
                                                                 the Task Force
                                                                 intent to disclose
                                                                 the ISR.
384   1984   FL   SMITH      NATHAN         6558   MALONE   No   Prosecutor
                                                                 communicated to
                                                                 the Task Force
                                                                 intent to disclose
                                                                 the ISR.
385   1980   AK   SPENCER    RICK           6945   MALONE   No   Prosecutor
                                                                 communicated to
                                                                 the Task Force
                                                                 intent to disclose
                                                                 the ISR.
386   1982   GA   WILLIAMS   WAYNE          5746   WEBB     No   Prosecutor
                                                                 communicated to
                                                                 the Task Force
                                                                 intent to disclose
                                                                 the ISR.
387   1989   FL   REUTTER    DAVID          5855   MALONE   No   St. Petersburg
                                                                 Times article
                                                                 referencing ISR
                                                                 findings.




                                      123
388   1993   FL      BOGLE      BRETT          1029   MALONE   Yes   Evidence of
                                                                     disclosure
                                                                     referenced in
                                                                     court documents.
389   1992   US/DC   BRAGDON    ANTHONY        5497   MALONE   Yes   Evidence of
                                                                     disclosure
                                                                     referenced in
                                                                     court documents.
390   n/a    CT      ASHERMAN   STEVEN         5456   MALONE   Yes   Two letters in the
                                                                     file: (1) prosecutor
                                                                     letter to Task
                                                                     Force stating that
                                                                     the ISR was
                                                                     disclosed to
                                                                     defendant/counse
                                                                     l and (2) copy of
                                                                     the disclosure
                                                                     letter.
391   1993   RI      BLEAU      CARLTON        591    MALONE   Yes   Two letters in the
                                                                     file: (1) prosecutor
                                                                     letter to Task
                                                                     Force stating that
                                                                     the ISR was
                                                                     disclosed to
                                                                     defendant/counse
                                                                     l and (2) copy of
                                                                     the disclosure
                                                                     letter.
392   n/a    TX      CARSON     CLAUDE         1194   MALONE   Yes   Two letters in the
                                                                     file: (1) prosecutor
                                                                     letter to Task
                                                                     Force stating that
                                                                     the ISR was
                                                                     disclosed to
                                                                     defendant/counse
                                                                     l and (2) copy of
                                                                     the disclosure
                                                                     letter.




                                         124
393   1986   US/MO   CARTER      HERMAN         31     MALONE   Yes   Two letters in the
                                                                      file: (1) prosecutor
                                                                      letter to Task
                                                                      Force stating that
                                                                      the ISR was
                                                                      disclosed to
                                                                      defense/counsel
                                                                      and (2) copy of the
                                                                      disclosure letter.
394   1986   NY      DILORENZO   ALFRED         171    MALONE   Yes   Two letters in the
                                                                      file: (1) prosecutor
                                                                      letter to Task
                                                                      Force stating that
                                                                      the ISR was
                                                                      disclosed to
                                                                      defendant/counse
                                                                      l and (2) copy of
                                                                      the disclosure
                                                                      letter.
395   1984   WA      GIFFING     RONALD         6596   MALONE   Yes   Two letters in the
                                                                      file: (1) prosecutor
                                                                      letter to Task
                                                                      Force stating that
                                                                      the ISR was
                                                                      disclosed to
                                                                      defendant/counse
                                                                      l and (2) copy of
                                                                      the disclosure
                                                                      letter.
396   1986   TN      IRICK       BILLY          5284   MALONE   Yes   Two letters in the
                                                                      file: (1) prosecutor
                                                                      letter to Task
                                                                      Force stating that
                                                                      the ISR was
                                                                      disclosed to
                                                                      defendant/counse
                                                                      l and (2) copy of
                                                                      the disclosure
                                                                      letter.




                                          125
397   1992   TN      JACKSON   JAMES          996    MALONE     Yes   Two letters in the
                                                                      file: (1) prosecutor
                                                                      letter to Task
                                                                      Force stating that
                                                                      the ISR was
                                                                      disclosed to
                                                                      defendant/counse
                                                                      l and (2) copy of
                                                                      the disclosure
                                                                      letter.
398   1987   IN      JACKSON   MICHAEL        1553   MARTZ      Yes   Two letters in the
                                                                      file: (1) prosecutor
                                                                      letter to Task
                                                                      Force stating that
                                                                      the ISR was
                                                                      disclosed to
                                                                      defense/counsel
                                                                      and (2) copy of the
                                                                      disclosure letter.
399   1983   PA      MAYO      GERALD         4703   RUDOLPH/   Yes   Two letters in the
                                                     LASSWELL         file: (1) prosecutor
                                                                      letter to Task
                                                                      Force stating that
                                                                      the ISR was
                                                                      disclosed to
                                                                      defense/counsel
                                                                      and (2) copy of the
                                                                      disclosure letter.
400   n/a    US/TX   ORTLOFF   ROBERT         3405   THURMAN    Yes   Two letters in the
                                                                      file: (1) prosecutor
                                                                      letter to Task
                                                                      Force stating that
                                                                      the ISR was
                                                                      disclosed to
                                                                      defense/counsel
                                                                      and (2) copy of the
                                                                      disclosure letter.




                                        126
401   1986   NJ   PITTMAN   DONALD         168   MALONE   Yes   Two letters in the
                                                                file: (1) prosecutor
                                                                letter to Task
                                                                Force stating that
                                                                the ISR was
                                                                disclosed to
                                                                defendant/counse
                                                                l and (2) copy of
                                                                the disclosure
                                                                letter.
402   1988   WA   SUGATCH   ALEX           443   MALONE   Yes   Two letters in the
                                                                file: (1) prosecutor
                                                                letter to Task
                                                                Force stating that
                                                                the ISR was
                                                                disclosed to
                                                                defendant/counse
                                                                l and (2) copy of
                                                                the disclosure
                                                                letter.




                                     127
            APPENDIX I:
DEPARTMENT RESPONSE TO OIG REPORT




               128
129
130
131
132
133
134
135
                          APPENDIX J:
             OIG ANALYSIS OF DEPARTMENT RESPONSE

      The Office of the Inspector General (OIG) provided a draft of this
report to the Department of Justice (Department), which coordinated its
review of the draft with the Federal Bureau of Investigation (FBI). The
Department’s and the FBI’s consolidated response is attached to this
report as Appendix I. The OIG’s analysis of the Department’s response
and the actions necessary to address the recommendations are
discussed below.

      The OIG recognizes the difficulties the Department faced in
responding to a review that examined events that occurred many years
ago and actions of some persons with important roles who are no longer
available. Accordingly, we appreciate the significant effort and resources
the Department committed to facilitate our review, and its detailed
responses to our draft report. The Department’s expressed commitment
to take swift action in response to the information we brought to its
attention during our review was an early indication of the Department’s
determination to fulfill the original mission of the Task Force: ensuring
that no defendant’s right to a fair trial was compromised by the
unreliable analysis or testimony of one or more FBI Laboratory (Lab)
examiners. The Department’s concurrence in each of our
recommendations further demonstrates its commitment to that objective.

      We do not agree, however, with the Department’s criticisms of our
report, as described in its response.

       First, the Department highlights in its response the measures it
took at different times to stress to prosecutors the importance of making
constitutionally required disclosures to defendants. As we discuss on
pages 20-23 of the report, we found this to be true with regard to federal
prosecutors, but not consistently so with state prosecutors, even taking
into account that the Department had no authority over the actions of
state prosecutors. The Department also stated in its response that it
raised to prosecutors the importance of high-level supervisors being
involved in case-specific disclosure decisions. During our review, we
found that this was the case in 1996 when the Department was initially
addressing the Whitehurst allegations. However, we did not find the
same emphasis in the Task Force’s communications with prosecutors
after the 1997 OIG Report was issued and after the Department modified
the mission of the Task Force to focus on 13 criticized examiners.

      Most essential to the success of the Task Force mission was the
disclosure, where appropriate, of the independent scientists’ reports
finding problems with the Lab analysis or testimony to defendants whose


                                   136
convictions may have been tainted by such unreliable analysis or
testimony. As explained on pages 78-79 of the report, the Department’s
planning for the communication to prosecutors about the disclosure of
the independent scientists’ reports was not sufficiently clear and
prescriptive. Consequently, some prosecutors failed to disclose
independent scientists’ reports to defendants whose convictions were
potentially tainted by problematic Lab analysis or testimony that the
prosecutor had determined to be material to the defendants’ convictions.
As we concluded, the Department failed to give adequate consideration to
the problematic scenarios that it could reasonably have anticipated
would arise and that, in fact, did arise when it came to prosecutors’
obligations to disclose the independent scientists’ reports to defendants.

       Second, the Department maintains that it provided sufficient
information and guidance to enable prosecutors to satisfy their
constitutionally mandated disclosure obligations. The Department
further contends that it was appropriate for both federal and state
prosecutors alone to make the materiality and disclosure determinations.
We agree that it was appropriate for the Task Force to rely on the
prosecutors to determine whether Lab analysis or testimony was material
to the defendants’ convictions, and we did not suggest otherwise in our
report.

      However, as stated on pages 78-79 of our report, we believe the
Department should have been much more direct in its communications
with both federal and state prosecutors when it was clear that the
independent scientists’ reports should be disclosed to the defendants.
Specifically, the Department should have been more explicit in cases
where the prosecutor had already determined and informed the Task
Force that the Lab analysis or testimony was material to the defendants’
conviction and the independent scientists’ report concluded that material
Lab evidence was unreliable. We do not agree, as the Department
suggests, that there was always a fluid exchange of communications
between the Task Force and the prosecutors, or that all prosecutors
would readily and immediately take note of an independent scientist’s
report that revealed deficiencies in a Lab examiner’s analysis or
testimony and disclose it as required. Indeed, we found evidence to the
contrary, as described in our report at page 43.

       Moreover, although we agree that the Task Force’s failure to track
disclosures by prosecutors to defendants does not mean that prosecutors
did not disclose the independent scientists’ reports, it is indisputable
that in one case (Gates), as we highlight on pages 79-80 of our report,
the U.S. Attorney’s Office did not timely disclose the independent
scientist’s report to the defendant, whose conviction was tainted by FBI
Lab analysis and who was later exonerated after spending 27 years in


                                   137
prison. In another case (Huffington), the state prosecutor never disclosed
the independent scientist’s report to the defendant, notwithstanding
repeated requests by the defendant’s counsel for exculpatory information
concerning hair analysis conducted by the FBI. See page 43 of the report
for additional discussion of these cases.

       Third, the Department states in its response that it was reasonable
for the independent scientists to conduct file reviews without retesting
physical evidence. The Department posits that its decision was
reasonable and effective in identifying deficiencies in Lab examiners’
work by virtue of having “conformed to ASCLD/LAB [American Society of
Crime Laboratory Directors/Laboratory Accreditation Board]
accreditation criteria for technical review at that time.” Despite our
request during the review for the publicly unavailable documentation
that would support this position, the Department did not produce to us
the ASCLD/LAB accreditation criteria for technical review that existed at
the time. More importantly, as we discussed on page 27 of the report,
even if the Department’s approach had been consistent with the
ASCLD/LAB accreditation criteria for technical review, we found that the
approach was not uniformly viewed by the FBI Lab as appropriate for the
nature of this case review. Also, as we explained on pages 77-78 of the
report, the approach was short-sighted.

      We appreciate that the Department has concurred in each of our
recommendations and has begun to implement those recommendations.
We respectfully request that the Department update the OIG on its
progress within 90 days of the date of this report and include a timeline
for completing its work on each recommendation.

      We also note that the Department describes a “comprehensive
review of hair comparison analysis” it began in the summer of 2012. As
we state in our report at page 6, footnote 12, that review is distinct from
our examination of the Task Force’s work. We credit the Department for
recognizing the need to undertake this separate review. However,
because the Department’s hair comparison analysis review is outside the
scope of our review and report, we are not in a position to evaluate the
Department’s efforts at this time.




                                   138
